<html>
<title> - NOMINATIONS CONSIDERED DURING THE SECOND SESSION OF THE 106th CONGRESS</title>
<body><pre>[Senate Hearing 106-745]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-745
 
 NOMINATIONS CONSIDERED DURING THE SECOND SESSION OF THE 106th CONGRESS

=======================================================================

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

 THE NOMINATION OF ERIC D. EBERHARD TO BE A MEMBER, BOARD OF TRUSTEES, 
 MORRIS K. UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL ENVIRONMENTAL 
                  POLICY FOUNDATION--FEBRUARY 3, 2000

    THE NOMINATION OF W. MICHAEL McCABE TO BE DEPUTY ADMINISTRATOR, 
           ENVIRONMENTAL PROTECTION AGENCY--FEBRUARY 3, 2000

  THE NOMINATION OF ELLA WONG-RUSKINKO TO BE AN ALTERNATE FEDERAL CO-
         CHAIR, APPALACHIAN REGIONAL COMMISSION--JUNE 13, 2000

  THE NOMINATION OF ARTHUR C. CAMPBELL TO BE ASSISTANT SECRETARY FOR 
      ECONOMIC DEVELOPMENT, DEPARTMENT OF COMMERCE--JUNE 13, 2000

  THE NOMINATION OF JAMES V. AIDALA TO BE ASSISTANT ADMINISTRATOR FOR 
PREVENTION, PESTICIDES, AND TOXIC SUBSTANCES, ENVIRONMENTAL PROTECTION 
                         AGENCY--JUNE 13, 2000


                    U.S. GOVERNMENT PRINTING OFFICE
66-376 cc                   WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                   BOB SMITH, New Hampshire Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 3, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     2
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     1
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    14
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     4

                               WITNESSES

Biden, Hon. Joseph, U.S. Senator from the State of Delaware......     4
Bracy, Terrence L., Chairman, Board of Trustees for the Morris K. 
  Udall Scholarship and Excellence in National Environmental 
  Policy Foundation..............................................    16
Eberhard, Eric D., nominated by the President to serve as a 
  Member of the Board of Trustees for the Morris K. Udall 
  Scholarship and Excellence in National Environmental Policy 
  Foundation.....................................................    10
    Committee questionnaire......................................    54
    Letters:
        Senator John McCain......................................    52
        Terrence L. Bracy........................................    53
    Prepared statement...........................................    50
    Response to additional question from Senator Graham..........    51
McCabe, W. Michael, nominated by the President to serve as Deputy 
  Administrator of the Environmental Protection Agency...........     9
    Committee questionnaire......................................    35
    Letter, Office of Government Ethics..........................    45
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Crapo............................................    26
        Senator Graham...........................................    32
        Senator Lautenberg.......................................    31
        Senator Smith............................................    21
        Senator Thomas...........................................    34
    Resume, W. Michael McCabe....................................    47
                                 ------                                

                             JUNE 13, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    97
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    90
Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.    71
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    69
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    80
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    65
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...83, 87 
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    67

                               WITNESSES

Aidala, James V., nominated by the President to be Assistant 
  Administrator for the Office of Prevention, Pesticides and 
  Toxic Substances, Environmental Protection Agency..............    81
    Committee questionnaire......................................   135
    Letter, Environmental Protection Agency......................   144
    Prepared statement...........................................   124
    Responses to additional questions from:
        Senator Baucus...........................................   130
        Senator Graham...........................................   127
        Senator Hutchison........................................   133
        Senator Smith..........................................126, 146
Campbell, Arthur C., nominated by the President to be Assistant 
  Secretary for Economic Development, Department of Commerce.....    77
    Committee questionnaire......................................   116
    Prepared statement...........................................   114
Frist, Hon. Bill, U.S. Senator from the State of Tennessee.......    68
Robb, Hon. Charles, U.S. Senator from the Commonwealth of 
  Virginia.......................................................
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........    70
Thompson, Hon. Bennie G., U.S. Representative from the State of 
  Mississippi....................................................    72
Wamp, Hon. Zach, U.S. Representative from the State of Tennessee.    72
Wong-Rusinko, Ella, nominated by the President to be Alternate 
  Federal Co-Chair of the Appalachian Regional Commission........    74
    Committee questionnaire......................................   101
    Letters:
        Appalachian Regional Commission..........................   109
        McConnell, Hon. Mitch, U.S. Senator from the Commonwealth 
          of Kentucky............................................   110
        Wong-Ruskinko, Ella, to Senator McConnell................   111
        Nash, Bob, Assistant to the President and Director of 
          Presidential Personnel.................................   113
    Prepared statement...........................................    97


         NOMINATIONS OF ERIC D. EBERHARD AND W. MICHAEL McCABE

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:15 a.m. in 
room 406, Senate Dirksen Building, Hon. Robert Smith (chairman 
of the committee) presiding.
    Present: Senators Smith, Chafee, Baucus, Lautenberg, Wyden, 
Thomas, and Chafee.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. The hearing will come to order. Good 
morning, ladies and gentlemen. Good morning, Mr. McCabe and Mr. 
Eberhard.
    The purpose of the hearing this morning is to consider the 
two nominations here in question. I apologize for the delay, 
but we did have a vote on the Senate Floor on Alan Greenspan.
    As the new Chairman of the committee, I plan to hold a 
series of oversight hearings on the EPA budget, the 
prioritization of resources, and overall performance, so I will 
be looking forward to working with you gentlemen in that 
regard. We do have some questions--some for the record, and 
some may be here in person--and I hope we will be able to get 
those answers resolved here this morning.
    From my own point of view, I think both of these gentlemen 
are very well qualified for their positions. I haven't heard of 
any registered opposition at this point, so I welcome you both 
today.
    [The prepared statement of Senator Smith follows:]
    Statement of Hon. Bob Smith, U.S. Senator from the State of New 
                               Hampshire
    Good morning. The purpose of today's hearing is to consider two 
nominations.
    The first nomination is that of W. Michael McCabe nominated to 
serve as Deputy Administrator of the Environmental Protection Agency.
    As the new chairman of the committee, I plan to hold a series of 
oversight hearings to examine EPA's budget, prioritization of 
resources, and overall performance.
    My colleagues and I have a number of questions for Mr. McCabe today 
on EPA-related concerns that I hope he will be able to answer for us.
    The second nomination is that of Eric D. Eberhard nominated to 
serve as a Member of the Board of Trustees for the Morris K. Udall 
Scholarship and Excellence in National Environmental Policy Foundation.
    I am pleased to report that Mr. McCabe and Mr. Eberhard are well 
qualified for their positions.
    I welcome them today and I also welcome Senator Biden, who is here 
today to introduce Mr. McCabe.
    The President has nominated W. Michael McCabe to serve as Deputy 
Administrator of the Environmental Protection Agency. The Deputy 
Administrator for EPA works with the Administrator to provide Agency 
leadership and is the Acting Administrator in the Administrator's 
absence.
    Mr. McCabe has served as EPA's Acting Deputy Administrator since 
last November.
    Formerly, Mr. McCabe was Regional Administrator of the EPA's Region 
3 where he lead the implementation of Federal environmental programs in 
the Middle Atlantic states.
    He also has worked for Senator Biden of Delaware as Communications 
and Projects Director and advisor on Delaware issues, and as Staff 
Director of the House Energy Conservation and Power Subcommittee.
    He received a B.A. from Duke University.
    He is accompanied today by his wife, Maria.
    The President has nominated Eric D. Eberhard to serve as a Member 
of the Board of Trustees for the Morris K. Udall Scholarship and 
Excellence in National Environmental Policy Foundation.
    Currently, Mr. Eberhard is a partner at Dorsey & Whitney where he 
practices in the areas of Federal Indian Law, Environment and Natural 
Resources, Gaming and legislation.
    Formerly, he was Staff Director and Counsel on the Senate Committee 
on Indian Affairs and Minority Staff Director and Counsel for the 
committee.
    He served for 2 years as Legislative Counsel for Senator John 
McCain of Arizona.
    Mr. Eberhard received a B.S. in Political Science from Western 
Reserve University, a J.D. from the University of Cincinnati College of 
Law, and a LL.M. from George Washington University National Law Center.
    The Morris K. Udall Scholarship and Excellence in National 
Environmental Policy Foundation was established by Congress in 1992 to 
educate and prepare a new generation of Americans in effective 
environmental public policy conflict resolution. Based in Tucson, 
Arizona, the Foundation's activities are supported by the interest 
accrued in a Federal trust fund and contributions from the private 
sector.
    Now we will hear the statements of other committee members. Then 
Senator Biden will introduce Mr. McCabe and we will hear testimony from 
our nominees.
    Senator Smith. I understand that Senator Biden is coming, 
Mr. McCabe, to introduce you formally, so let me just go a 
little bit out of order. Actually, Mr. Biden is coming in right 
now.
    Joe, I have a little bit of a problem here on your side. 
Frank needs to leave to go to Budget. Do you want to do your 
introduction, and then I can call on Frank?
    Senator Biden. Whatever suits you. I have all the time in 
the world.
    Senator Smith. All right. I'll call on Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. I was going to vote one way, but having 
Senator Biden here has caused me to rethink my vote.
    [Laughter.]
    Senator Smith. Senator Lautenberg?
    Senator Lautenberg. Thanks very much, and thanks, Senator 
Biden.
    I know that Michael McCabe has had a lot of contact with 
Joe Biden, and he comes with exceptional qualifications, as 
does Mr. Eberhard. I'm sorry I can't stay, but the position of 
the EPA Deputy Administrator is one of the great ``unsung 
hero'' jobs, and it's the Deputy who brings order to the far-
flung Agency of 18,000 employees. It is the Deputy who oversees 
work on the several major statutes we have passed, and if the 
Deputy doesn't do his or her job properly, EPA can't help but 
fall short of our expectations.
    That's why I am so pleased and excited about the nomination 
of Michael McCabe. As Regional Administrator for EPA's Mid-
Atlantic Region since 1995, Mr. McCabe has managed a unit that 
is a microcosm of the whole Agency. He has managed air, water, 
waste, Superfund, right to know programs, and he served as a 
bridge between the Mid-Atlantic States and the EPA 
Headquarters. From all accounts he has done a terrific job.
    As we know, Mr. McCabe has worked with our colleague and 
friend from Delaware--it should not be held against him----
    [Laughter.]
    Senator Lautenberg [continuing]. It's very good experience 
for anyone in line for the job of Deputy Administrator. He has 
proved that he has broad shoulders, because if he can take 
working with Senator Biden like that, he had to have broad 
shoulders.
    So we are pleased at the prospect that Mr. McCabe is going 
to be in that position and that he will do an outstanding job 
in a very important and demanding post, and I look forward to 
working with him on bipartisan legislation.
    I know that we will move some things this year, Mr. 
Chairman, and also I want to congratulate Mr. Eberhard on 
bringing the qualifications that he does to the Morris K. Udall 
Foundation.
    I thank all of my colleagues for letting me interrupt the 
process, particularly the Chairman.
    [The prepared statement of Senator Lautenberg follows:]
Statement of Hon. Frank Lautenberg, U.S. Senator from the State of New 
                                 Jersey
    Mr. Chairman, the EPA Deputy Administrator is one of the great 
unsung heroes. It is the Deputy who brings order to a far-flung Agency 
of 10,000 employees. It is the Deputy who oversees work on the several 
major statutes we have passed.
    If the Deputy is not doing his or her job right, EPA can't help but 
fall short of our expectations.
    That is exactly why am so excited about the nomination of Michael 
McCabe. As Regional Administrator for EPA's Mid-Atlantic Region since 
1995, Mr. McCabe has managed a unit that is a microcosm of the whole 
Agency.
    He has managed air, water, waste, Superfund, and Right-to-Know 
programs. He has served as a bridge between the mid-Atlantic states and 
EPA headquarters. From all accounts, he has done a terrific job.
    And as we have heard, Mr. McCabe has worked with our friend and 
colleague from Delaware--again, very good experience for anyone in line 
for the job of Deputy Administrator.
    I believe Mr. McCabe will do outstanding work in a very important 
and demanding job. look forward to working with him on the bipartisan 
legislation know we will move this year. Thank you, Mr. Chairman, for 
being so quick to move his nomination through our committee. I hope we 
can keep that momentum going, and put this good man to work.
    Senator Smith. All right, thank you, Senator Lautenberg.
    Senator Baucus, do you have any opening remarks?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Yes, Mr. Chairman, first to congratulate 
you on your first DC hearing with this committee. I know you 
had a hearing in Florida which I was unable to attend, but this 
is your first hearing as Chairman, and I look forward to a 
good, prosperous year working with you, and I congratulate you.
    Senator Smith. Thank you.
    Senator Baucus. Also I congratulate these nominees and 
thank them for their dedicated service in the past, and their 
continued service in their new positions.
    You have a lot of work ahead of you. You are not going to 
be thanked very much by people, but--as with all of us--the 
gratitude and fulfillment comes from doing the best we can. We 
think that we are helping to make life better for a lot of 
people. I compliment you on that. This is interesting, that you 
are here for the Chairman's first hearing. You will be 
confirmed, and I hope very quickly. I hope that is a harbinger 
of how this committee is going to operate and how the Senate is 
going to operate.
    Congratulations and good luck, and if you have any 
questions, just let us know how we can help you.
    Senator Smith. Thank you, Senator.
    Does anyone else have an opening statement prior to turning 
to the witnesses? Hold your questions if you have them, but if 
you have an opening comment?

             OPENING STATEMENT OF HON. RON WYDEN, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Wyden. Mr. Chairman, I will be brief as well. I 
don't want to turn this into a bouquet-tossing contest, but I, 
too, want to join in extending good will, and thank you for the 
opportunity to work with you. We've worked on a whole host of 
issues--Federal facilities, the streamlining of the ISTEA 
permitting process where you win in terms of both the 
environment and in terms of the economy.
    Mike McCabe is a terrific guy. I have some questions that 
are important for my State in a minute or two, but we had a 
chance to work closely with him in the House when he was at the 
Energy and Commerce Committee. So I think he's going to be a 
tremendous asset to the Federal Government and will continue 
the kind of bipartisan approach that we've tried to follow, 
first with Chairman Chafee and Senator Baucus, which you've 
told me you want to continue. So it's going to be an exciting 
time, and I look forward to working with you.
    Senator Smith. Thank you very much, Senator Wyden.
    Why don't we start with you, Senator Biden, to introduce 
Mr. McCabe.

                STATEMENT OF HON. JOSEPH BIDEN, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Biden. Thank you, Mr. Chairman. My congratulations 
to you as well. You and I are always characterized as being on 
opposite sides of the ideological spectrum. I don't want to 
ruin your reputation, but we've been friends and I have great 
respect for you. I appreciate your having this hearing in as 
timely fashion as you have.
    Let me say that although I am here to speak for Mike 
McCabe, Mr. Eberhard, from what I know of his record, is 
completely suited for the job. It makes me feel very old, 
though, to realize that I served with Morris K. Udall, and now 
you are about to become a Board Member of a foundation named 
after him and all that he has done.
    Mr. Chairman, I want to thank you and the committee for 
allowing me the opportunity to be here today to introduce Mike 
McCabe as we move forward with his nomination to become Deputy 
Administrator of the Environmental Protection Agency. I have 
known Mike for almost 30 years, starting in 1972 when he 
volunteered to work with me as a 29-year-old kid--I was 29, and 
he was younger than that--in a campaign for the Senate. His 
work during that campaign distinguished him immediately. After 
my election, while still a student at Duke University, I asked 
Mike to join me as one of my first interns--that's dating you, 
Mike, but I think you may have been the first, if not one of 
the first.
    Not surprisingly, Mike's first project as a young intern in 
my office was to research the environmental impacts of the 
construction of a proposed project along the Delaware River. 
That's in the beginning when we had a Republican Governor who 
did a very fine thing, in my view, who set up a thing called 
the Coastal Zone Act. It was very controversial, but now it is 
totally embraced by everyone, including business, in my State.
    From the start, Mike's interest and dedication in the 
preservation and restoration and improvement of our environment 
was clear, compelling, and deeply rooted--deeply rooted traits 
that would come to define his entire career. In 1976, while 
working as a legislative aide in the U.S. Senate, Mike was 
instrumental in expanding the Bipartisan Congressional--and I 
emphasize ``Bipartisan''--the Bipartisan Congressional 
Environmental and Energy Study Conference, designed to provide 
timely information to Congress on environmental and energy 
legislation and issues at a time when I was originally on this 
committee, Mr. Chairman, as the Public Works Committee. I 
remember one of the first things that I said to then-Chairman 
Randolph was, ``Maybe we should call it the Public Works and 
Environment Committee.'' And he said, ``Son, how long do you 
want to stay on this committee?''
    [Laughter.]
    Senator Biden. That's a true story.
    But at any rate, under Senator Chafee's direction, Mike 
served as Staff Director for the Conference for 3 years. He 
acted as the National Director for the 10th anniversary of 
Earth Day in 1980; served as Director on the U.S. House of 
Representatives Energy Conservation and Power Subcommittee, and 
under his leadership, the first national program to deal with 
the safe disposal of nuclear waste was enacted by Congress.
    In 1987, Mike returned to Delaware to become my 
Communications Director, and later my Projects Director. And 
whether he was advising me on issues of national significance 
or working to help revitalize, in a parochial sense for us, the 
Christina River waterfront in Wilmington, Delaware, or 
assisting me in an effort to return over 1,000 acres of land to 
the State of Delaware from the Federal Government that now is 
preserved in perpetuity--and hopefully all of you can take 
advantage of it--and that is Cape Henlopen State Park, Mike's 
counsel and contribution to my office and to me personally was 
invaluable. Few people understand so many issues so well, 
articulate them coherently to a wide array of audiences, and 
have developed solutions with significant results, and do it in 
a way that everyone feels like they're a part of it.
    By 1995, Mike's knowledge of the issues, his strength in 
managing staff, and his savvy in dealing with government on a 
local, State, and Federal level impressed so many of us in and 
outside of the State of Delaware that it would prepare him well 
for his next--and most recent--position as Administrator of the 
Environmental Protection Agency for Region III.
    As you know, Region III covers Delaware, Pennsylvania, 
Virginia, West Virginia, Maryland, and the District of 
Columbia. Mike has the distinction of working as the Region's 
longest-serving Administrator. Bias aside--which is hard to do, 
I acknowledge--Mike is the best Administrator ever to serve the 
Environmental Protection Agency, directing a staff of 1,000 
people and turning it into a more well-rounded, efficient, and 
well-respected organization. As we all know, and you all know 
better than any of us who do not serve on this committee, there 
is--Mike did something fairly remarkable, I think, at least in 
my region. Mike gained the confidence of business. Mike gained 
the confidence of the corporate community who, generally 
speaking, in my area view the EPA as ``whatever it is, it's 
going to cost me money; it's going to be a problem.'' It has 
been remarkable, and I might add in part because--and Mike will 
not like my saying this--Mike's nonprofessional background is 
that he has a working social and first-hand relationship with 
the CEOs of many of the Fortune 30 companies that are in my 
region. It is not merely that they know Mike; Mike used every 
one of his assets, including his ability to socially interact 
with those people, as well, and by talking to people, by 
talking to these folks whose immediate reaction was, ``whatever 
the hell he's going to do about the water or the air or the 
environment''--you're going to laugh; you all kid us about this 
in Delaware--``chicken manure,'' that is hundreds of thousands 
of tons of it that is having an impact on the other major 
industry in our State, recreation, Mike is able to sit down 
with these folks as an equal, not merely as the guy who ran the 
Agency.
    It has been remarkable in my State. During his tenure, Mike 
was successful in restoring the District of Columbia's drinking 
water supply; streamlining permitting and pollution control 
measures; to achieve outstanding environmental performance in 
the printing industry; and directing EPA's approach to managing 
poultry waste in Delaware and other States.
    I just point this out to you again, just to tell you how 
this guy comes at this job, and I predict--I say to my friend 
from Wyoming--he is result-oriented. Instead of going down and 
insisting that the industry, the multi-billion dollar industry 
in my home State--I must tell you, I was holding my breath, 
because everybody knows that ``Mike was my guy, I recommended 
him,'' right? Well, the industry in my State is a little bit 
like the mining industry in your State or the cattle industry 
in your State or the recreation industry in your State or the 
high-tech industry in your State, and so on. It is the deal. 
And here we have this gigantic problem that Maryland is in an 
uproar over. The legislature is absolutely having great 
difficulty. And Mike, calmly, over a 4-month period, gained the 
confidence of the producers; got them to enter into voluntary 
restraints on how they dealt with this problem; and set it in 
place.
    That's my idea, Mr. Chairman, of what a maturing of the EPA 
should be. It shouldn't be, ``We're the Government, we're the 
authority, this is the deal, this is what you do,'' because it 
won't get done. It won't get done.
    It is a unique talent--I shouldn't say ``unique''--it is a 
talent that is not always found among very bright, committed 
people who want to protect the environment. He has the ability 
to cross over and get people who are reluctant to take on the 
responsibility that they are required to take on under the law, 
and understand their own interest in it happening.
    I don't want to make it more than it is, but it was near 
miraculous in my State, politically, the way in which he got it 
done. And it's a big deal, in my view. His efforts on this last 
round led to a workable, common-sense solution based on 
individual States' needs and resources, not ``one size fits 
all'' solutions that we see so often in Government or major 
bureaucracies and corporations.
    In addition to his achievements on the environmental front, 
Mike is a very strong supporter of the community and serves on 
the Board of Directors of the Delaware Arts Council and 
Delaware's Futures, an organization that provides at-risk youth 
with scholarships for colleges in our area.
    Mike is the father of two young girls, Morgan and Alex, and 
is joined here today by his wife Maria, and I feel privileged 
to call them both my friends and I am very proud Mike, and the 
State of Delaware is proud of Mike.
    As Deputy Administrator of the Environmental Protection 
Agency, I know Mike will continue to serve to the best of his 
ability and provide our Nation with the considerable leadership 
and expertise and talent that he has.
    I will close, if I may--and I apologize for trespassing on 
the time of the committee--I told you a story yesterday, Mr. 
Chairman, on the Floor of the Senate. Mike was Communications 
Director at a time was a pretty low ebb in my career at home, 
when I had been accused of--my wife says I should never use the 
word again--accused of plagiarizing in a Presidential campaign. 
It bothered me more than anything that ever happened to me in 
my life, so I did something strange, and against the 
recommendation of everyone. I sued myself in the Delaware 
Supreme Court, our court of highest jurisdiction, because there 
was a question on the bar application, number 42, that you 
swear to under the penalty of perjury. And it said, ``Is there 
anything else in your background that would negatively reflect 
on your background?'' And I wrote, ``No.'' Now, obviously, if I 
had been accused of plagiarizing in law school, if I had 
plagiarized, I had committed perjury and not only should be 
disbarred, but a criminal penalty should pertain. And I 
initiated a suit with bar counsel, as we are able to do in most 
State bars, to have this proceeding, a formal complaint against 
myself.
    After 8 or 9 months, when they went back and interviewed 
every single, solitary professor that I ever had--only one had 
passed away--they, on four levels, concluded unanimously, 
including the Court itself, that I never did plagiarize in law 
school, and no one ever said I did in law school.
    Now, I was sitting down here one day when this happened, 
and as I said, it was the most important thing in my life at 
the time. And a headline in the morning paper, our statewide 
paper, said, ``Supreme Court Clears Biden of Plagiarism.'' I 
was so excited, it was like someone gave me a billion dollars. 
So I called up to Wilmington and I got one of Mike's 
assistants, a young woman, and I said, ``Send that reporter,'' 
whom I never had dealt with, really, in this thing, a woman 
named Robin Burns, ``send her two dozen long-stemmed roses.'' 
So this kid, taking me literally, goes and gets two dozen long-
stemmed roses, at 2:30 in the afternoon, walks into the 
newsroom, and hands them to her, from me, in front of everyone, 
obviously ruining her credibility and mine.
    So I called Mike, and I said, ``Mike, how could this 
happen?'' I was crazy. I said, ``I assumed''--and this is what 
talent he has, he said, ``Joe, we have an expression in my 
family''--I'll not tell you literally what it was--he said, 
``In my family we have an expression: Assumption is the mother 
of all screwups.''
    The point I want to make is this. This thing that he has 
that we need in Government, Mr. Chairman, is that he has the 
ability and understanding that we should not assume anything 
about our constituencies, and we should explain to them. This 
is not a matter of the guy in my church, after church he 
directs traffic and all of a sudden--he preaches all the 
Christian virtues when he's in church, and out there becomes a 
little dictator, directing traffic. This is a guy who 
understands his role. His role is that he works for the various 
people he is regulating. He doesn't back off on what should be 
done, but he makes the first effort to try very hard for them 
to understand why they have to act; and if they don't, he is 
prepared to act.
    I think that, in my observation, Mr. Chairman, including an 
Agency that I love--and I'm a strong supporter of the EPA--that 
is not always the case.
    So I hope that if you confirm him, and I hope that you 
will, you will be proud of the fact, based on his record, that 
he will serve us well, serve the law well, but make us proud of 
the way in which he goes about doing it.
    I thank you all for your indulgence, and I hope my support 
of him will not in any way diminish his prospects.
    Thank you very much.
    Senator Smith. Thank you, Senator Biden.
    Does any member have a question of Senator Biden before he 
leaves?
    [No response.]
    Senator Smith. Thank you, Senator Biden.
    Mr. McCabe, why don't we start with you, if you wish to 
make any opening comments? Your written statement will be made 
part of the record, as will yours, Mr. Eberhard, but I would 
like, if either one of you has an opening statement, why don't 
we do them both right now?
    We will start with you, Mr. McCabe.

 STATEMENT OF W. MICHAEL McCABE, NOMINATED BY THE PRESIDENT TO 
 SERVE AS DEPUTY ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. McCabe. Well, thank you, Mr. Chairman, and thank you, 
Senator Biden, for that extraordinary introduction. I feel that 
any statement that I may make will pale in comparison to what 
the Senator said.
    I just would like to make a personal comment on that. In 
Washington, the Senator is known for his expertise on foreign 
policy and authorizing the crime bill and the Violence Against 
Women Act. He is known for those things, too, in Delaware, but 
he is also known for protecting Cape Henlopen State Seashore, 
and protecting the White Clay Preserve. I think that when we 
look at his legacy as a member of this important body, people 
will look to those issues, as well as some of the outstanding 
contributions that he has made to the State of Delaware. I am 
honored that he would introduce me today.
    Mr. Chairman, committee members, it is an honor to have 
been nominated by the President to serve as Deputy 
Administrator of the Environmental Protection Agency and to 
appear before this committee today. I greatly appreciate the 
confidence shown in me by the President and Administrator 
Browner. And, Mr. Chairman, I would like to thank you for 
scheduling this hearing so soon after my nomination.
    Mr. Chairman, I would also like to introduce my wife, 
Maria, who is here with me today. I think that, as many of you 
know, the public often underestimates the sacrifices that 
spouses make on our behalf to fill these important positions. I 
know that I couldn't be doing this without the support of my 
wife, particularly given that I'm going to be living down in 
Washington and she's still going to be up on the Pennsylvania-
Delaware border. So I am pleased that she can be with me today.
    Protecting the Nation's public health and natural resources 
is one of the most important legacies that we can leave for our 
children. As a father of two daughters, ages three and seven, 
who both have a better chance of living to be 100 than at any 
time in human history, I am acutely aware of the responsibility 
we have to leave them an environment better than the one we 
inherited. Protecting the air they breathe, ensuring that their 
drinking water is safe and clean and that they can swim and 
fish in our lakes and streams, managing the pesticide residues 
on the foods they eat, and storing and disposing of solid 
wastes in ways that prevent harm to their health is critical 
not only to my daughters' futures, but to all of us. Protecting 
all of us is the Agency's mission.
    In the year ahead I hope to put my skills and experience to 
work pursuing the Agency's mission. Helping to lead this Agency 
is a daunting responsibility, but I think it provides me with a 
real good opportunity to use my regional experience to help 
shape policy and to help forge coalitions and collaborate with 
groups outside of the Agency.
    I will work hard to keep that regional perspective. As I 
mentioned, I am still living on the Pennsylvania-Delaware 
border, and I will be returning home on weekends. I am sure 
that you understand better than most the importance of staying 
grounded in our own State and of maintaining that common-sense 
perspective.
    I am sure that I'll be getting into details about the 
accomplishments that I hope to have over the coming year. I 
think that my background and experience in the environmental 
area and in management suit me well for this position. I would 
like particularly to note, as Senator Biden mentioned, 
something that I am very proud of, and that is the work that I 
did very early in my career. My first management experience 24 
years ago was to be Staff Director of the Environmental and 
Energy Study Conference, and it happened at a time in the 
1970's when many of the Nation's laws were being developed. It 
was a time of extraordinary bipartisan cooperation and 
collaboration in building the foundation of the environmental 
laws which have served us so well over the last 30 years.
    The Environmental and Energy Study Conference was unique in 
Congress. It was an ad hoc Congressional caucus. It had 
rotating Chairs between Republicans and Democrats, and the 
Senate expansion included Senator Gary Hart, who was my former 
boss, and Senator Chafee. As it turned out, after the third 
year of the Senate expansion, Senator Chafee took over as the 
Senate Chair, and I was able to serve under him as Staff 
Director. It is an experience that I valued, and I mourn the 
loss of such a great advocate of environmental protection and 
the bipartisan cooperation and spirit which built our 
environmental laws.
    I look forward to working with you, Mr. Chairman, and the 
rest of the committee in that spirit, and I hope that together 
we can help better protect public health and the environment.
    Thank you very much.
    Senator Smith. Thank you, Mr. McCabe.
    Mr. Eberhard, why don't you make your comments, and then 
we'll go to questions?

 STATEMENT OF ERIC D. EBERHARD, NOMINATED BY THE PRESIDENT TO 
 SERVE AS A MEMBER OF THE BOARD OF TRUSTEES FOR THE MORRIS K. 
  UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL ENVIRONMENTAL 
                       POLICY FOUNDATION

    Mr. Eberhard. Thank you, Mr. Chairman and members of the 
committee. It is a privilege and an honor to be here today and 
have potentially an opportunity to assist the Udall Foundation, 
should the committee and the Senate confirm my nomination to 
the Board of Trustees.
    In the very short life of the Udall Foundation, it has 
already built a record of solid accomplishment in its primary 
missions of providing scholarships and internships to Indians 
and Native American students, and in conducting research and in 
assisting in the development and implementation of Federal 
environmental policy. I think one measure of its success is the 
recent mandate from the Congress to expand its functions to 
include the establishment of a U.S. Institute for Environmental 
Conflict Resolution, a true vote of confidence in the work that 
the Board of Trustees is carrying out.
    With the leadership of the Board of Trustees and its able 
Chairman, who is here with us this morning, Mr. Bracy, the 
Foundation is financially and programmatically sound and poised 
for even greater success in the years ahead, and I hope to be 
able to contribute in some way to that success as the 
Foundation moves into the new millennium.
    I will be happy to answer any questions you may have. Thank 
you.
    Senator Smith. Thank you very much.
    There are a couple of perfunctory questions that we are 
required to ask, under committee rules, of each witness, so let 
me just ask you both these questions. Just answer yes or no.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    Mr. McCabe. Yes.
    Mr. Eberhard. Yes.
    Senator Smith. And second, do you know of any matters which 
you may or may not have thus far disclosed which might place 
you in conflict of interest if you are to be confirmed in this 
position?
    Mr. McCabe. No.
    Mr. Eberhard. No.
    Senator Smith. All right, thank you.
    Mr. McCabe, in our conversation yesterday I had indicated 
that I intended to move forward on an effort which is called, 
basically, the EPA authorization, which would give us a chance 
to look at more of a wide range of issues and priorities at one 
time, rather than the ``rifle bore'' of each piece of 
legislation, to take a big picture look. My idea is to look 
across programs, to help you set priorities, to help the 
Congress do more oversight--the Senate, in this case, do more 
oversight, and essentially to make sure that taxpayers are 
getting the most cleanup and risk reduction out of their 
dollars. We do it in the Armed Services Committee and we do it 
in the other committees.
    I would like just a brief reaction from you on that 
approach.
    Mr. McCabe. Mr. Chairman, as you know, this year EPA 
celebrates its 30th anniversary in December, and a lot has 
happened since EPA was first established 30 years ago. A number 
of the laws that we operate under, obviously, were passed in 
that first decade. We think that taking a look at where we are 
now, how we function under all the different laws, and how we 
really have grown into much more of a multimedia Agency is 
something that would be very beneficial, and I think that 
looking at the Agency from that overall authorization 
perspective would be something that we would be willing to work 
with you on.
    Senator Smith. I appreciate that response, and we look 
forward to working with you in this effort. I just want to make 
sure that the word is out among the EPA Assistant 
Administrators and the rest of the organization that that is 
the goal here, to try to have this committee look at cross-
program decisions rather than into--not one tunnel, but to look 
at cross-program decisions to help all of us in the oversight 
and you in the implementation of the programs to try to see 
where we can do a better job, perhaps save some in one area and 
put it in another area, or whatever.
    One issue that just comes to mind off the top of my head is 
that EPA over the past several years has continually decreased 
the number of Superfund sites in America; more and more are 
coming off the list, yet the program expenditures are actually 
pretty steady, and in some cases--in 1 or 2 years--may even 
have gone up in expenditure. That's just the kind of thing that 
we would like to look at in terms of explanation. That's just 
one example.
    Let me turn to Senator Wyden for any questions.
    Senator Wyden. Thank you, Mr. Chairman.
    As I say, we know Mike McCabe well, and I think he's going 
to be a great addition at EPA.
    Mr. McCabe, I need to go over with you a couple of issues 
that have been of longstanding concern in my home State. The 
first is Portland Harbor. As you know, we are trying now, 
through a very creative kind of partnership between the Oregon 
State government and a variety of business and community 
interests at home, to clean up the harbor, looking at a 
homegrown, locally driven approach rather than simply 
designating it as a Superfund site and having all of the hubbub 
that is associated with that. We are very proud of what we have 
tried to do with these kinds of approaches in the past that the 
Administration knows a lot about--the Coho salmon, and, of 
course, we think the Oregon environmental record leads the 
country in terms of saving beaches, land use, and the like.
    My first question to you is, can you support the concept of 
a State leading major environmental projects like the Portland 
Harbor cleanup, assuming that there are these strong assurances 
in place so that there is an adherence to Federal standards?
    Mr. McCabe. Well, Senator Wyden, I appreciate your interest 
in this matter, and your involvement in it as well. I think 
that EPA should work closely with local communities and State 
government when addressing the cleanup of sites like this. We 
are working with the State of Oregon in an attempt to reach an 
agreement for Portland Harbor. I think, as you mentioned, it 
needs to be done within our objectives and guidelines, but it 
is something that we are pursuing and hope that we can achieve.
    Senator Wyden. So in a case like this, EPA is open to some 
flexibility in allowing a local plan to proceed as long as it 
does adhere carefully to the kind of guidelines that are 
appropriate?
    Mr. McCabe. For Portland Harbor and other sites like this, 
we will be as flexible as we possibly can within our 
established guidelines, and we look forward to working toward a 
local solution. When you have that local involvement, it makes 
these projects go forward better, with stronger support, and 
generally you can get them done faster. So we encourage that 
kind of participation and activity.
    Senator Wyden. Well, I appreciate that.
    The other area that I wanted to ask about, as we talked 
about in the office, is Jackson and Klamath Counties in my 
State. In 1990 they were classified as ``not meeting'' the 
requirements with respect to Federal air quality, and they went 
out and did the heavy lifting, the hard work necessary to get 
in compliance, and they now have monitoring data to show that 
they have been meeting EPA standards for the past 5 years. They 
haven't, however, been formally redesignated by EPA because it 
is a costly and time-consuming exercise to be involved in 
preparing this application. EPA's continued classification of 
these areas as nonattainment is now creating some very serious 
obstacles to economic development.
    Our understanding is that you all are working on what's 
called a ``limited maintenance guideline'' that would make it 
easier to redesignate like Klamath and Jackson Counties that 
have the data to show that they are in fact meeting Federal 
standards.
    My question to you is, when can we anticipate EPA issuing 
this guidance so that areas like mine--and I assume there will 
be others in the country, as well--can get formally 
redesignated without going through what seems like, to a lot of 
them, a lot of costly red tape and bureaucracy?
    Mr. McCabe. Well, we hope to have this guidance final in 
the next month. The guidance is designed to apply to moderate 
PM<INF>10</INF> areas that have few PM sources involved, and 
where the PM<INF>10</INF> problem is very well understood.
    The delay in issuing this guidance has been because we 
wanted to make sure that we didn't create any additional 
loopholes for those parts of the country where you didn't have 
that situation, where there were few sources and where the area 
understood the problem.
    Senator Wyden. Well, we certainly are not interested in 
setting up loopholes; that's important. And at the same time, I 
think you know that we are just concerned that good actors out 
there, when they are told they are not in compliance and are 
willing then to go out and do the--I call it ``heavy lifting,'' 
the hard work to make sure that they are making significant 
improvements--they ought to quickly be eligible for 
redesignation and not have to go through all of what they see 
as just costly and unnecessary bureaucratic rigmarole. We want 
their hard work recognized by EPA, and it sounds like we can 
anticipate shortly a policy that will do that and that is 
helpful.
    My only other question, Mr. Chairman, is that there are 
many of us on this committee--Senator Baucus, in particular, 
has done some very good work on this--we have a lot of concerns 
about the impact that various environmental regulations have on 
farmers. This is important, given the fact that we have a lot 
of difficult problems in the farm economy right now in my State 
and throughout the country. Region III has many agricultural 
areas, of course, Virginia and Pennsylvania and Maryland.
    What has been your experience in terms of working with 
folks in the agricultural sector, food producers and those 
communities?
    Mr. McCabe. Well, one of my biggest projects when I was 
Regional Administrator was working with the poultry industry to 
try to deal with the issue of runoff of poultry waste, 
agricultural waste, which was impairing our waterways. And as 
Senator Biden kindly mentioned, it was an initiative that not 
only I took on a regional basis, but I also worked with poultry 
producers, poultry growers, and the industry in general to have 
a ``national poultry dialog,'' as it was called, where we 
invited the poultry industry to address the problem and come up 
with solutions on their own. I think that it was a successful 
dialog. The industry has set out standards for itself, and they 
are now following those standards. They work well with our 
regulatory approach to controlling poultry waste.
    Senator Wyden. Well, we look forward to working with you. 
As I say, remembering our days at the Energy and Commerce 
Committee where we had a lot of these debates, which weren't 
exactly for the fainthearted, under Chairman Dingell's 
leadership, I know that you are going to work in a bipartisan 
way and an effective way. I look forward to your service there.
    I don't have any questions for your associate there in the 
Udall Foundation. It's a fine program, and he will be a real 
valuable addition, as well.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Wyden.
    Senator Thomas?

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Welcome, gentlemen. I am glad you are here.
    I am not familiar, Mr. McCabe, with you and your 
activities, as everyone else seems to be, but at any rate I am 
very much interested, of course.
    Also, I would have to observe that if you came from Mars 
and listened to this, you would think that the EPA and 
everybody was just right in step, and of course that's not the 
case. There are substantial conflicts out there in terms of 
what the States are doing, and the conflicts that arise there, 
and I suppose we will always have them. But it isn't as if 
there are no controversies, because there are.
    For example, what is your view on the statutory authority 
for EPA and the nonpoint source and the TMDL situation?
    Mr. McCabe. We believe that the Agency does have the 
statutory authority to include nonpoint sources in 
consideration of improving water quality. We think that the 
Clean Water Act provides us with that authority, and we have a 
number of programs that do address nonpoint pollution sources.
    Senator Thomas. We have asked for several designations from 
your Agency to say where that is and point it out, other than 
just that it isn't mentioned.
    Mr. McCabe. I would be glad to provide you with information 
on that, Senator.
    Senator Thomas. I wish you would. Do you have any concern 
about USDA's conflicts with the TMDL activities that you have?
    Mr. McCabe. I think that we're working closely with USDA to 
address the TMDL issue. In fact, just within the last 24 hours 
I had a conversation with Deputy Secretary Rominger on this 
subject. I know that Administrator Browner--and I believe Mr. 
Rominger, or perhaps Secretary Glickman--will be appearing 
before a committee to discuss that issue, I think it's the 
Agriculture Committee, later in February.
    But importantly, I asked Mr. Rominger whether the letter 
that had been sent out recently explaining USDA's position from 
Secretary Lyons was a true reflection of USDA's position, and 
he said that in fact that letter was not a true reflection and 
that would be clarified at the upcoming hearing.
    Senator Thomas. Secretary Lyons said that it was not? It 
was his letter, I believe.
    Mr. McCabe. I believe that it was his letter, but it was 
signed for him, and the individual did not check up the chain.
    Senator Thomas. Well, that will be interesting. You know, 
the last time I was here, when Ms. Browner was here, for 
example, the Court had ruled that you exceeded your statutory 
authority in some areas, and I think that's a very real concern 
to others. For instance--well, I don't know about that part of 
it, but ``TMDL Proposal: Ambient Water Standards Must Meet 
Drinking Water Standards.'' Is that a reasonable suggestion?
    Mr. McCabe. I'm sorry, could you repeat the question?
    Senator Thomas. Under the TMDL proposal, ambient water 
needs to meet drinking water standards.
    Mr. McCabe. I'm not familiar with that part of the proposed 
rule. If that is a question that you have, Senator, I will 
respond for the record.
    Senator Thomas. I wish you would, because that's pretty 
difficult to deal with ambient water when you're comparing it 
to water that's been through treatment.
    Well, I won't take more time, but I have to tell you that 
the Clean Water Action Plan, for example, is quite 
controversial; as a matter of fact, it's in the Court at the 
moment. In terms of that, I think you spoke glowingly about 
your relationships with the States. That isn't always the case 
in terms of who has, you know, other responsibility of doing 
this.
    So I just would say to you that everyone agrees with the 
idea that we need to move forward; that's not really the issue. 
The issue is how we do this in relation to communities, in 
relation to States, including having people have input into 
what's happening there. And I'm sorry, but from my point of 
view and my State, I can't accept the idea that this is just a 
big love-in, because it isn't. And I think we have to find some 
ways to be able to recognize differences in regions, 
differences in the kinds of things we're dealing with, and 
hopefully to allow for a little more involvement on the part of 
States and communities.
    One of them, of course, is the confined animal feeding 
thing, which could be interpreted to be a corral with a couple 
horses in it. That needs to be made more clear and needs to be 
made more realistic, it seems to me.
    So if your experience is in Delaware, I hope you'll come 
out west and share a little bit of the differences that exist 
there, as well. So thank you for being here. We want to work 
with you, but I just don't want you to go away--I'm sure you 
don't--thinking that everything is just a big happy family 
situation, because it isn't, and there is a considerable amount 
of conflict there.
    Mr. Eberhard, I'm interested in what you're doing. We have 
a foundation in Wyoming that deals with conflict resolution and 
some of those things.
    I didn't understand that this was substantially toward 
tribal scholarships.
    Mr. Eberhard. The Foundation charter, which is embodied in 
Federal law, specifically sets out as one of the Foundation's 
responsibilities, providing scholarships and internships to 
Native American and Indian college students and graduate 
students.
    Senator Thomas. I see.
    Mr. Eberhard. I believe last year the Foundation had about 
200 scholarships and several hundred internships over the past 
several years here in the Congress and in the executive branch.
    Senator Thomas. Good. Where are the scholarships?
    Mr. Eberhard. I would have to defer to Mr. Bracy on that as 
the Chairman----
    Senator Thomas. I would hope they're not all at the 
University of Arizona.
    [Laughter.]

 STATEMENT OF TERRENCE L. BRACY, CHAIRMAN, BOARD OF TRUSTEES, 
    MORRIS K. UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL 
 ENVIRONMENTAL POLICY FOUNDATION AND CHIEF EXECUTIVE OFFICER, 
                    BRACY WILLIAMS & COMPANY

    Mr. Bracy. Senator, I'm Terry Bracy, and I have the 
privilege of chairing the Foundation Board.
    Our scholarship program is a national program. I believe 
that last year 46 States sent scholars to perhaps as many as 38 
institutions.
    Senator Thomas. I see.
    This conflict resolution is a challenging issue.
    Mr. Bracy. Yes, it is, and it's interesting--this 
committee, of course, gave birth to the legislation, and we're 
in our first year. I am aware of an excellent program at the 
University of Wyoming. We are dealing with all the various 
programs around the country, trying to bring in the best minds, 
and are trying to deal regionally with the conflicts, not 
simply where our headquarters is. But we are involved now, I 
believe, in 35 or 36 conflicts in different regions around the 
country.
    Senator Thomas. I'm not sure we've limited ours to the best 
minds. I'm on the Board, as well.
    [Laughter.]
    Senator Thomas. Thank you very much.
    Senator Smith. Thank you, Senator Thomas.
    Mr. Eberhard, it seems to me--one more time, your name, 
sir?
    Mr. Bracy. Terry Bracy.
    Senator Smith. Bracy?
    Mr. Bracy. Yes, sir.
    Senator Smith. In terms of conflict resolution, it seems 
like one of the tools to resolve some of these conflicts might 
be the area of risk assessment, and even priorities, in terms 
of what we do. Can you just shed a little light on that in 
terms of what your thoughts are, in the Foundation?
    Mr. Eberhard. I can't speak for the Foundation from my 
personal experience because I haven't served on the Board yet. 
But from my personal experience, I would agree that risk 
assessment is a key part of trying to figure out what the 
parties bring to the table, what the issues are that need to be 
resolved, and what the range of possible solutions would be.
    In my work over the past 30 years I've had a fair amount of 
experience in just those kinds of negotiations and discussions. 
I think people of good will can resolve almost any dispute, if 
that is what they are interested in doing, and part of that 
process has to involve understanding the universe of the issue 
that is under discussion so that everybody comes to the table 
with the same understanding about what it is that is in 
dispute.
    Risk assessment and risk allocation are key parts of that 
process.
    Senator Smith. A lot of times the conflict is between 
Federal agencies. For example--and I want to ask you a question 
about that in a moment, Mr. McCabe--at Yucca Mountain, where 
you have the NRC and the EPA both in dispute over who should 
rule on the regulations for storage of nuclear waste. I think 
when it gets frustrating is when certain entities, such as a 
State or somebody in the private sector or the Army Corps--
there are so many agencies out there that are in conflict--it 
gets frustrating when you're building a road and you get four 
or five different Federal agencies and nobody can make a 
decision as to who rules here and who the top Agency is. I'm 
sure you've seen that.
    Well, I don't know too much about the Foundation, but I did 
know the gentleman that it was named after very well. I served 
with him in the House, and he was loved and respected by 
everybody that I knew. A book that he wrote, ``Too Funny to be 
President,'' is a laugh-out-loud funny book, and I would 
recommend it to anyone, whether you want to run for President 
or not. It was of particular interest to me since I did, and I 
had the same fate that he did.
    [Laughter.]
    Senator Smith. But it is a great book.
    Let me just ask two final questions of you, Mr. McCabe, and 
then we'll be finished.
    I want to come to that issue that I just mentioned, the 
conflict between the NRC and the EPA. Would it make more sense 
for each of you, the two respective agencies here, to work with 
each other rather than against each other to develop some kind 
of joint regulation for Yucca Mountain?
    Mr. McCabe. Mr. Chairman, I think that working with the NRC 
and other Federal agencies, working cooperatively with other 
agencies, is very important from a standpoint of not only being 
as efficient as possible, but effectively using the skills and 
experiences of each of the agencies.
    With Yucca Mountain, EPA is required to establish 
protections for groundwater from possible contamination by 
radioactive material, and our position has been that the 
protections to groundwater should be the same as we protect any 
groundwater system from any hazardous waste, not more, not 
less. And in fact what we have proposed is exactly that, to 
protect groundwater in the same way that we would protect it if 
there were a nearby Superfund site.
    Senator Smith. Well, who should be responsible for issuing 
the environmental health and safety standards for the nuclear 
waste repository at Yucca Mountain? Should it be EPA?
    Mr. McCabe. We believe that EPA should be, because it is 
our responsibility to protect public health, and we have 
expertise and experience in this area.
    Senator Smith. Is it your position that the NRC should not 
have a co-equal role, but that you should have the lead role? 
Is that your position?
    Mr. McCabe. Our position is that we should have the lead 
role on establishing these standards.
    Senator Smith. There is a substantial amount of expertise, 
however, with the NRC on the storage and disposal of 
radioactive waste.
    Mr. McCabe. And I am aware of that from my past experience 
with the Energy and Commerce Committee.
    Senator Smith. As I understand it, the NRC at this point in 
time still sets standards for facilities that accept low-level 
radioactive waste, is that correct?
    Mr. McCabe. I'm not sure about low-level waste, Mr. 
Chairman.
    Senator Smith. Well, some of the rules, regulations, and 
standards developed by the NRC over the years are standards for 
protection against radiation; occupational dose limits for 
adults; dose limits for individual members of the public, and 
so forth. So there are a lot of regulations and requirements 
that are set there, and I think that it would expedite things 
and perhaps be more productive if there were some way that that 
could be worked out on a co-equal basis, at last trying to 
partake of each other's expertise rather than feuding about it. 
And I would just ask you to take a look at that.
    Mr. McCabe. Mr. Chairman, we will, and I'm sure we will be 
communicating with the committee on this issue.
    Senator Smith. One other issue that was kind of alluded to 
in Senator Thomas' question, in that there is frequently 
conflict that does occur between the Federal Government and the 
States. In the 1998 Integrity Act report, EPA identified the 
NPDES permit backlog as a major weakness, and the records from 
EPA basically show that they had not reissued 38 percent of the 
permits for major facilities, and 76 percent of the permits for 
minor facilities. And then the comparable State backlog was 26 
percent for major and 40 percent for minor.
    I understand that EPA's goal is to eliminate the backlog by 
about 2004. That's 6 years after the problem was identified. 
And then, using Texas as an example, I am told that Texas was 
able to eliminate the backlog completely within a year or a 
little over, receiving authority from EPA to run the permit 
program.
    Can we learn some lessons here from the Texas example, that 
maybe the State can do it fine, thank you, if you give them the 
authority to do it, to get rid of the backlog?
    Mr. McCabe. Well, we are committed to removing the backlog, 
and I think that we're well on our way to doing that.
    As far as your broader question is concerned, I think that 
we can learn from the States. We have learned from the States, 
and I know that, based on my experience as a Regional 
Administrator, it's an important partnership. We couldn't 
effectively clean up the environment without the participation 
of the States, without their capacity, without their expertise. 
I hope that as Deputy Administrator I will be able to build on 
those relationships and strengthen the EPA-State dialog and 
cooperation.
    Senator Smith. Finally, we talked yesterday about the 
Corrective Action Management Unit lawsuit. We've been working 
together for the past couple of years with EPA for legislation 
on this. I think we can address this in a bipartisan way and a 
cooperative way. I hope we can work together to finish this 
process; we've developed a bill here that I believe is 
consistent with that settlement and we'd like to complete it 
soon, so I would just urge you to support us in the process 
here of trying to get this legislation moving and to get this 
out of the way.
    Mr. McCabe. Well, the CAMU issue is one that is very 
important to the EPA from the standpoint of efficiently and 
quickly cleaning up the RCRA corrective sites. We are right now 
at a very sensitive point in the settlement of that litigation, 
and as soon as that settlement is reached I am sure we will be 
talking to the committee, Mr. Chairman.
    Senator Smith. All right. We've had some problems in the 
past in getting information on this issue in a timely manner. I 
did send a letter to the Administrator in December, so if you 
can help us in this regard when you get on the job, we would 
appreciate it.
    Mr. McCabe. I will look into that.
    Senator Smith. Well, I don't have any more questions and I 
don't see anybody else here to ask any, but I will leave the 
record open.
    The questions that were submitted to you for the record, or 
that you indicated you would respond to for the record, should 
be answered by the 9th. It is my intention, unless something 
happens that I don't know about, to bring your nominations to 
the committee on the 9th. That's the intention right now; 
things could change, but that's the intention. So try to get 
those responses in by the 9th, and I will leave the record open 
until the close of business Friday for any Senators who may 
wish to submit questions to you, but the same response for 
either one of you would be to answer them by the 9th.
    Well, thank you very much, gentlemen, and good luck. We 
look forward to working with you.
    The hearing is closed.
    [Whereupon, at 12:15 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Michael McCabe, Nominated by the President to be Deputy 
             Administrator, Environmental Protection Agency
    Good Morning, Mr. Chairman and members of the committee. It is an 
honor to have been nominated by the President to serve as Deputy 
Administrator of the Environmental Protection Agency (EPA)and to appear 
before the Senate Environment and Public Works Committee today. I 
greatly appreciate the confidence shown in me by the President and 
Administrator Carol Browner to fill this position.
    Protecting the nation's public health and natural resources is one 
of the most important legacies that we can leave for our children. As a 
father of two daughters, aged three and seven, who both have a better 
chance of living to be 100 than at any time in human history--living to 
the end of this century--I am acutely aware of the responsibility we 
have to leave them an environment better than the one we inherited. 
Protecting the air they breathe, ensuring that their drinking water is 
safe and clean and that they can swim and fish in our lakes and 
streams, managing the pesticide residues on the foods they eat, and 
storing and disposing of solid wastes in ways that prevent harm to 
their health is critical not only to my daughters' futures, but to all 
of us. Protecting all of us is the Agency's mission.
    Helping lead this Agency is a daunting responsibility, but it also 
provides me with an opportunity to use my regional experience to help 
shape national policy. I will work hard to keep that regional 
perspective. I am still living on the Pennsylvania/Delaware border and 
return home on weekends. I am sure the committee understands better 
than most the value of keeping active links beyond the beltway in order 
to stay grounded and maintain common sense.
    I have agreed to undertake this job in the eighth year of this 
Administration because I am committed to seeing the environmental 
programs and initiatives launched by the President and Administrator 
Browner brought to fruition. It is an important year also because it 
marks the 30th anniversary of Earth Day and the 30th anniversary of the 
EPA when we should look back on our accomplishments in the area of 
environmental protection and chart the course for the future.
    I plan to focus on a number of areas throughout the year. First and 
foremost will be the day-to-day administration of the Agency itself. 
This includes meeting our budget obligations under GPRA and managing 
the work force targets set by Congress. Another area will be 
implementing the Administrator's consolidation and redirection of 
Agency information programs under the new Environmental Information 
Office. This will include working with States to establish common 
information and data systems that promote better communication about 
environmental results and reduce reporting paperwork.
    The Food Quality Protection Act, one of the most significant new 
environmental laws passed by Congress in recent years, also will be an 
area of focus. The extensive reassessment required by the law of the 
pesticides used in agricultural production and pest management requires 
tremendous resources and extensive scientific review.
    I also plan to continue my involvement in assuring environmentally 
protective permitting of surface mines in Appalachia. This issue is one 
which could have important consequences for water quality in 
conjunction with mining practices nationwide.
    For most of the past 25 years, I have devoted my career to public 
service in the field of environmental protection and natural resources 
management. From my earliest professional experience in the 1970s, when 
many of the nation's environmental laws were being written, I have 
brought new ideas and leadership to strategies to control pollution and 
to use our natural resources wisely. I am steadfastly committed to 
promoting innovative, common sense approaches to environmental 
protection by building partnerships at all levels of government, with 
the private sector, and by involving stakeholders.
    In addition to a solid foundation in environmental policy, I have 
extensive experience in managing organizations including the Energy 
Conservation and Power Subcommittee of the House Commerce Committee, 
Senator Biden's project staff, the bipartisan Congressional 
Environmental and Energy Study Conference, and the Mid-Atlantic 
regional office.
    While serving as director of the U.S. House of Representatives 
Energy Conservation and Power Subcommittee, of the House Commerce 
Committee, in the early 1980's, we led the debate in promoting utility 
deregulation which is now sweeping through the industry. We also 
tackled a persistent problem facing nuclear power--how to safely 
dispose of spent fuel--and we enacted the nation's first program for 
the disposal of nuclear waste.
    I am particularly proud of my leadership of the Study Conference--
my first management position 24 years ago. You may be familiar with the 
Study Conference and its ``green sheets'' which provided members of 
Congress and their staffs with background information on key 
environmental and energy legislation and issues.
    Shortly after it was founded in the House by former Representative 
Richard Ottinger and then Representative Jim Jeffords, a group of 
Senators led by my former boss Senator Gary Hart and Senator Chafee, 
expanded it into the Senate. The Conference was an organization based 
on the belief that environmental protection knows no party affiliation 
and that the foundation of this nation's environmental laws was built 
through bipartisan collaboration. To underscore this, the Chairmanship 
of the organization shifted between Democrats and Republicans in the 
House and Senate at a time when Democrats controlled both Houses.
    Senator Chafee became the Senate Chairman in 1979 and I was proud 
to serve under him as staff director. I greatly admired the Senator and 
mourn the loss of this great advocate of the bipartisan spirit that 
established our nation's environmental policies.
    That was a long time ago. My most recent management experience as 
Regional Administrator of the Mid Atlantic States has provided me with 
experience vital to the role of Deputy Administrator.
    As the longest-serving Regional Administrator, I managed and 
directed a staff of approximately 1,000 employees with a budget 
exceeding $700 million. In this position, I took an active interest in 
the efficient operation of the regional office, and conducted an 
internal assessment of regional management and personnel practices to 
make the region work better, and to make ours a better place to for 
employees work. For example, I led the effort to restore the District 
of Columbia's drinking water system and directed EPA's national 
approach to managing poultry waste from factory farms. I co-chaired a 
subcommittee of the Agency's Common Sense Initiative that succeeded in 
streamlining permitting and pollution control measures to achieve 
superior environmental performance for the printing industry.
    As Regional Administrator, I worked with EPA's senior management 
team on national strategic planning, budget priority setting, and 
public outreach. This provided me with the ability to implement the 
Agency's national priorities into a regional context. It also provided 
me with an opportunity to bring the perspective I gained from my day-
to-day work with the States to bear on national policies and 
priorities. Working closely with my colleagues around the country gave 
me a greater appreciation for the regional variations in environmental 
problems and unique approaches used in resolving complex issues.
    In summary, my environmental policy expertise, management skills, 
and strong commitment to public service provide me with qualifications 
to do the work of the Deputy Administrator. I look forward to working 
with the committee, the members and your staff in our efforts to 
protect the environment and make a healthy environment for our children 
and grandchildren.
                                 ______
                                 
 Responses by Michael McCabe to Additional Questions from Senator Smith
Comprehensive Everglades Restoration Plan
    Question 1. Considering the magnitude of the Comprehensive Plan, 
does EPA plan to dedicate full-time staff to work this vital issue?
    Response. The EPA is firmly committed to providing the necessary 
resources to assist in implementing the Comprehensive Everglades 
Restoration Plan. Currently, EPA's Office of Water, Region IV and the 
South Florida office of Region IV provide scientific, legal, and 
technical expertise to the Everglades restoration effort. EPA also 
provides a full time staff person at the Army Corps of Engineers' 
Jacksonville Mississippi office to assist in the restoration effort.

    Question 2. The Comprehensive Plan proposes the construction of two 
wastewater reuse facilities for the superior, advanced treatment of 
wastewater to augment the freshwater flows to the natural system. At 
the field hearing, the Administrator testified that these wastewater 
reuse facilities would be eligible for SRF funding, even though the 
plants are designed to provide water directly to the natural system and 
not for municipal use. Could EPA clarify this statement?
    Response. Generally, the costs of capital upgrades for wastewater 
treatment are eligible for loans under the Clean Water State Revolving 
Fund. It is important to note, however, that local communities 
typically are responsible for both repaying SRF loans and covering the 
costs of annual operation/ maintenance for treatment plants. In this 
case, other sources of funding are necessary because Miami-Dade County 
is under no obligation to apply for loans or to improve treatment to a 
level suitable for Biscayne National Park or the Bird Drive-Everglades 
Basin wetlands. The purpose of the facilities is to provide clean 
freshwater to the environment during the dry season when the other 
restudy components will not have enough extra water available for the 
restoration effort.
Arsenic Rule (Drinking Water)
    Question 3. The Safe Drinking Water Act (SDWA) Amendments of 1996 
includes a statutory requirement for the Administrator to propose a 
national drinking water standard for arsenic by January 1, 2000. Now a 
month past the deadline, the arsenic rule must still go through a 90-
day OMB review process before release, which could be 3-6 months from 
now. Can you explain the delay?
    Response. Developing a new proposed regulation for arsenic in 
drinking water has been an extremely challenging undertaking, requiring 
evaluation of an array of complex scientific and technical information. 
As the Agency has developed the new proposed standard, we have 
considered a range of points of view from both internal and external 
stakeholders. This diversity of views is understandable, considering 
that arsenic is a widely occurring contaminant with a number of adverse 
health impacts of concern. This process has been somewhat more time-
consuming than expected, but we're hopeful of initiating OMB review of 
the proposed rule very soon and publishing the rule for comment this 
Spring. We intend to meet the January 1, 2001 deadline for promulgation 
of the final rule, despite this delay in issuing a proposal.

    Question 4. We've heard that there are disagreements within the 
Agency about the benefits of the proposed standards versus the costs? 
Can you elaborate on this?
    Response. The SDWA (Section 1412(b)(6)) requires an evaluation of 
the costs and benefits of a proposed rule and a determination of 
whether or not the benefits of the rule justify the costs. Assessing 
the costs of a new proposed standard is a somewhat more straightforward 
exercise than evaluating benefits but complicated, involving estimates 
of the total national costs that will be incurred by water utilities to 
comply with a new standard. Estimating the benefits of a proposed rule 
involves gaining an understanding of the health effects attributable to 
various levels of the contaminant and the benefits of reducing these 
risks.
    EPA charged the National Academy of Sciences (NAS) with providing 
expert advice on the health impacts of arsenic based upon a 
comprehensive assessment of national and international studies. The NAS 
provided quantitative (numerical) recommendations concerning the risk 
of bladder cancer to consumers of drinking water containing arsenic. 
The NAS also provided qualitative (non-numeric) recommendations 
concerning a number of other potential adverse health effects of 
concern, the most significant of which is lung cancer. In evaluating 
the benefits of a new, more protective arsenic standard in drinking 
water, the Agency has examined both quantitative and qualitative 
benefits. Ascribing values to such benefits is a challenging exercise 
that involves an element of judgment, based on an array of data and 
information. Discussion and resolution of these issues has been an 
important part of this process--and, as is the case in any such 
complicated undertaking, experts can and often do differ in their 
respective evaluations. While there has been internal debate on these 
cost-benefit issues, this is not unusual in a significant rulemaking. 
Discussion has been encouraged and development of the rule has 
benefited. When it is proposed, we will solicit comment on our 
estimates of the costs and benefits of the rule and on the underlying 
issues of concern.
MTBE
    Question 5. I am concerned about MTBE in our groundwater. State 
officials in New Hampshire say that as many as 7,000 private wells 
could be contaminated with unsafe levels of MTBE and as many as 33,330 
could be contaminated with lower trace levels. It seems that we didn't 
use good science when we decided to put MTBE in our gasoline and now it 
has created another even bigger problem. What is EPA doing to address 
MTBE in groundwater?
    Response. In response to the growing concerns regarding MTBE, in 
early 1999 Administrator Browner appointed an independent Blue Ribbon 
Panel to investigate the use of oxygenates in gasoline. On July 27, 
1999, the Panel issued its recommendations. Specifically the Panel:
    <bullet>  Recommended improvements to the nation's water protection 
programs, including over 20 specific actions to enhance underground 
storage tank, source water and drinking water, and private well 
protection programs.--Agreed broadly that use of MTBE should be reduced 
substantially and that Congress should act to provide clear Federal and 
state authority to regulate and/or eliminate the use of MTBE and other 
gasoline additives that threaten water supplies.--Recommended that 
Congress act to remove the current Clean Air Act requirement--that 2 
percent of RFG, by weight, consist of oxygen--to ensure that adequate 
fuel supplies can be blended in a cost-effective manner while reducing 
usage of MTBE; and--Recommended that EPA seek mechanisms to ensure that 
there is no loss of current air quality benefits.
    EPA is working with Congress, the states and the regulated 
community to implement the Blue Ribbon Panel's recommendations and 
address the problem of MTBE in groundwater:
    <bullet>  We will work with Congress to quickly phaseout MTBE while 
preserving a market for renewable fuels and maintaining clean air 
benefits.
    <bullet>  EPA is currently evaluating all of its regulatory options 
under existing statutory authorities for addressing the contamination 
of groundwater from MTBE.
    <bullet>  A new drinking water standard for MTBE will be proposed 
within the next year.
    <bullet>  MTBE is included in the Unregulated Contaminant 
Monitoring Rule. This rule requires all large and a representative 
sample of small public water systems to monitor for MTBE in ground 
water and surface water beginning in 2001. EPA is strongly encouraging 
water systems to begin monitoring as soon as possible.
    <bullet>  EPA is developing maps of State Underground Storage Tanks 
(USTs) that can be compared with water source locations to help assess 
the actual risk of potential leaking USTs to public water supplies.
    <bullet>  EPA is working with States to develop an operation and 
maintenance manual that will help improve the safety of UST systems and 
is conducting workshops around the country with State water program 
officials for UST owners and operators.
    <bullet>  EPA allocated $1 million for demonstration projects to 
determine the most effective approach to MTBE remediation. MTBE 
remediation research efforts also currently are underway by other 
organizations, such as the American Petroleum Institute and the 
University of California at Davis.
    Prior to MTBE's use in Federal RFG, a consent agreement under the 
Toxic Substances Control Act required industry to conduct extensive 
research of MTBE. The MTBE research included short and long term animal 
inhalation studies that did not point to any exceptional acute or 
chronic toxicity. In the early 1990's, human chamber studies on acute 
exposure to pure MTBE were completed by EPA, the Centers for Disease 
Control, and industry. The studies provided strong evidence that MTBE 
alone was not likely to cause acute health effects in the vast majority 
of the general population. Additional inhalation research that includes 
testing of baseline conventional gasoline and nonbaseline groups 
including gasolines with MTBE and other oxygen additives is underway. 
It is hoped that the results of this inhalation research can be 
extrapolated and allow a greater understanding of MTBE ingestion health 
risks.
    While additional research will add to our understanding of the 
health effects of MTBE, action to prevent further MTBE contamination of 
water supplies should not await the results of this research. Due to 
its persistence and mobility in water, MTBE is more likely to 
contaminate ground and surface water than other components of gasoline. 
Indeed, according to EPA's Blue Ribbon Panel, MTBE has already been 
found in up to 10 percent of drinking water supplies in RFG areas. To 
prevent the escalation of a larger problem, EPA believes the use of 
MTBE should be quickly phased out.
UST
    Question 6. What is the status of EPA's enforcement of the 1998 
deadline for compliance with the UST regulations?
    Response. EPA and the states worked together to coordinate our 
enforcement strategy following the December 1998 deadline. As the 
primary implementing agencies, states pursued the majority of the 
inspections and enforcement actions related to the deadline. In the 
first 6 months immediately following the deadline, EPA focused its 
enforcement resources on facilities that posed a threat to drinking 
water or sensitive ecosystems; Federal facilities; large, multiple UST 
facilities; and owners and operators with multiple facilities. 
Thereafter, EPA broadened its enforcement efforts to all facilities 
that remained in noncompliance.
    At the end of fiscal year 1999, 85 percent of the approximately 
760,000 active federally regulated underground storage tanks (USTs) 
were in compliance with the 1998 deadline requirements. We expect the 
compliance rate will be 90 percent by the end of fiscal year 2000.

    Question 7. Do you know the percent of people (who) are in 
compliance with the 1998 regulations?
    Response. We do not have data on compliance rates by facility 
owner, only by UST system. As you may know, an owner or operator may 
have multiple UST tanks. Almost all states are the primary implementing 
agencies for the UST program, and the states maintain the data bases 
that contain the notification and compliance information. The 
compliance data reported by the states is for UST systems, not for 
facility owners.

    Question 8. Where is EPA targeting enforcement resources?
    Response. Since the states are the primary implementing agencies 
for the UST program, they perform the vast majority of inspection/
enforcement work in the program. States use a wide variety of methods 
for targeting their resources, often focusing on wellhead protection 
areas or other sensitive environmental areas. In addition, EPA also 
targets facilities in areas where a state can not provide an active 
enforcement presence as well as facilities referred to us by the 
states.
    In the first 6 months immediately following the 1998 deadline, EPA 
focused its enforcement resources on facilities that threatened sources 
of drinking water or sensitive ecosystems; federally owned facilities; 
large, multiple UST facilities; and owners and operators with multiple 
facilities. Although these facilities remain an enforcement priority, 
EPA has since broadened its enforcement efforts to all facilities that 
remain in noncompliance.

    Question 9. Have you looked at the extent of leaking in those tanks 
that have come into compliance with the 1998 regulations?
    Response. Assessing the performance of compliant UST systems is one 
of the highest priorities for the Office of Underground Storage Tanks 
(OUST). This includes measuring the effectiveness of our leak detection 
requirements, as well as studying the release rate from compliant 
tanks, and identifying the cause of those releases (e.g., faulty 
installation, failed overfill device, release from piping). A number of 
states and EPA regions are beginning to record this data at all new 
release sites. In addition, EPA is funding a study with the University 
of California at Davis to assess the effectiveness of various leak 
detection methods.
    However, based on anecdotal data from the states we know that 
petroleum releases have occurred from UST systems that had met the 
requirements of the 1998 deadline. In addition, a preliminary 
assessment of California's UST data base by the University of 
California at Davis indicates that the annual leak rate for UST systems 
that comply with upgrading requirements was 0.07 percent per year, 
compared to approximately 3 percent per year for all active tanks. It 
is reasonable to assume that a certain number of releases will continue 
to occur from systems with new or upgraded UST systems due to improper 
installation, improper operation and maintenance, or accidents. 
Ensuring proper operation and maintenance is another of OUST's highest 
priorities.
High Production Volume Chemical Testing Program
    Question 10. In October 1999 an agreement was reached between EPA 
and animal rights groups to address many of the concerns raised 
regarding the EPA High Production Volume Chemical Testing Program 
(``HPV Program''). Although an agreement has been reached, I am 
concerned about how the program will be implemented in a manner 
consistent with the agreement. In December 1999 animal rights groups 
petitioned EPA to issue two rules which would require chemical 
companies to file existing data and information on HPV chemicals prior 
to initiating new testing under the HPV program. Has the October 
agreement been embodied in.the Inventory Update Rule?
    Response. The animal welfare principles outlined in the October 14 
letter from EPA to HPV Challenge participants are incorporated, to the 
fullest extent possible, in the proposed High Production Volume (HPV) 
Chemical Test Rule currently under review at OMB. EPA encourages the 
fullest possible use of existing data in order to minimize the need for 
new testing. Once this proposed rule is promulgated, the public will 
have an opportunity to comment on all aspects of the rulemaking 
including issues related to animal welfare. The Inventory Update Rule 
(IUR) is a separate rulemaking unrelated to the HPV Challenge Program 
and was not addressed by the October 14 letter. The recently proposed 
IUR amendments do not require any testing. The IUR Amendments, which 
were proposed on August 26,1999(64 FR 46771), would call upon companies 
to assemble and report existing exposure and use data for their 
chemicals under the Toxics Substances Control Act (TSCA).

    Question 11. If the purpose of the program was to gather toxicity 
data on those chemicals most commonly used in our country, why does a 
citizen group need to petition EPA to issue rules to carry out the 
primary purpose of the program?
    Response. In the HPV Challenge Program, the Agency has worked 
successfully in partnership with industry to establish a voluntary 
program to make this information available to the public. To date, this 
voluntary approach has yielded commitments from industry to provide the 
needed data on nearly 2100 of 2800 high production volume chemicals. As 
part of this program, EPA has intended to pursue a TSCA test rule for 
those chemicals which are not voluntarily sponsored by industry. Under 
Section 21 of the TSCA, citizens may petition EPA to initiate a 
proceeding for the issuance, amendment, or repeal of a rule under 
various other sections of TSCA. In this instance, the petitioners 
assert that a voluntary approach to collecting basic screening level 
toxicity information on HPV chemicals will not be effective in bringing 
forward all relevant existing data. They have thus called for a 
rulemaking approach to compel the disclosure of that information.

    Question 12. Does EPA intend to issue such rules?
    Response. EPA published a Federal Register notice (65 FR 2164, 
January 13, 2000) reporting that the petition had been filed and 
solicited public comments by February 3, 2000. Under Section 21 of 
TSCA, EPA must respond to the petition by March 28, 2000. The Agency is 
currently evaluating the petition and the comments received, and has 
not yet responded to the petition.
MTBE
    Question 13. The EPA is currently considering a waiver of the Clean 
Air Act's 2 percent oxygen mandate for the State of California. We are 
working on legislation to address this issue, but I want to encourage 
the EPA to give the California waiver full consideration. California 
uses more gasoline containing MTBE than any other state and they are 
quite concerned with the effect this might have on water supplies. Can 
you give this committee any sense of the status of the California 
waiver petition?
    Response. We share California's desire to keep the State's drinking 
water free of MTBE and other contaminants. EPA's goal is to protect 
public health and the environment by ensuring Americans have both 
cleaner air and cleaner water--and never one at the expense of the 
other. On December 24, 1999, California officials provided EPA initial 
documents in support of the state's waiver request. EPA is reviewing 
this initial information and stands ready to receive additional data 
the state is gathering that is necessary to complete its request.
    On January 25, 2000, staff from the California Air Resources Board 
(CARB) and the EPA met to discuss the additional data and analysis 
necessary for a waiver to be considered. CARB has indicated that it 
will supply this additional information to EPA. Once EPA receives this 
information from CARB, EPA will be able to perform the technical 
analysis of California's waiver request required under the Clean Air 
Act. If the statutory requirements to receive the waiver are met, EPA 
is required to provide public notice of our decision. Such procedures 
include a public comment period of a minimum of 30 days.
Utilities Emissions Bill
    Question 14. Recently, I announced the start of a process to 
develop legislation to improve how the Clean Air Act addresses 
pollution from the electric utility sector. Developing a bill on this 
topic that will have broad bipartisan support is going to be an 
enormous challenge. I would hope that the EPA will work with my staff 
in an open and creative way as we all search for a more efficient 
system to deal with these pollutants. If we can build on the Acid Rain 
model, I believe that we can improve the environmental results of our 
efforts--while at the same time lowering the implementation costs for 
industry, the economy, and the government.
    Response. As you examine this issue, EPA will, as always, be happy 
to work with you and your staff.
Yucca Mountain
    Question 15. NAS and NRC have recommended that standards for Yucca 
Mountain be based on sound radiation protection science (i.e., do not 
use old ICRP 2 dose methods in setting standards). NRC has an overall 
approach for setting regulatory limits that involves: 1) setting an 
overall goal for protection applicable to all regulated activities 
(i.e., 100 mrem public dose limit); 2) developing dose limits for 
particular activities (e.g., waste disposal) that are consistent with 
the overall goal; and 3) updating dose limits, as necessary, to make 
use of scientific improvements for estimating dose. EPA's approach for 
setting radiation standards is not as clear. Although, EPA generally 
uses an overall risk goal (i.e., lifetime risk between one chance in 
10,000 and one chance in 1,000,000), EPA has and continues to set 
radiation limits that have little relationship to this overall goal 
(i.e., MCLs) and have recently proposed standards for Yucca Mountain 
(40 CFR 197) based on outdated methods for estimating dose.
    Can EPA explain, what appears to be, significant inconsistencies 
and weaknesses in their approach for setting radiation standards? What 
interactions has EPA had with the NRC and NAS to address their 
comments?
    Response. The EPA's proposed Yucca Mountain standards are entirely 
consistent with other standards the Agency has established and, in 
almost every respect, are consistent with the recommendations of the 
NAS. In all its regulatory programs, the Agency typically establishes 
risk in the 10-6 to 10-4 range (1 chance in a 1,000,000 to 1 chance in 
10,000). This is the Agency's guideline for establishing radiation 
regulations for involuntary risks over and above background levels. 
EPA's generic standards for spent nuclear fuel and high-level waste and 
the Agency's proposed standards for Yucca Mountain assure protection of 
at least 15 millirem/year. The lifetime fatal cancer risk associated 
with this dose is approximately 3 chances in 10,000.
    With respect to EPA's proposed standards for drinking water, EPA 
proposed to adopt the Agency's 4 millirem/yr dose limit for Maximum 
Contaminant Level (MCL) standards under the Safe Drinking Water Act. 
The lifetime fatal cancer risk associated with this dose is 1 chance in 
10,000.
    For Yucca Mountain, the National Academy of Sciences (NAS) 
suggested a risk level equivalent to an annual dose in the range of 2 
to 20 millirem/yr. The annual risk associated with EPA's proposed 15 
millirem standard and 4 millirem standard for drinking water fall 
within this range. The 25 millirem/yr dose limit proposed by the NRC 
would allow greater risk than that recommended by NAS. NAS has 
supported EPA's proposed 15 millirem standard. In its November 26, 1999 
comments on the 15 millirem standard, NAS stated that ``the magnitude 
of the proposed numeric value of the individual-protection standard is 
consistent with the recommendations in the [NAS] report.''
    We realize that science has improved in the 20 years since the 
Maximum Contaminant Level (MCL) standards for drinking water were 
established and we are working to update them based on current 
scientific understanding and legislative direction under the Safe 
Drinking Water Act Amendment. All changes will be incorporated by 
reference in EPA's final Yucca Mountain standards.
    We have made and will continue to make every effort to consider all 
of the issues which have been brought to our attention by the NRC, NAS, 
and other interested parties. Both NRC and NAS have submitted written 
comments on EPA's proposed standards. EPA will work closely with NRC 
and NAS to address their comments in EPA's final standards.
                                 ______
                                 
 Responses by Michael McCabe to Additional Questions from Senator Crapo
Yucca Mountain/Nuclear Regulatory Commission
    Question 1. Both the Environmental Protection Agency (EPA) and 
Nuclear Regulatory Commission (NRC) have promulgated radiation exposure 
standards for a geologic repository, better known as Yucca Mountain, 
for the nation's spent nuclear fuel and high-level waste. The 
establishment of a permanent repository is of paramount importance to 
the ability of the Department of Energy and Department of Navy in 
meeting a court-ordered agreement with the State of Idaho. Legislation 
currently in the Senate, S.1287, would identify the NRC as the 
standard-setting Agency for a geologic repository, not the EPA. This 
proposal recognizes that the NRC is the nation's expert in dealing with 
radiation and is supported widely and bipartisanly in Congress. Is 
there any reason to expect that the NRC would not be capable of setting 
standards for the geologic repository that will protect public health 
and the environment?
    Response. The Energy Policy Act of 1992 gave EPA responsibility for 
setting the standards for a repository at Yucca Mountain and NRC 
responsibility for determining whether or not the repository meets the 
standards through a licensing process. This arrangement of having EPA 
set the standards and NRC implement them is how nuclear facilities have 
been regulated for the past 30 years. This is the system of checks and 
balances that was established when EPA was formed in 1970.
    While NRC is expert in the licensing of nuclear power plants, EPA 
was designated by Congress to set the safety standards for Yucca 
Mountain. EPA has the expertise to set appropriate health and safety 
standards for the disposal of radioactive waste and has done so for 
decades. EPA also has expertise in implementing such standards 
successfully. In fact, EPA set the safety standards for, and certified, 
the only operating geologic repository for permanent disposal of 
radioactive waste in the United States--the Waste Isolation Pilot Plant 
in New Mexico.
    In addition, EPA has a wealth of experience in setting standards 
for, and licensing, hazardous waste facilities. This has informed our 
proposed Yucca Mountain standard. Our Yucca Mountain proposal was 
designed to achieve the same level of protectiveness, an increased risk 
in the 10-6 to 10-4 range (1 chance in a million to 1 chance in 
10,000), as all these other Agency standards.
    NRC has issued draft standards for Yucca Mountain. These draft NRC 
standards do not include specific protections for potable groundwater 
and would allow a greater risk to individual members of the public (25 
millirem/yr dose limit vs. EPA's proposed 15 millirem/yr dose limit). 
Based on these draft standards and NRC comments and statements of 
intent, EPA believes that EPA's standards will more adequately protect 
public health and the environment than NRC standards.

    Question 2. The EPA has been criticized for dragging its feet on 
issuing radiation standards for the geologic repository. The Agency 
finally issued radiation standards on August 19, 1999. The EPA does not 
appear to be promulgating needed standards in the timeframe that is 
needed to make the repository a reality. Why did it take the EPA so 
long to issue these standards? If the EPA remains the standard-setting 
organization for the repository, what changes will you make to ensure 
the EPA is responsive to necessary standards development?
    Response. EPA recognizes that these standards are very important 
for assuring the safety of any repository at Yucca Mountain. This 
project involves a unique facility with many complex technical issues. 
EPA has made every effort to consider all of the issues which have been 
brought to our attention. This includes meetings with interested 
parties and discussions within the Administration. A significant amount 
of this time was spent addressing scientific issues in coordination 
with the National Academy of Sciences, the Administration's Office of 
Science Technology and Policy, the Department of Energy (DOE) and the 
Nuclear Regulatory Commission. EPA has worked diligently to resolve the 
many complex issues. Additional time taken was necessary to ensure that 
we prepared standards that were technically sound, legally defensible, 
could be reasonably implemented, and were protective of public health 
and the environment.
    As you know, we already have proposed the standards and the public 
comment period has closed. We are now in the process of assessing 
comments received. We plan to finalize the standards this year and, as 
we work to finalize the standards, we will continue to make every 
effort to be responsive to the comments and concerns of interested 
parties. Our current schedule will not delay DOE's plans for licensing 
the repository.

    Question 3. For Yucca Mountain, the EPA proposed an annual dose 
limit to the reasonably maximally exposed individual of 15 millirem 
with an additional 4 millirem dose limit for groundwater. Why did the 
EPA feel it was necessary to establish different, pathway-specific 
standards, as opposed to one comprehensive standard as recommended by 
the National Academy of Sciences?
    Response. It is the Administration's policy to apply existing 
environmental laws to protect all current and potential sources of 
drinking water. It is also the Administration's policy that it is the 
responsibility of potential polluters to keep groundwater clean--not 
for users to treat water once it is polluted.
    Yucca Mountain sits on a large, clean aquifer capable of supplying 
drinking water to thousands of people. It already is being used as a 
source of drinking water by local inhabitants and likely will be used 
as drinking water for Las Vegas--the fastest growing metropolitan area 
in the country. EPA has proposed a ground-water protection standard to 
prevent contamination of this valuable drinking water aquifer. Failure 
to do so could result in additional economic and health burdens to 
future generations and it is more prudent to prevent contamination than 
to rely on clean-up. EPA applies ground-water standards to every 
hazardous waste site in the country. In addition, EPA already has 
successfully applied ground-water protection standards at the only 
operating geologic repository for disposal of radioactive waste--the 
Waste Isolation Pilot Plant in New Mexico. EPA believes that the people 
of Nevada and their drinking water resources deserve the same level of 
protection that is applied to the rest of the country.

    Question 4. The EPA has been criticized for establishing standards 
for Yucca Mountain that are more stringent than occurs in nature. Given 
the risk-based approach to individual exposure advocated by the 
National Academy of Sciences in August 1995, is the EPA ``more 
stringent than nature'' standard appropriate?
    Response. The EPA's proposed Yucca Mountain standards govern the 
incremental risk associated with the presence of a nuclear waste 
repository at the site, not the background risk associated with 
naturally occurring radiation at the site. Knowing that individuals can 
be exposed to radiation risks from a variety of both man-made and 
naturally occurring sources, EPA's aim in promulgating standards is to 
minimize the risk to individuals from any one source; in this case, 
EPA's goal is to minimize the risk to individuals from any disposal of 
radioactive waste at Yucca Mountain.
    EPA's proposed standards for Yucca Mountain assure protection of at 
least 15 millirem/year. The lifetime fatal cancer risk associated with 
this dose is approximately 3 chances in 10,000.
    For Yucca Mountain, the National Academy of Sciences (NAS) 
suggested a risk level equivalent to an annual dose in the range of 2 
to 20 millirem/yr. The annual risk associated with EPA's proposed 15 
millirem standard falls within this range. The 25 millirem/yr dose 
limit proposed by the NRC would allow greater risk than that 
recommended by NAS. NAS has supported EPA's proposed 15 millirem 
standard. In its November 26, 1999 comments on the 15 millirem 
standard, NAS stated that ``the magnitude of the proposed numeric value 
of the individual-protection standard is consistent with the 
recommendations in the [NAS] report.''
North Idaho/Coeur d'Alene River Basin
    Question 5. Idaho is currently listed on the Clean Water Act 
National Toxics Rule (NTR). This status precludes Idaho from 
establishing site-specific water quality criteria and forces so-called 
Gold Book Standards, developed without the benefit of knowledge of 
unique conditions and problems in Idaho. These standards will make it 
particularly difficult for dischargers in the Coeur d'Alene Basin, 
including the EPA's own Bunker Hill Superfund Site, to meet. In order 
to proceed with removing Idaho from the NTR, the EPA has requested 
consultations under Section 7 of the Endangered Species Act with the 
U.S. Fish and Wildlife Service and National Marine Fisheries Service. I 
understand that the biological assessment submitted by the EPA in 
accordance with the request for removing Idaho from the NTR may be 
inadequate and there may be some delay in completing the consultations. 
Does the EPA believe it has the authority to temporarily exempt the 
Coeur d'Alene River Basin from the NTR and Gold Book Standards while 
consultations are underway?
    Response. EPA does have the authority to remove Idaho from the 
National Toxics Rule, despite the fact that EPA is still consulting 
with the U.S. Fish and Wildlife Service and the National Marine 
Fisheries Service on Idaho's water quality standards pursuant to the 
Endangered Species Act (ESA). Given the fact that Idaho has adopted 
water quality criteria as stringent as the NTR criteria, EPA believes 
that removing Idaho from the NTR will not have any detrimental effects 
on endangered or threatened species pending our completion of 
consultation and will not prejudice our ability to act on the results 
of the consultation. We are approving Idaho's standards under the Clean 
Water Act, subject to Endangered Species Act consultation, and will be 
removing Idaho from the NTR within the next 60 to 90 days.
    EPA's removal of Idaho from the National Toxics Rule (NTR) would 
provide the state more flexibility in implementing various provisions 
of the Clean Water Act, including development of site-specific criteria 
wherever appropriate within the state. With respect to the Coeur 
d'Alene River Basin, EPA and the State of Idaho Department of 
Environmental Quality have been examining various tools available to 
the state to provide regulatory relief, where appropriate, once NTR 
removal occurs. These tools include site-specific criteria and permit 
variances.
    Removal from the NTR, however, is simply one step in reaching final 
decisions about appropriate requirements to protect water quality in 
the Coeur d'Alene Basin. Actual decisions about site specific criteria 
to protect endangered species still must be made, first by Idaho, and 
then by EPA. The U.S. Fish and Wildlife Service and the National Marine 
Fisheries Service also still have critical decisions to make regarding 
requirements to protect endangered species.

    Question 6. Reacting to strong opposition in the Coeur d'Alene 
River Basin community and the proposed state-led settlement 
negotiations, in December, 1999, the EPA agreed to delay its ongoing 
efforts to designate additional areas as Superfund sites. Under what 
understanding is the Agency proceeding in this matter?
    Response. EPA supports the State's efforts to find a solution for 
the Basin that includes bringing all involved parties into a settlement 
discussion. You are correct that EPA has agreed to delay proposing 
further National Priorities List (NPL) listing in the Basin until the 
end of June, 2000. Please note however, that EPA is arguing in the 
United States Court of Appeals for the Ninth Circuit that all 
contaminated areas of the Basin are already on the NPL.
    The State's effort to initiate settlement discussions holds the 
promise of resolving current litigation in a manner which will further 
our mutual goals of funding and implementing long-term cleanup and 
restoration of the Basin. Achieving a binding and workable cleanup plan 
remains EPA's first priority. EPA also supports Idaho's participation 
in this effort to help develop a cleanup plan that meets the needs of 
the citizens in the Coeur d'Alene Basin, including the Coeur d'Alene 
Tribe and all the interested parties involved in the Basin.

    Question 7. The original estimate for the current Remedial 
Investigation/Feasibility Study (RI/FS) process in the Coeur d'Alene 
Basin was approximately $2 million. How much money has the EPA spent to 
date on the RI/FS and what is the projected final total?
    Response. In the Spring and Summer of 1998, EPA conducted a series 
of public meetings related to the Remedial Investigation/Feasibility 
Study (RI/FS). In response to public inquiry at those public meetings, 
EPA reported that the Agency had spent, to date, roughly $2 million to 
initiate the RI/FS in the Basin. At that point in time the Region did 
not yet have an clear estimate of what the costs would be to perform 
the entire RI/FS.
    To date, EPA has incurred approximately $10.4 million in costs 
(incurred by EPA contractors) associated with conducting RI/FS work in 
the Basin. In addition, EPA has provided and will continue to provide 
funds to the States, the Tribes and other Agencies through Cooperative 
Agreements and Inter Agency Agreements (JAGS) related to RI/FS 
activities. Under these vehicles, to date, EPA has provided 
approximately $4.2 million in funds, over $1 million to the State of 
Idaho alone. EPA projects that the total RI/FS costs (EPA's contractor 
costs) will be approximately $16.5 million, plus costs associated with 
Cooperative Agreements and JAGS.

    Question 8. The EPA has announced it will be issuing a ROD for the 
RI/FS by December, 2000. State of Idaho officials have suggested that 
the ROD will be too general because the EPA's schedule provides 
insufficient time to review the science to develop a detailed ROD. The 
State of Idaho is currently participating in the RI/FS process to try 
to address this short coming. If the State of Idaho continues to raise 
concerns about the sufficiency of the science used in the EPA's RI/FS 
process, will the EPA choose to release the ROD on schedule with 
insufficient data or will the Agency delay releasing the ROD until all 
parties are confident in the sufficiency of the data?
    Response. EPA is committed to completing a Record of Decision for 
the Coeur d'Alene Basin by December, 2000. The Agency is conducting the 
RI/FS in a manner that will enable us to select an overall remedial 
approach to address the contamination in the Basin. By working closely 
with the State of Idaho during the Remedial Investigation/Feasibility 
Study and Record of Decision development, Region 10 will attempt to 
address the State's concerns. It is also important to note that details 
associated with cleaning up specific areas will be developed during the 
Remedial Design stage. The State and local governments and community 
members will be critical partners during that stage. There is always 
the possibility that if circumstances warrant, the remedy may be 
modified through ROD Amendments or Explanation of Significant 
Differences (ESDs) or additional RODs may also be required.

    Question 9. The EPA has been involved with the cleanup of the 
Silver Valley in North Idaho for over 15 years. During this time, the 
EPA has taken actions that have engendered serious local opposition and 
distrust within the community. This relationship clearly does not help 
in the ultimate goal of promoting locally supported environmental 
activities. At the same time, the community appears increasingly to 
favor the State of Idaho in the search for solutions to environmental 
problems within the state. Will the EPA support State of Idaho having 
the lead role in cleaning up areas outside the boundaries of the Bunker 
Hill Superfund Site ``box''?
    Response. EPA places a strong emphasis on state and local 
government involvement in Superfund actions. In fact, the cleanup at 
Bunker Hill is an example of a successful Federal, state and local 
partnership. As you may know, the State of Idaho's Division of 
Environmental Quality has the lead role on a substantial portion of the 
Bunker Hill ``box'' cleanup (design, implementation, and community 
relations), including: the Smelterville Flats; Bunker Creek; Gulch 
removals and restoration; residential yard cleanup oversight; Union 
Pacific Railroad Right-of-way cleanup oversight; and Stauffer cleanup 
oversight. In addition, the Panhandle Health District manages the 
Institutional Controls Program (ICP) which many believe will serve as a 
catalyst for economic redevelopment in the Silver Valley.
    Outside the Bunker Hill Superfund Site ``box,'' EPA is very aware 
that people in the Coeur d'Alene Basin want the State of Idaho to have 
a leadership role in both the current study and future cleanup actions. 
Through two Cooperative Agreements, Region 10 is supporting the State's 
involvement in the Remedial Investigation/Feasibility Study. The Region 
is also committed to working actively with the State on a comprehensive 
cleanup plan for the Basin.
TMDLs
    Question 10. Does your interpretation of Section 303(d) of the 
Clean Water Act permit anyone other than states (or in the case of 
disapproved state submissions, the Administrator) from establishing 
total maximum daily loads in impaired waters?
    Response. Section 303(d)(1)(C) of the Clean Water Act provides that 
``[e]ach State shall establish . . . the total maximum daily load . . 
.'', and section 303(d)(2) provides that, if EPA disapproves a State's 
TMDL, ``the Administrator'' shall establish one. Section 303(d)(2) also 
provides that, from time to time, ``[e]ach State shall submit'' TMDLs 
to EPA. Because the statute specifically says that States submit TMDLs 
and that States and the Administrator establish them, EPA believes that 
other parties may not ``submit'' TMDLs to EPA for review or 
``establish'' TMDLs.
    EPA does not interpret the statute, however, as preventing other 
entities, such as local governments, interstate commissions, or citizen 
and industry stakeholder groups, from assisting States or EPA in the 
development of TMDLs. Indeed, such participation is to be encouraged 
and these groups may, if the State or EPA desire, do a significant 
portion of the TMDL development work. The developed TMDL, however, must 
be ``established'' by the State and ``submitted'' by the State to EPA 
for review, or ``established'' by EPA in the case of a disapproved 
State submission.
Clean Water Act
    Question 11. Because Idaho has not been delegated authority to 
issue NPDES permits, the EPA is responsible in our state for those 
applications. In the establishment of a draft permit, the EPA recently 
sought to enforce a standard that the State of Idaho suspects is 
inappropriately stringent because it suggests a temperature level that 
may be lower than the range of natural temperature of the river. If 
true, the permit holder would be required to spend money on cooling 
systems that may not ultimately be successful. Do you believe it is 
appropriate for the EPA to seek to enforce a temperature standard that 
is not supported by scientific evidence?
    Response. The temperature standard in question was adopted by the 
State of Idaho. Section 301 (b)(l)(C) of the Clean Water Act and EPA 
regulations at 40 CFR 122.44 require that permits contain limits that 
will ensure compliance with State water quality standards.
    The question of whether current Idaho temperature standards are 
appropriate is a highly controversial one. A similar debate over 
temperature standards in neighboring Oregon resulted in an agreement by 
EPA to pursue further scientific review of the issue of appropriate 
temperature standards in the Northwest. This review, just now getting 
underway, includes participation by Idaho.
    In the meantime, EPA is working with the State of Idaho and the 
discharger in question to explore options such as variances, total 
maximum daily loads, or other means to provide a workable solution.
Clean Air Act
    Question 12. Could you provide me with a detailed schedule of past 
and future involvement of EPA officials in matters surrounding Northern 
Ada County designation under the Clean Air Act?
    Response. The schedule below identifies the major relevant events 
surrounding the Northern Ada County/Boise area designation:
    <bullet>  November 1990--The Northern Ada County/Boise area in 
Idaho designated nonattainment for particulate matter 
(PM<INF>10</INF>).
    <bullet>  May 30, 1996--EPA approves Idaho's State Implementation 
Plan (SIP) for the Northern Ada County/Boise area.
    <bullet>  ? July 1997--Following extensive scientific review, the 
Environmental Protection Agency (EPA) revises the national ambient air 
quality standards (NAAQS) for particulate matter to more accurately 
reflect observed health effects. Both the previous PM<INF>10</INF> 
standards and the revised standards were to remain in effect until the 
previous standards were formally revoked for a given area.
    <bullet>  July 1998--The State of Idaho requests revocation of the 
previous PM<INF>10</INF> standards and the associated ``nonattainment'' 
designation for the Northern Ada County/Boise area. Air quality 
monitoring data show no violations of the standards in the area since 
1991.
    <bullet>  January 8, 1999--The Northern Ada County/Boise area falls 
out of compliance with the Clean Air Act's air quality/transportation 
``conformity'' requirements because the State has not demonstrated that 
transportation projects are consistent with its approved air quality 
SIP.
    <bullet>  March 12, 1999--EPA revokes the previous PM<INF>10</INF> 
standards for the Northern Ada County/Boise area. The revocation also 
removes other Clean Air Act requirements associated with the earlier 
standards, including the nonattainment designation, new-source review 
and air quality/transportation conformity requirements.
    <bullet>  March 18, 1999--Environmental organizations file a 
petition for judicial review in the U.S. Court of Appeals for the 9th 
Circuit challenging EPA's revocation of the PM<INF>10</INF> standards.
    <bullet>  May 14, 1999--The U.S. Court of Appeals for the District 
of Columbia vacates EPA's revised coarse particle (PM<INF>10</INF>) 
standards.
    <bullet>  September 9, 1999--The U.S. Department of Justice (DOJ) 
files a motion with the 9th Circuit court on EPA's behalf for a 
voluntary remand of our decision to revoke the previous PM<INF>10</INF> 
standard in the Northern Ada County/Boise area. The motion asks that 
the court remand the decision without vacating it, and that it hold all 
proceedings in the consolidated cases in abeyance while EPA undertakes 
a rulemaking to reconsider the decision. The motion states that EPA 
intends to initiate a rulemaking proposing to reinstate the previous 
PM<INF>10</INF> standard, during which the public, including the State, 
can comment, and issue a final rulemaking within 4-6 months. 
Environmental groups led by the Environmental Defense Fund (EDF) file a 
reply opposing EPA's motion for voluntary remand. EDF asks the Court to 
vacate and remand EPA's revocation action as their primary request for 
relief.
    <bullet>  November 19, 1999--The 9th Circuit Court of Appeals 
denies the EPA motion for a voluntary remand.
    <bullet>  December 17, 1999--EPA files brief opposing petitioners' 
challenge and argues that their primary claims, which are directed at 
issues decided by EPA in the 1997 rule promulgating the NAAQS, were 
untimely and, consequently, the Court lacked jurisdiction to reach the 
decision on the merits. EPA also reiterates its request that the Court 
remand the matter to the Agency so that the Agency can propose to 
reinstate the previous PM<INF>10</INF> standard in Boise.
    <bullet>  February 1, 2000--Petitioners file a reply to EPA's brief 
and again ask the Court to vacate and remand EPA's revocation action.
    <bullet>  Since September 1999--EPA continues to have discussions 
with the State and local officials and with EDF to try and find a fair 
and reasonable solution to the situation.

    Question 13. Has the EPA committed to seeking a solution to the 
current dispute that is agreeable to the State of Idaho and the local 
development planning authority?
    Response. EPA is committed to and has worked diligently to seek a 
solution to the current dispute that is agreeable to all parties 
concerned. The State and local planning authorities are currently 
engaged in settlement discussions with the environmental litigants. The 
EPA has been supportive of these discussions and has been and remains 
available for consultation.
Clean Air Act
    Question 14. In the rural West, Federal land management agencies 
take actions that have significant consequences in our air quality. 
Prescribed burns in forest areas are undertaken by the U.S. Forest 
Service to ensure the health and viability of forests. Nonetheless, 
communities that are adjacent to or surrounded by National Forests are 
subject to the migration of air emissions from these and other forest 
management practices. Will the EPA count smoke from these burns against 
the state or region's air quality allowances?
    Response. On May 15, 1998 EPA issued an interim policy for 
addressing public health and welfare impacts caused by wildland and 
prescribed fires. The policy, known as the Interim Air Quality Policy 
on Wildland and Prescribed Fires, encourages State and tribal air 
quality managers to collaborate with wildland owners and managers to 
mitigate the air quality impacts of prescribed fires and to develop and 
implement smoke management programs (SMP's) to prevent deterioration of 
air quality and the violation of health standards, mitigate the 
nuisance and public safety hazards (e.g., on roadways and at airports) 
posed by smoke intrusions, and address visibility impacts in parks and 
wilderness areas. If States and tribes actively implement SMPs, EPA 
will exercise its discretion under the Clean Air Act not to redesignate 
areas as nonattainment because of smoke from prescribed fires.

    Question 15. If no, how will the EPA work with state and regional 
authorities to help quantify the impact of such practices on local air 
quality? If yes, what authority will state and regional officials be 
given to undertake actions on public lands to mitigate air emissions 
for which they will be accountable?
    Response. The State of Idaho has a Smoke Management Program (SMP) 
in place. Therefore, smoke from Federal burns will generally be exempt 
and EPA will not redesignate Idaho areas as nonattainment because of 
smoke from prescribed burns. However, if smoke from prescribed burns 
begins to cause PM air quality violations, EPA will call on the State 
to review the effectiveness of the SMP and make appropriate 
improvements to mitigate future air quality impacts. If the problem 
continues, EPA will call for the SMP to be made part of the State's air 
quality implementation plan (SIP) and be federally enforceable.
                                 ______
                                 
   Responses by Michael McCabe to Additional Questions from Senator 
                               Lautenberg
    Question 1. As you know, I have introduced legislation to improve 
the quality of the waters we swim in at our nation's beaches. I 
understand that EPA has a program underway to help states adopt water 
quality standards for coastal waters. From your perspective having come 
from a region with several coastal states (Delaware, Maryland, 
Virginia), what improvements need to be made in how we protect health 
at our beaches?
    Response. EPA believes that improvements to beach monitoring and 
public notification programs to make them more consistent nationally 
are needed to provide better public health protection. As one way to 
enhance public notification, in consultation with States, EPA has 
established a public right-to-know data base about beach water quality.
    Moreover, EPA believes that consistent, scientifically defensible 
water quality standards for states and tribes are very important. Some 
of these water quality standards are intended for recreational use. 
These recreational water quality standards provide the scientific and 
programmatic framework for enhancing protection of public health at 
beaches. To address another area of needed improvement, EPA is working 
with states and tribes to ensure that they adopt state standards which 
incorporate the Agency's published criteria for Escherichia cold and 
enterococci; research data support the use of these microbes as 
indicators of swimming-associated gastrointestinal disease. The water 
quality standards program framework established by the Clean Water Act 
and continued by the Lautenberg bill is flexible, allowing for state 
variation consistent with protection of public health and good 
scientific practice, and revisions by EPA and States as new 
bacteriological indicators, monitoring protocols, and models are 
developed.
OEI
    Question 2. Part of your portfolio as Deputy Administrator would be 
oversight of EPA's new information office. Senator Crapo and I intend 
to introduce a bill shortly that we believe is very much in keeping 
with the spirit of that office, and we would appreciate having EPA's 
support for it.
    The Streamlined Environmental Protection and Pollution Prevention 
Act of 2000 would require EPA to give each business one point of 
contact for all Federal environmental routine reporting requirements, 
and to otherwise minimize the administrative burdens of environmental 
reporting. This ``one-stop'' reporting system would use a common 
nomenclature throughout and use language understandable to 
businesspeople, not just to environmental specialists. Its electronic 
version would also provide pollution prevention information to 
participating businesses. The bill would also give each State, tribal 
or local agency the option of reporting information to one point of 
contact at EPA.
    My staff has discussed this bill with EPA, and received much 
thoughtful and constructive technical advice. We have been able to 
respond to the great majority of issues raised by EPA. One important 
issue remains, however--the deadline by which EPA is to perform the 
activities required by the bill. Our draft bill would establish a 
deadline 4 years after the effective date.
    Would you be able to support a 4-year deadline? Otherwise, could 
you suggest a more appropriate timeline, and agree to work with us as 
we move this bill through Congress?
    Response. While EPA staff have held discussions with your staff on 
technical issues related to your draft legislation, the Administration 
has not yet developed a position on the bill. It would, therefore, be 
premature for me to comment on the deadline contained in the draft 
language, or on other aspects of the bill. We are happy, however, to 
continue to work with you regarding the draft bill.
    Through the recently established Office of Environmental 
Information, EPA is moving ahead on numerous information management and 
security issues, without the need for legislation. We are, as part of 
our Integrated Information Initiative, continuing development of a 
Central Receiving Facility. The Facility will provide the option of one 
point of contact for both states and regulated entities which report 
directly to EPA. Central Receiving also will facilitate our move to 
electronic reporting. We also are proceeding with plans to adopt, in 
partnership with states, data standards which will provide the common 
nomenclature needed to facilitate integration of environmental data, 
and to aid analysis and interpretation for users.
                                 ______
                                 
Responses by Michael McCabe to Additional Questions from Senator Graham
Comprehensive Everglades Restoration Plan
    Question 1. Everglades restoration is anticipated to be a major 
component of committee action this year. It is also a large priority 
for the state of Florida. I am concerned that EPA recently could not 
provide answers to detailed questions on the Army Corps of Engineers' 
Restudy restoration plan. Are you planning to dedicate staff to ensure 
that EPA can participate in this committee's debate on the Restudy 
authorization?
    Response. EPA thanks the committee for holding the recent field 
hearing on the Comprehensive Everglades Restoration Plan (CERP) and 
allowing the Agency to provide its vision on restoring the Everglades 
and the CERP. We look forward to a continued dialog with members of the 
Senate Environment and Public Works Committee, the Army Corps of 
Engineers and all interested parties in order to ensure the successful 
restoration of one our Nation's most precious resources. The Agency 
currently is preparing clarification and detailed answers to questions 
that Members had in regards to the Administrator's testimony. We are 
prepared to provide the committee assistance as it considers the 
restudy authorization.
    The EPA is firmly committed to providing the necessary staff 
resources to assist in implementing the Comprehensive Everglades 
Restoration Plan. Currently, EPA's Office of Water, Region IV and the 
South Florida office of Region IV provide scientific, legal, and 
technical expertise to the Everglades restoration effort. EPA also 
provides a full time staff person at the Army Corps of Engineers' 
Jacksonville Mississippi office to assist in the restoration effort.
TMDLs
    Question 2. In passing the Clean Water Act the Congress expressly 
recognized the primary responsibility and right of the States to 
prevent, reduce and eliminate pollution and to plan the development and 
use of. . . land and water resources (33 USC 1251(b)(1972). The TMDL 
proposal however calls for EPA involvement in state implementation 
plans--which can be expected to result in EPA decisions regarding local 
land use. In this regard:

    Question 2a. What is EPA's authority for involvement in TMDL 
implementation plans?
    Response. Section 303(d) requires that TMDLs, whether established 
by a State, Territory, or authorized Tribe, or by the Administrator, 
``be established at a level necessary to implement the applicable water 
quality standards.'' As the implementation plan provides a description 
of the voluntary and regulatory programs and authorities, EPA has 
proposed that one way to address this is to review the implementation 
plan and determine that there is ``reasonable assurance'' that the TMDL 
will be implemented and will result in the achievement of water quality 
standards.

    Question 2b. In what manner will EPA recognize the primacy of State 
and local involvement in the implementation of the TMDL program?
    Response. Section 303(d) requires states to identify waters and 
establish TMDLs, and submit them to EPA for review. EPA approves or 
disapproves the list and TMDLs. If EPA disapproves, then the statute 
requires EPA to identify the water or establish the TMDL. EPA expects 
States to take the lead in developing and implementing TMDLs and does 
not expect to be directly involved in development or implementation of 
most TMDLs. As part of the process, EPA will work with the States and 
other stakeholders.

    Question 2c. Is it expected that EPA's direct involvement with the 
States in the TMDL implementation plans will be more efficient than 
state and local implementation solely under broad EPA guidance?
    Response. As noted in the response to the previous question, EPA 
expects States to take the lead in developing and implementing TMDLs. 
EPA does not expect to be directly involved in development or 
implementation of most TMDLs.
    EPA will, as directed by the Clean Water Act, review State-
developed TMDLs to assure that they comply with the requirements of the 
Act. Under the proposed rule, this includes review of implementation 
plans submitted by States as part of the TMDL. EPA believes that this 
proposed approach, rather than reliance solely on broad guidance, is 
needed to provide ``reasonable assurance'' that approved TMDLs will 
result in the achievement of water quality standards.

    Question 2d. Has EPA identified the economic costs of the TMDL 
proposals and increased EPA staff requirements of implementing the 
plan?
    Response. EPA correctly certified that the proposed rule would not 
have a ``significant impact on a substantial number of small 
entities.'' EPA completed the economic assessment of the proposed 
regulation revisions consistent with guidelines established by the 
Office of Management and Budget (OMB) and published the proposal for 
public comment following OMB approval.
    It is important to note that the economic assessment of the 
proposed rule defines costs and benefits associated with the changes 
that the proposed rule would make in existing regulations. EPA did not 
estimate, and was not required by law or Executive Order to estimate, 
the costs of complying with the requirements of section 303(d) of the 
Clean Water Act as passed by Congress in 1972 or the existing 
regulations that States and EPA now rely on to implement the TMDL 
program.
    Our preliminary estimates, subject to additional work, are that 
state costs will increase by $10-24 million annually to implement the 
rule, and that the private sector will expend approximately $17-65 
million annually for on-the-ground actions needed to implement the 
TMDLs. These costs are relatively low because the major assumption 
behind the estimated costs is that full implementation of required 
regulatory programs--such as NPDES, including storm water and 
installation of best available technology--as well as voluntary, 
incentive-based programs--such as section 319 grants and the 
Conservation and Wetlands Reserve Programs--will be sufficient, in most 
cases, to achieve water quality standards.
    EPA expects that each Regional Administrator will, consistent with 
other water program priorities, provide adequate technical assistance 
and oversight for the TMDL program. EPA will periodically evaluate its 
staff needs for TMDLs.

    Question 2e. EPA's proposed regulations on TMDLs would involve the 
EPA in many strictly local decisions. For example, land use planning 
typically occurs over many years as city and county plans are prepared, 
subjected to public notice and comment and implemented. How does EPA 
intend to implement these programs and provide, for example, timely 
review, approval and monitoring of all state and local implementation 
plans so that state and local agencies can continue to respond in a 
timely manner to their constituents?
    Response. EPA expects that states, in concert with local 
authorities, will develop and implement TMDLs. For implementation of 
TMDLs, EPA recognizes that local programs and planning processes will 
play a major role. We expect that these local programs and processes 
will be integral in state schedules, which will also include milestones 
for monitoring progress in implementation. With respect to EPA review 
and approval, under the proposed rule EPA will take action to approve 
or disapprove a TMDL within 30 days of the state's submission.
                                 ______
                                 
Responses by Michael McCabe to Additional Questions from Senator Thomas
TMDLs
    Question 1. What is EPA's Statutory authority for asking States to 
list and develop TMDLs for waters impaired and threatened by pollutants 
from nonpoint source and by pollutants from air deposition?
    Response. EPA has the authority to ``include NPS pollution'' in the 
TMDL program under section 303(d). In the preamble to the August 20, 
1999 proposed TMDL rules, the Agency presents, in some detail, its 
legal analysis concluding that the Clean Water Act provides authority 
to require listing waterbodies impaired by pollution from either point 
sources, nonpoint sources, or both, and establishment of TMDLs for 
pollutants in these waters (see pages 46020-21 in the preamble of the 
proposed rule).
    The key point is that section 303(d) is intended to identify waters 
where the applicable water quality standard is not attained and develop 
TMDLs for these waters that ``implement'' the standards (section 
303(d)(1)(A) and (C)). The fact that section 303(d)(1)(A)'s 
identification provisions reference ``effluent limitations'' required 
by section 301 does not limit the section's reach to waters impaired 
only by point sources. Because nonpoint source-only impaired waters can 
never be returned to compliance with applicable water quality standards 
simply by application of section 301 effluent limitations, 
identification of such waters on a State's section 303(d) list is 
consistent with the plain meaning of the words in section 303(d)(1)(A).
    This key conclusion is supported by several additional 
considerations----
    In drafting section 303(d), Congress did not expressly exclude NPS 
impaired waters from the Act's identification and TMDL establishment 
requirements.
    By placing section 303(d) within section 303 (whose provisions 
include water quality standards and implementation plans) instead of 
section 301 (which deals with point source controls), Congress gave 
TMDLs and section 303(d) lists a broad, all-sources ``water quality-
based'' scope, rather than a more narrow, point source-only focus.
    The conclusion that section 303(d) includes NPS impaired or 
threatened waters is also consistent with Act's broad objective to 
``restore and maintain the chemical, physical, and biological 
integrity'' of all the nation's waters. Enactment of section 319 in 
1987 in no way limits consideration of nonpoint sources in section 
303(d). Section 319 is designed to ``reduce'' pollution from nonpoint 
sources generally and is not designed to result in attainment of water 
quality standards in specific polluted waters. The reductions in 
pollution accomplished under section 319 programs reduce the extent of 
NPS pollution and reduce the number of waters that become polluted. 
Thus, the program complements and supports more focused, waterbody 
specific efforts under section 303(d) to bring together all sources in 
an effort to restore the polluted water and attain water quality 
standards.
    Finally, it is critical to note that the conclusion that the 
polluted waters lists and TMDLs should include NPSs does not mean that 
these NPSs are subject to any new controls or the requirement to have a 
Clean Water Act permit.

    Question 2. What is EPA's statutory authority for applying drinking 
water standards in ambient waters?
    Response. The TMDL proposal does not require that ambient water 
quality meet drinking water standards (Maximum Contaminant Levels or 
``MCLs'') established under the Safe Drinking Water Act. The Safe 
Drinking Water Act MCLs apply to treated drinking water delivered to 
customers by public water systems. The rule does, however, reflect the 
Clean Water Act's requirement in section 303(d)(1)(C) that TMDLs be 
established at a level necessary to implement applicable water quality 
standards. Such Clean Water Act standards include the waterbody's 
designated use (including public water supply) and numeric or narrative 
criteria adopted to ensure the use is met.
    In addition, Section 303(d) says that States shall establish a 
priority ranking for establishing TMDLs taking into account ``the 
severity of the pollution and the uses to be made of such waters.'' 
EPA's TMDL proposal reflects the Agency's belief that demonstrable 
threats to human health, in the form of polluted drinking water 
sources, be given high priority by States as they establish TMDLs. This 
is articulated in section 130.28 of the proposal which requires States 
to assign a ``high priority'' on their section 303(d) lists to a 
waterbody if it is ``designated in water quality standards as a public 
drinking water supply, used as a source of drinking water and the 
pollutant for which the waterbody is listed as impaired is contributing 
to a violation of and MCL.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________
                               
   Statement of Eric D. Eberhard, Nominated by the President to be a 
Member of the Board of Trustees of the Morris K. Udall Scholarship and 
         Excellence in National Environmental Policy Foundation
    Mr. Chairman and members of the committee, I am pleased and honored 
to be nominated to serve as a member of the Board of Trustees of the 
Morris K. Udall Foundation.
    During the course of the nearly 30 years I have worked in the field 
of Federal Indian policy, I had the opportunity to come to know Mo 
Udall and to work with him and his staff on a number of issues relating 
to Federal Indian policy, including governance, health care, children 
and families, land and natural resource issues, water rights 
settlements and the regulation and protection of environmental quality 
on Indian lands. One did not have to be around Mr. Udall very long or 
very often before it became obvious that he was a man of uncommon 
vision, ability and wisdom. I am humbled by the opportunity to help 
others carry out even a small portion of the legacy he left our nation 
in the areas of Indian law and policy and the environment.
    As the members of the committee know, the Udall Foundation has been 
charged by the Congress with numerous duties, including: awarding 
college scholarships, fellowships and internships to further public 
goals in the environmental and Indian policy arenas; conduct research 
and assist in policy development; and, serve as the Federal mediator in 
environmental disputes. Since its inception, the Foundation has awarded 
hundreds of scholarships to college students planning careers in 
environment or Native American health care; developed and implemented a 
successful internship program to provide opportunities for Indian and 
Native American students to work in the Congress and the Executive 
Branch; promoted new directions in environmental research and 
education; and, the Foundation has begun the work necessary to become 
an effective mediator of environmental disputes through the recently 
authorized U.S. Institute for Environmental Conflict Resolution.
    I am hopeful that my experience working here in the Senate on the 
staff of the Committee on Indian Affairs and the staff of Senator 
McCain, along with my experience working for and representing tribal 
governments before the Congress, the Executive Branch and in their 
relationships with state and local governments will permit me to bring 
to the Board of Trustees a perspective which is helpful as the Board 
guides the efforts of the Foundation to meet the mandates set forth by 
the Congress. I welcome the opportunity to assist the Board with the 
challenges the Foundation faces as it continues to build on its record 
of accomplishment.
    I want to thank Senator Smith, the members of the committee and the 
staff for your prompt consideration of this nomination. I will be 
pleased to answer any questions you may have or to assist you in any 
way you deem appropriate as you conduct your deliberations.
                                 ______
                                 
Response by Eric Eberhard to an Additional Question from Senator Graham
    Question. The position for which you are nominated relates to 
national environmental policy and education matters. Please share with 
the committee some of the major specific environmental issues/projects 
that you have had direct involvement within the course of your past 
work?
    Answer. During the past 24 years I have worked on issues relating 
to NEPA compliance, solid and hazardous waste disposal, clean water, 
safe drinking water and CERCLA on behalf of tribal governments. During 
the 1980's I assisted in the development of amendments to the Safe 
Drinking Water Act, CERCLA and the Clean Water Act to authorize the 
Administrator of EPA to delegate regulatory authority under those acts 
to federally recognized tribal governments. While on the staff of the 
Senate Committee on Indian Affairs, I assisted in the development and 
enactment of the Indian Environmental General Assistance Act, the 
Indian Environmental Regulatory Enhancement Act and the Indian Lands 
Open Dump Clean Up Act. I have not been involved in environmental 
litigation; however, I have participated in negotiations relating to 
the issuance of environmental permits and the establishment of 
standards for remediation and mitigation associated with development 
activities which impact both land and water.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  NOMINATIONS OF ELLA WONG-RUSKINKO, ARTHUR C. CAMPBELL, AND JAMES V. 
                                 AIDALA

                              ----------                              


                         TUESDAY, JUNE 13, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
406, Dirksen Senate Office Building, Hon. Bob Smith (chairman 
of the committee) presiding.
    Present: Senators Smith, Warner, Lieberman, Chafee, Reid, 
Hutchison, Voinovich, and Bond.
    Also present: Senators Robb and Frist, and Representatives 
Wamp and Thompson of Mississippi.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. The hearing will come to order.
    The purpose of today's hearing is to consider three 
nominations. The first is that of James V. Aidala, nominated to 
be Assistant Administrator for the EPA Office of Prevention, 
Pesticides and Toxic Substances.
    As the chairman of the committee, I am in the process of 
holding a series of oversight hearings to examine the EPA's 
budget, prioritization of resources, and overall performance, 
and my colleagues and I will have a number of questions, Mr. 
Aidala, I think, in that area on EPA-related concerns.
    The second nomination is that of Arthur C. Campbell, 
nominated to serve as Assistant Secretary for Economic 
Development for the Department of Commerce.
    The third nomination is that of Ella Wong-Rusinko, 
nominated to be Alternate Federal Co-Chair of the Appalachian 
Regional Commission.
    I am pleased to report that Mr. Aidala, Mr. Campbell, and 
Ms. Wong-Rusinko are well-qualified for their positions, and I 
welcome them today, and also welcome my colleagues, Senator 
Lieberman and Senator Roberts, who I think will be here, and 
Senator Warner and Congressman Thompson, who will also be 
introducing witnesses.
    [The prepared statement of Senator Smith follows:]
    Statement of Hon. Bob Smith, U.S. Senator from the State of New 
                               Hampshire
    Good morning. The purpose of today's hearing is to consider three 
nominations. The first nomination is that of James V. Aidala nominated 
to be Assistant Administrator for the EPA Office of Prevention, 
Pesticides, and Toxic Substances.
    My colleagues and I have a number of questions for Mr. Aidala today 
on EPA-related concerns that I hope he will be able to answer for us.
    The second nomination is that of Arthur C. Campbell nominated to 
serve as Assistant Secretary for Economic Development for the 
Department of Commerce.
    The third nomination is that of Ella Wong-Rusinko nominated to be 
Alternate Federal Co-Chair of the Appalachian Regional Commission.
    I am pleased to report that Mr. Aidala, Mr. Campbell and Ms. Wong-
Rusinko are well qualified for their positions.
    I welcome them today and I also welcome my colleagues, Senator 
Lieberman and Senator Roberts who are here today to introduce Mr. 
Aidala; Senator Frist and Congressman Bennie Thompson will be 
introducing Mr. Campbell and Senator Warner will be introducing Ms. 
Wong-Rusinko.
    The President has nominated James V. Aidala to serve as Assistant 
Administrator for the EPA Office of Prevention, Pesticides, and Toxic 
Substances. The Assistant Administrator for the EPA Office of Toxic 
Substances serves as the principal advisor to the Administrator in 
matters pertaining to pollution prevention, pesticides, and toxic 
substances.
    Mr. Aidala has been serving as Associate Assistant Administrator 
for the Office of Toxic Substances since 1993. He also has worked as a 
professional staff member of the U.S. House of Representatives 
Subcommittee on Environment, Energy, and Natural Resources and as the 
Director of Policy Development at the Wallace Institute for Alternative 
Agriculture. Before joining the Institute, Mr. Aidala was a Specialist 
in Environmental Policy for the U.S. Library of Congress. He received a 
received his B.A. and M.A. in Sociology from Brown University. He is 
accompanied today by his wife, Abby; son, Sam; and sisters, Linda and 
Angela.
    The President has nominated Arthur C. Campbell to be Assistant 
Secretary for Economic Development for the Department of Commerce. The 
Assistant Secretary for Economic Development serves as the principal 
advisor to the Secretary of Commerce on matters concerning domestic 
economic development activities, and as the head of the Economic 
Development Administration.
    Currently, Mr. Campbell is the Deputy Under Secretary for Rural 
Development at the United States Department of Agriculture. Prior to 
serving the Administration, Mr. Campbell was a County Commissioner in 
Hamilton County, Tennessee and the Chief Executive Officer of ACC 
Development, where he established and operated a planning, consulting 
and development business specializing in community revitalization.
    Mr. Campbell received a B.S. from Tuskagee Institute and a Master's 
of City Planning from the Georgia Institute of Technology. He is 
accompanied today by his daughter, Nedra.
    The President has nominated Ella Wong-Rusinko to serve as Alternate 
Federal Co-Chair of the Appalachian Regional Commission. The 
Appalachian Regional Commission was established in 1965 to support the 
economic and social development of the 13 states with counties that 
fall within the Appalachian region. The Commission is composed of 
governors from each of the 13 states and a presidential appointee 
representing the Federal Government.
    Ms. Wong-Rusinko has been serving as Deputy Assistant Secretary for 
Congressional Liaison, Program Research and Evaluation in the Economic 
Development Administration at the U.S. Department of Commerce since 
late 1993. Previously, Ms. Wong-Rusinko has served as Executive 
Assistant to Congressman Gene Green, Chief of Staff to Congressman 
Albert Bustamente, and Legislative Liaison Assistant in the Immigration 
and Naturalization Service of the Department of Justice. She received 
her B.A. from Incarnate Word College in San Antonio, Texas. Ms. Wong-
Rusinko is accompanied by her husband, Paul; sons, Christopher and 
David; and her sister-in-law, Shirley and her family.
    Now we will hear the statements of other committee members. Then 
Senators Lieberman and Roberts will introduce Mr. Aidala; Senator Frist 
and Congressman Thompson will introduce Mr. Campbell; and Senator 
Warner will introduce Ms. Wong-Rusinko. Then we will hear testimony 
from our nominees.
    Senator Smith. So let me start with you, Senator Warner.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. I thank you, Mr. Chairman, very much.
    Senator Smith. Wait a minute. Senator Warner, I apologize 
one second. I want to recognize my colleague from Kansas.
    Senator Roberts. I appreciate that very much. I underscore 
everything you said.
    [Laughter.]
    Senator Smith. Easy man to deal with.
    Senator Warner. Well, he's a good man to deal with.
    Senator Smith. He is.
    Senator Warner. You can go to the bank on his word.
    Mr. Chairman, this is a particularly enjoyable moment for 
all of us gathered here today. These nominees have served well 
and are deserving, hopefully, of confirmation. I anticipate 
speedy reporting out and confirmation by the Senate. But this 
marvelous person on my left here has just told me modestly she 
has 30 years of Federal service.
    Is that correct?
    Ms. Wong-Rusinko. Just about.
    Senator Warner. Just about 30 years of Federal service, and 
this is but another step along that long highway of service to 
the public. So, Mr. Chairman, Senator Reid, Senator Frist, 
Representative Thompson, it is my pleasure to introduce to the 
committee this outstanding American as the Alternate Federal 
Co-Chair of the Appalachian Regional Commission.
    I also want to welcome the family here.
    Would you introduce your family to the chairman and members 
of the committee?
    Ms. Wong-Rusinko. Yes. Thank you, Senator.
    My husband, Paul Rusinko; my son, Christopher Paul; and my 
other son, David Elliott.
    Senator Smith. Welcome. Got ties and everything you guys. 
Looking good.
    [Laughter.]
    Senator Warner. You look good.
    I understand that Senator Kay Bailey Hutchison from Texas 
will add her comments to the committee later today.
    Now, during my tenure as chairman of the Transportation and 
Infrastructure Subcommittee, I had the privilege of working 
directly with Ms. Rusinko when we crafted the reauthorization 
for the Economic Development Administration. This 1998 
reauthorization, the first in 15 years--that's remarkable, 
isn't it--implemented significant reforms in EDA procedures and 
programs.
    The nominee was directly involved in the development of 
this legislation. She was responsive to the committee and 
effective in advocating the Administration's efforts to 
streamline the Agency.
    I want to underline, because I have specific recollections, 
Mr. Chairman and members of the committee, she was not only 
involved, she was very responsive. Each time we made an inquiry 
into the preparation of this, she came forward promptly.
    I believe her years of experience at EDA will serve her 
well as the Alternate Federal Co-Chair of the ARC. EDA's 
mission of providing economic development opportunities so that 
these communities can transition to long-term employment and 
growth are multiplied in the Appalachian region.
    The challenges facing most of the Appalachian region today 
are significant. It remains a region with high unemployment, 
dependent on a limited industrial base, and I know it well. I 
travel it with great frequency, Mr. Chairman. It is not only in 
my State, West Virginia, it is that whole corridor that goes 
down.
    I know that the candidate's experience in working with 
State and local governments will serve her well with the ARC. 
Her talents and knowledge in the field of economic development 
are well suited to the demands of the Appalachian Regional 
Commission and the needs to diversify the economy in that 
region.
    I wish you well.
    Ms. Wong-Rusinko. Thank you, Senator.
    Senator Warner. As a citizen of this country, I thank you 
for your long public service, and I have every reason to 
believe that this is another chapter.
    Ms. Wong-Rusinko. I thank you, sir.
    Senator Warner. I thank the Chair and members of the 
committee.
    You're on your own, my dear friend.
    Ms. Wong-Rusinko. Thank you, Senator, very much.
    Senator Smith. Thank you very much.
    I might just ask your sons, for the record, are you boys 
proud of your mother?
    Messrs. Rusinko. Yes.
    Senator Smith. Good.
    Senator Frist and Congressman Thompson and Congressman Wamp 
all wish to say a few words regarding Mr. Campbell, so, because 
we are in the Senate, I'll start first with Senator Frist.

                 STATEMENT OF HON. BILL FRIST, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Frist. Thank you, Mr. Chairman. I will be brief.
    I, too, would like to recognize Mr. Art Campbell's family 
who is with him today, his daughter Nedra--Nedra, would you 
please stand up, as well.
    Welcome. Again, that comment on being proud, I know you 
feel a great deal of that today about your father, as well. 
Thank you.
    It is with great pleasure that I do introduce a fellow 
Tennessean today, Mr. Arthur Campbell, to be Assistant 
Secretary of Commerce for Economic Development with the 
Department of Commerce.
    Listing all of his qualifications for this position simply 
would take more time than I have been allocated this morning, 
but I am certain that my fellow members, colleagues on this 
committee, are familiar with his credentials.
    Over his long and truly distinguished career in public 
service, he has demonstrated tremendous leadership in 
establishing community-based revitalization programs in rural 
settings and urban settings. His current position with the 
Department of Agriculture as the Deputy Under Secretary for 
Rural Development allows him to oversee--very effectively, I 
might add--over 6,500 people in rural utility service, in rural 
housing service, and the rural business cooperative development 
service.
    He has been a key figure in this country--and I should also 
add in our State--in promoting sustainable rural development, 
and will be missed as he leaves the Department of Agriculture 
and moves to the Department of Commerce.
    He has been very involved in the community. Whether he has 
been working on the Tennessee Aquarium Plaza Committee, which 
spurred a revival in downtown Chattanooga, to his guidance in 
the State Rural Development Council, the commitment of Art 
Campbell has been demonstrative of a commitment to public 
service and leadership that is of the highest, highest caliber.
    It was almost a half a century ago that Harry Truman said, 
``Progress occurs when courageous, skillful leaders seize the 
opportunity to change things for the better.'' How well, I 
think, and how aptly those words apply to Art Campbell.
    It is with a great deal of pride that I introduce Mr. Art 
Campbell to this committee.
    Senator Smith. Thank you very much, Senator Frist.
    I'm going to go slightly out of order to accommodate 
Senator Lieberman, who has another engagement, and then I'll 
come right back to the two Congressmen.
    Senator Lieberman?

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman, for your courtesy, 
and I thank my colleagues from the House. I welcome you and 
promise to be brief.
    I wanted to stop by, notwithstanding another commitment, to 
welcome all the nominees and wish them well and say a 
particular word on behalf of Jim Aidala, whom I've known for 
many years and who was of really great assistance to me and to 
my staff and many other staffs here on the Hill when he was at 
the Congressional Research Service. He provided superb counsel 
to us in reviewing environmental issues, particularly pesticide 
issues, in preparation for testimony and hearings. I was 
continually struck by his thoughtful, even-handed, and fair-
minded advice.
    Since the Congressional Research Service, Jim has gained 
additional experience with regulating toxic substances from the 
perspective--the refreshing perspective, I might say--of the 
U.S. House of Representatives Committee on Government 
Operations, where he worked from 1991 to 1993, and from the 
perspective of Associate Assistant Administrator of the Office 
of Prevention, Pesticides, and Toxic Substances, a position he 
has held since 1993.
    He is truly an excellent candidate for the position for 
which he has been nominated. I recommend him without 
reservation.
    Mr. Chairman, this is a serious subject. So much of what we 
do here is serious, but Jim Aidala has been elevated 
additionally, beyond what I've said, by an extraordinary sense 
of humor, and I hope that I don't put his nomination in 
jeopardy if I reveal that he has been over the years a very 
active contributor to the group called the ``Capitol Steps.''
    [Laughter.]
    Senator Lieberman. I think he has exceeded Senator Roberts 
in his work with that--oh, no, that was somebody else.
    [Laughter.]
    Senator Roberts. Well, I fell down the steps, and then he'd 
pick me up.
    Senator Lieberman. I see. I knew you would rise to the 
occasion.
    Finally, I note that Jim is accompanied by his wife, Abby; 
his son, Samuel; and the more quiet sisters, Angela and Linda.
    Thanks, The Chairman. Good luck, Jim.
    Senator Roberts. You made the baby cry. I hope you're 
happy.
    [Laughter.]
    Senator Smith. Senator Roberts, I didn't see you earlier. 
We welcome the Senator from the State of Kansas.

                STATEMENT OF HON. PAT ROBERTS, 
             U.S. SENATOR FROM THE STATE OF KANSAS

    Senator Roberts. I'm sort of a stealth Senator, Mr. 
Chairman, but I follow Senator Lieberman everywhere he goes in 
admiration and respect. I'm not as busy as he is, but I just 
appreciate the chance to offer these words on behalf of Jim 
under the banner of consistency.
    To show Jim's sense of humor, prior to Samuel and his wife, 
Abby, making an exit, he put down here, when he wrote their 
names for me, as he did for Senator Lieberman, ``They sound 
like a grower group wanting an emergency exemption.''
    [Laughter.]
    Senator Roberts. Which is pretty humorous to those who have 
worked on pesticide issues, and everybody else wonders what the 
heck I'm talking about.
    Thank you, Mr. Chairman, for the opportunity to be here 
this morning on behalf of Jim. I met him over 15 years ago, 
when he was the Congressional Research Service top gun in 
regards to working on pesticide issues. I think he is an 
excellent choice to be an Assistant Administrator at the EPA.
    Mr. Chairman, I have worked on pesticide issues. I have 
been sentenced to work on pesticide issues for over 30 years, 
and I understand how important a fair pesticide policy is to 
the Nation's agriculture community and the Nation's industry 
and consumers, and also the environmental community.
    Our farmers want many choices in their pest control 
toolbox, if I could put it that way, and they want them to be 
available at a very low cost. In my days on the sometimes 
powerful House Agriculture Committee, when we were considering 
various policy proposals, we always called Mr. Aidala for 
advice. He played a valuable role in the pesticide debates, and 
they were really debates in 1986. Was that FIFRA Light, Jim? I 
think it was FIFRA light.
    Mr. Aidala. That was Berkeley Bedell if it was 1986.
    Senator Roberts. Yes, that was Berkeley Bedell from Iowa, 
and 1988, and most recently in 1996.
    He was much more than just a technical advisor. He knows 
the laws. He knows the way our Congress works and how to form 
important coalitions and then to find solutions for some very 
difficult challenges and problems.
    If you look back, Mr. Chairman, many of the compromises he 
helped forge have withstood the test of time. This is an area 
that is always fraught with strong emotions, strong feelings, 
and strong differences of opinion, but his imprint I think 
continues to shape the way we regulate pesticides and chemicals 
today on behalf of safety and on behalf of the agricultural 
community.
    Why is Jim the best choice for this job at EPA? First, 
because he is the Nation's expert on pesticide and chemical 
issues. Second, there is no one who has the years of experience 
and insight that he does. Third, because he is honest and 
level-headed and fair. He knows how to balance the competing 
interests--and there are many--and make fair and rational 
decisions. He has established relationships on both sides of 
the aisle and knows how to tackle the very difficult problems. 
And finally because, frankly, Jim is not afraid to tell it like 
it is, whether it is to his boss at EPA or to the agricultural 
community or to the environmental community or to industry or 
to a Senator from Kansas. Sometimes a little disagreement is 
healthy to the debate, and he does have that rare commodity 
here which is so sorely needed, and that's a sense of humor.
    So, Mr. Chairman, I thank you for your attention, the 
opportunity and the privilege to speak on behalf of Jim, and I 
look forward to a very swift confirmation process, and I thank 
you again for the opportunity.
    Senator Smith. Thank you very much, Senator Roberts, for 
being here. We're glad to have you.
    Senator Smith. Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
              U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I know that Senator Warner has already introduced Ms. Wong-
Rusinko, but I just wanted to add my support for her. She is a 
native of Texas, although she has lived in Virginia for the 
last 15 years, but the reason I am here is because I have 
worked with her and my staff has worked with her in her 
position at the Economic Development Administration, and she 
has gone the extra mile for us in so many ways that I just 
wanted to go the extra mile for her today.
    She brings exactly what this Commission needs to the table, 
and that is she has taken on many of the areas of Texas, 
particularly our border area, where we have needed strength in 
cleaning up filthy conditions of living, and she has brought 
economic development assistance and creativity and 
infrastructure improvements to those areas.
    Also, when we have experienced particular areas in my State 
where there have been economic upheavals, she has come in with 
creativity and innovation.
    I think this is something that would do so well for the 
Appalachian region of our country. This is an area that could 
use creativity to improve the living conditions and the 
economic development.
    I just wanted to come and say that I support her. Even 
though she is not a Texan any more, it is always in our hearts. 
And I think that she would do for the Appalachian region what 
she has done for people all over this country in the Economic 
Development Administration, so I support her and I hope that 
the committee will, as well.
    Thank you.
    Senator Smith. Thank you very much, Senator Hutchison.
    Senator Smith. Congressman Bennie Thompson of Mississippi, 
I know you wanted to say some things about Mr. Campbell.
    Welcome. We are glad to have you here this morning.

             STATEMENT OF HON. BENNIE G. THOMPSON, 
       U.S. REPRESENTATIVE FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Senator.
    It is not often we get a chance to introduce someone we 
know a lot about. I've known Arthur Campbell for more than 25 
years. I was a mayor of a small Mississippi municipality, and 
Art Campbell, in another life, walked in and said, ``I'm here 
to help you.'' That sort of signifies the career of Arthur 
Campbell in public service. He has always been there to help.
    I'm happy to see Nedra again. I haven't seen her since she 
was in diapers.
    [Laughter.]
    Mr. Thompson. That says time marches on.
    Arthur was the kind of person who brought to Mississippi, 
specifically, the knowledge and know-how and ability to 
communicate with everyone on issues around rural development. 
He established some of the first nonprofit community 
development corporations in our State that now provide adequate 
housing for over 3,000 families.
    I'm happy to support him also because I've learned a lot 
from Arthur--patience, tolerance, and a lot of things 
politicians tend sometimes to be remiss, but Arthur has been 
that direction for me. He's a good family man. He has 
sacrificed a lot for this country and to his family because of 
his pursuits.
    But, again, he is someone that I know, and I am happy to 
support him in his new position. I'm always challenged by him 
always pursuing higher and loftier goals.
    I have no doubt that he will do a good job in this new 
position. He will represent this country well, and we can all 
be proud of him, so I'm happy to add my voice to the chorus of 
voices in support of Arthur Campbell's nomination.
    Senator Smith. Thank you very much, Congressman Thompson.
    Congressman Zach Wamp of Tennessee, welcome.

                 STATEMENT OF HON. ZACH WAMP, 
        U.S. REPRESENTATIVE FROM THE STATE OF TENNESSEE

    Mr. Wamp. Well, thank you, Mr. Chairman. I want to thank 
you and the committee for holding this hearing.
    As I began several months ago to discuss this possible day 
with Art Campbell, we were concerned somewhat that the longer 
it went in a critical election year like this, maybe it might 
not happen, and so I'm just grateful that it is happening and 
that, even as we approach, obviously, some division politically 
this year, that we can still move forward on things like this 
where we hope we can meet at the water's edge.
    I assume Art is a democrat and that he is being nominated 
by the President, but I never knew Art as a democrat or as a 
republican, which I am. I've known Art for, I guess, about 15 
years. When I was in the real estate business back in 
Chattanooga and he was in community development and economic 
development, I knew him then, and I knew Art when he served on 
the County Commission in Chattanooga, and so for years we've 
known each other before they attached the word ``honorable'' to 
each of our names in elected office. We knew each other pretty 
well, and I've known Art and seen Art up close and personal, 
but I never thought of him as a democrat. I thought of him as 
somebody that was serving our community and not jaded in any 
way by partisanship, because he really doesn't come across as a 
partisan. He just works for the people, and he's done a very 
good job.
    I would believe that, while the rural development history 
that he had that Bennie talked so well about was very helpful 
in his distinguished 5-year career over at the Department of 
Agriculture, I want to say that in this new position, if you 
men and woman are, I think, courteous enough to confirm him, 
that he will be very well-suited there, too, because in 
Chattanooga our success in the last 15 years is enormous, 
incredible, the turn-around in that city, and it is in no small 
way because of Art Campbell. Art Campbell has had a great role 
in the establishment of public-private partnerships in 
Chattanooga that led to our downtown redevelopment efforts, 
which catapulted him to the County Commission, where he was 
allowed to serve in elected leadership, and then 5 years ago 
coming to Washington, frankly, quietly, just doing the job, 
getting the work done, coming up here, and establishing an 
excellent reputation here, as well.
    He is a quiet man and would not tout his accomplishments, 
but I want to say that they are very significant, and I come in 
strong, full support of his confirmation, and it is really a 
privilege for me to come, I guess as his Congressman. He has 
been a Chattanoogan for 19 years, and I hope that when people 
come serve in Washington they don't have to necessarily be 
residents of Washington, D.C., so I hope I'm still your 
Congressman, Art, even though we want to give you to this 
position for quite some time and loan you to the Federal 
Government for continued service.
    Congratulations on the work that you've done.
    I hope, Mr. Chairman, that the committee will look 
favorably on his confirmation.
    Senator Smith. Thank you very much, Congressman. We 
appreciate your being here today.
    Let me say welcome to the witnesses. You had a lot of 
support here from the House and the Senate, which is a tribute 
to all of you--bipartisan support, I might add.
    Ms. Wong-Rusinko, let me just, since I didn't take the time 
to do it before, just give a brief introduction of you to the 
Senate, because I wanted to accommodate other Senators' 
statements.
    You are being nominated to serve as the Alternate Federal 
Co-Chair of the Appalachian Regional Commission, which was 
established in 1965 to support the economic and social 
development of the 13 States with counties that fall within 
that region.
    The Commission is composed of Governors from each of the 13 
States and a Presidential appointee representing the Federal 
Government.
    You have been serving as a Deputy Assistant Secretary for 
Congressional Affairs, Program Research, and Evaluation in the 
Economic Development Administration at the Department of 
Commerce since 1993. Previously, you have served as executive 
assistant to Congressman Gene Green, chief of staff to 
Congressman Albert Bustamente, and legislative liaison 
assistant in the Immigration and Naturalization Service of the 
Department of Justice.
    I understand you received your B.A. from the Incarnate Word 
College in San Antonio, Texas, thus the connection with Senator 
Hutchison.
    Ms. Wong-Rusinko is accompanied by her husband, who has 
already been introduced, Paul, and sons Christopher and David, 
and sister-in-law Shirley and her family. Welcome to all of 
you.
    I'll start with you, Ms. Rusinko. You have an opening 
statement which will be made part of the formal record, and 
please feel free to summarize that in 2 to 3 minutes. We'd 
appreciate it.

 STATEMENT OF ELLA WONG-RUSINKO, NOMINATED BY THE PRESIDENT TO 
   BE ALTERNATE FEDERAL CO-CHAIR OF THE APPALACHIAN REGIONAL 
                           COMMISSION

    Ms. Wong-Rusinko. Thank you, Mr. Chairman.
    Distinguished members of the committee and committee staff, 
I am honored to be afforded the opportunity to appear before 
you today as President Clinton's nominee to the position of 
Alternate Federal Co-Chair of the Appalachian Regional 
Commission. I thank the President for this nomination and for 
the professional opportunity of serving for 7 years as an 
appointee at the U.S. Department of Commerce.
    Mr. Chairman, I am grateful for this hearing and for the 
many courtesies which committee members and staff have extended 
to me in my current Federal position. I am grateful for the 
bipartisan collaboration that produced Public Law 105-393, the 
Economic Development Administration Reform Act of 1998, 
historic reauthorization legislation accomplished by this 
committee and the leadership of Senators Max Baucus and Olympia 
Snowe, original legislation cosponsors.
    Dr. Jesse White, Federal Co-Chairman of the ARC, is with us 
at this hearing. I thank you, Dr. White, for your support of my 
nomination and for your outstanding leadership. I look forward 
to having the opportunity to work with you and the ARC staff on 
behalf of the Appalachian region.
    I am here today because of the very special support of my 
family and friends. I thank the many EDA and ARC professionals 
who serve loyally and faithfully to make a difference in the 
Nation's distressed communities. I am grateful to my 
professional colleagues with national organizations for their 
collaboration on economic development.
    Mr. Chairman, I would like to share my mother's vision with 
the committee and how that vision became a reality. It was this 
unique effort that has guided my commitment to public service 
and the creation of opportunities.
    We lovingly called her Mama. Her vision was to pave a road 
of opportunity for her four children with a foundation made up 
of love of God, love of family, love of country, and respect 
and understanding for your fellow man. Had she lived, she would 
have celebrated her 77th birthday 5 days ago.
    Mama had a plan for the children's future--a thoughtful and 
flexible master plan developed through an exceptional 
partnership with Dad. The plan was updated periodically to 
account for changing priorities or a better way. For the plan 
to work, our parents realized that the children would need a 
``nudge.''
    Mom and Dad were raised in rural areas of Mexico and China. 
As legal immigrants to the United States, they faced many 
challenges, such as learning another language and earning a 
living. Securing credit or a loan in the 1940's to start a 
business was an enormous challenge. Thankfully, today it is 
easier because of the availability of State and Federal 
programs.
    My parents worked hard, but they saved and invested wisely. 
Their goal was to give their children a good education. To 
achieve that goal, they started out with a small business and 
diversified, ultimately finding their niche in a grocery store. 
For them, the businesses were the vehicles they would use to 
pave roads of opportunity for the family.
    How did my parents succeed? First, they secured technical 
help and developed and implemented a business plan that 
included goals and objectives. Each business investment 
required an outside financial partner and required concrete 
outcomes. Outcomes provided my parents with a sense of pride 
and the incentive to continue with their plan. Full 
implementation of the plan culminated in the transition of a 
helpless, dependent child into a responsible adult.
    The availability of public infrastructure, the Federal 
Government role, and the private sector investment, together 
with my parents' commitment and initiative, yielded a formula 
for business and personal success.
    My parents' success is applicable to economic development. 
I believe effective economic development begins with thoughtful 
planning that generates partnerships. I maintain that the 
strength of the country in a world economy is derived from the 
ability of our communities to compete in a communications-
oriented environment. The recent and remarkable expansion of 
the United States' economy presents us with a unique 
opportunity--to make a real economic impact faster by 
strategically focusing and targeting resources on the 
distressed areas of the country.
    America is rich in new, untapped markets. Federal, State, 
and local programs are making a genuine difference. Federal 
efforts such as those at the ARC and the EDA are realizing 
economic opportunities in the Nation's distressed communities.
    I believe the Federal role in economic development is to 
provide the nudge that creates partnerships, helps build 
consensus for implementation of state-of-the-art practices, and 
produces long-term, sustainable results. On a project-by-
project basis, the Federal Government should be a partner to 
deliver resources to fill the critical gap and then withdraw 
and allow the private sector to develop the project.
    American communities with good jobs, access to education, 
and technology are proficient at competing on a world market 
economy, but what about communities or regions that lack the 
good jobs and access to education and technology?
    A November, 1999, Department of Commerce report, ``Falling 
through the Net,'' concludes, ``It is reasonable to expect that 
many people are going to lag behind. Education and income 
appear to be among the leading elements driving the digital 
divide. This reality merits a thoughtful response by policy-
makers consistent with the needs of Americans in the 
information age.''
    The Department's report raises several questions about the 
Federal role in economic development, especially in distressed 
areas like the Appalachian region. The questions require 
answers, and I hope to be involved in answering some of those 
questions as we craft policies and approaches that will 
continue to effectively transition the Appalachian region out 
of its historic economic distress.
    I believe economic development is about creating 
opportunities and a fair chance for people. President Abraham 
Lincoln said it best. On July 4th, 1861, in a message to 
Congress he stated, ``This is essentially a people's contest. 
It is a struggle for maintaining in the world that form and 
substance of government whose leading object is to elevate the 
constitution of men, to lift artificial weights from all 
shoulders, to clear the paths of laudable pursuit for all, to 
afford all an unfettered start and a fair chance in the race 
for life.''
    Mr. Chairman, in closing I reiterate my appreciation to the 
committee for this opportunity and fair chance.
    To my family and friends, I thank you from the heart.
    To my professional colleagues, I look forward to the 
opportunity of working with you in a new capacity.
    Thank you.
    Senator Smith. Thank you very much, Ms. Wong-Rusinko. It is 
nice to have you here.
    Mr. Campbell, you are nominated to be Assistant Secretary 
for Economic Development for the Department of Commerce. The 
Assistant Secretary for this position serves as the principal 
advisor to the Secretary of Commerce on matters concerning 
domestic economic development activities and as the head of the 
Economic Development Administration.
    Currently Mr. Campbell is the Deputy Under Secretary for 
Rural Development at the United States Department of 
Agriculture, and prior to serving the Administration Mr. 
Campbell was a county commissioner in Hamilton County, 
Tennessee, and the chief executive officer of ACC Development, 
where he established and operated a planning, consulting, and 
development business specializing in community revitalization.
    Mr. Campbell received a bachelor of science degree from 
Tuskegee Institute and a masters of city planning from the 
Georgia Institute of Technology. He is accompanied here this 
morning by his daughter, Nedra. Welcome to you, as well. And 
Mr. Campbell, welcome.
    Your statement will be made part of the record. Feel free 
to summarize it any way you wish.

STATEMENT OF ARTHUR C. CAMPBELL, NOMINATED BY THE PRESIDENT TO 
BE ASSISTANT SECRETARY FOR ECONOMIC DEVELOPMENT, DEPARTMENT OF 
                            COMMERCE

    Mr. Campbell. Senator Smith, thank you very much. Senator 
Reid, ladies and gentlemen, the absent members of the 
committee, I come here today aspiring to assume the stewardship 
of the Economic Development Administration, whose mission is 
assisting development of economically distressed areas of this 
country, both urban and rural.
    I am fortunate to arrive here now, after the historic 1998 
5-year reauthorization of EDA, a timeframe that I think allows 
a realistic approach to the work that EDA has been assigned.
    I anticipate my duties with a certain sobering respect for 
EDA's mission and the challenges that it faces in fulfilling 
that mission. I also have a deep appreciation for EDA's 35-year 
history of improving the economic conditions of areas that have 
not thrived as well as the rest of America.
    Although it is a relatively small agency, EDA's impact is 
magnified by the congressionally granted flexibility to 
administer its programs in a way that is both responsive and 
sensitive to the realities of working with a wide range of 
local conditions throughout the country.
    I think this flexibility allows an engagement of local 
leadership in a shared, interactive, and more cost-effective 
approach to economic development planning and implementation.
    I'm a product of both the old south and the new south--the 
old south of racial segregation, of ``cotton is king,'' of 
widespread abject poverty, of disenfranchisement of blacks, and 
a new south of progress and optimism, of revitalization and 
renewal, of commitment to redress historical mistakes.
    These two opposing environments have shaped and influenced 
me and have convinced me of a need for reconciliation in human 
affairs and a need to improve the fundamentals in economic 
affairs.
    Neither I nor my cohorts would have dreamed of this 
occasion unfolding in this chamber that a black boy from rural 
Alabama, a student in the 1960's--could grow to manhood and be 
nominated by the President of the United States to head an 
important agency of our Government.
    What those of my generation would never have imagined my 
children's generation now expects, so I am thankful today that 
the great arc of American democracy is forever bending toward 
justice and that our collective actions have helped to change 
the expectations of a generation.
    I am also thankful for this appointment by President 
Clinton, whom I first met when he was a young, 31-year-old 
Attorney General aspiring to be Governor of Arkansas. The 
occasion for that meeting, to my amazement, was his offer to 
help redress certain roadblocks to my efforts to develop the 
economy of the predominantly black town of Madison, Arkansas. 
Mr. Clinton's interest in distressed areas has abided these 
many years.
    I would not be here today were it not for the supportive 
actions of families, countless colleagues, and friends. Mr. 
Chairman, I'm convinced that heaven is brighter this morning 
because of the smiles of my deceased parents, Johnnie Mae Burks 
Campbell and Patrick Henry Campbell, as they witness these 
proceedings. And I have been sustained by the unconditional 
love of my wife of 33 years, Gwyndolyn McZeek Campbell, who is 
this morning absent in body but present in spirit.
    As Gwyndolyn and I have nurtured our three children, Erika 
and Nedra and Nicholas, to adulthood, we have, in turn, been 
nurtured by the character of their unfolding lives, their 
level-headedness, and their educational attainment--two 
attorneys. Well, some might quibble with whether educational 
attainment would apply to attorneys--and one accountant. Nedra 
put aside her lawyer's daily quest for billable hours to come 
here today from Detroit.
    [Laughter.]
    Mr. Campbell. The great narrative story of America, I 
think, in a basic way, is about people and places and how both 
serve to create opportunity and freedom and realization of 
hopes and dreams. It is about families and how they create 
rewarding personal lives, and hospitable and nurturing 
communities in which we live.
    I view EDA as not just a repository of yet another set of 
Government programs, but as an instrument in which to create a 
more-perfect union, by promoting the general welfare of sectors 
and areas of this country which have not prospered 
economically. Restoring in some places, expanding in others, 
opportunity for a gainful life is the high calling of the EDA.
    I believe government exists to help fulfill the ideals 
premised by our Constitution. Government's role is to help 
people help themselves, to help communities afford its citizens 
opportunity to decent housing, to earn a living, to educate 
their children and obtain affordable health care.
    EDA's legislative mandate is to help people in places 
experiencing substantial and persistent unemployment in the 
most economically distressed areas. It has steadfastly 
implemented this mission for some 35 years, and I believe that 
the legislative mandates and the expressed intents of the 
Congress must continue to guide the agency's work.
    We must be innovative in conducting EDA's business, yet 
prudent and responsible in fiscal matters. I don't believe one 
negates the other.
    EDA and government, generally, should facilitate, I think, 
public/private partnerships which produce locally led economic 
development strategies. The experience of the empowerment zone 
enterprise community program demonstrates that communities that 
incorporate specific, measurable benchmarks in their strategic 
plans produce a believable vision of that future and are more 
successful in the implementation of their plans.
    I don't think economic development is just about the issue 
of money. I think it involves greater collaboration among 
Federal agencies, to help provide more efficient and cost-
effective assistance to local communities.
    Similarly, I think more sub-state regional collaboration on 
economic development planning is needed to produce planning of 
economic ventures, which might obtain more scale and greater 
benefits to the participating communities.
    I think it is important for us to build incubators, 
important for us to build industrial parks, but I also think we 
must provide the environment for entrepreneurship to take 
place. I do not believe that if they build it they will 
necessarily come. I think education is the cornerstone of 
economic development, and I think people must be and can be 
viewed as assets. They can be viewed as assets or liabilities, 
but I think they must be viewed as assets. Sustaining economic 
growth depends on creating a well-educated population and the 
opportunities for them to be productive.
    Therefore, I think it is important for us to link education 
to economic development. I think too often the term ``economic 
development'' is interpreted as doing things to solely create 
jobs. Economic development, I think, is building institutional 
and leadership capacity to create economic opportunity over 
time.
    I do not believe that job creation, alone, is economic 
development. It would take sound investments to follow sound 
planning by a broad-based cross-section of the local public and 
private sectors and not just follow the economic development 
vision of outside consultants.
    Strategic planning draws upon the ingenuity and vision of 
local people from the public and private sectors. These are 
necessary preconditions of successful economic development.
    I also think a concerted effort should be made to improve 
economic opportunity in areas experiencing persistent poverty. 
Persistent poverty is a major obstacle to equitable economic 
development. Poverty exists in many urban centers, but it is 
often more severe in distressed rural areas. Some 540 
predominantly rural counties have poverty rates of 20 percent 
or higher, and approximately 200 of these have poverty rates of 
30 percent or higher.
    Some of the economists argue that restoring broadly shared 
prosperity is the No. 1 challenge that we face. Former 
Secretary Ray Marshall says that, if you were to plot the 
population distribution on a graph by income, that now it would 
resemble more of an hourglass, where it used to resemble more 
of a diamond shape, with a larger middle, a smaller top, and a 
smaller bottom.
    But we have in this country, in America today, a 
combination of a powerful and peaceful military, a democratic 
and stable government, and a strong and vigorous economy; yet, 
in the midst of this plenty we have people in places that have 
been left out and left behind.
    I believe that a challenge facing EDA and the country at 
large is to act in ways that produce more equal and equitable 
economic outcomes. Economic equity is a public good. I think 
society is more stable and strong in the way people are able to 
fulfill their basic human aspirations.
    My hope is that EDA's value will not just be in a project 
that it funds or the planning that it does, but that the 
projects and planning are done in a way that expands the vision 
and hope of people of distressed areas and communities. My hope 
is that agency investments will be driven by local vision and 
local control, local ingenuity, and imagination. I'm convinced 
that when we engender hope, enable those who hope to act on 
their dreams, we produce a much more precious commodity than 
any governmental program.
    Finally, I think what made us strong as a Nation was a 
spirit of cooperation and civic participation of communal 
togetherness, of a widespread commitment to create the common 
good, and a strong belief that we could achieve it. This spirit 
I think must be brought to the economic development process.
    So I would lead this agency guided by a firm conviction 
that all people possess a certain genius. I would act to 
unleash the creativity of the agency's employees and engender 
the imagination of its customers.
    Mr. Chairman, I appreciate this opportunity to come before 
this committee and speak a little bit about my views about 
economic development.
    Thank you.
    Senator Reid. Mr. Chairman?
    Senator Smith. Senator Reid?

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. There's a unanimous consent order in effect 
that I offer the first amendment at 10:30 in the Defense 
Appropriation bill, so I'm going to ask your permission to be 
excused.
    I've enjoyed very much this hearing today. I've read all 
the background material. I had no knowledge of Ms. Rusinko or 
Mr. Campbell prior to today's hearing. Of course, Mr. Aidala 
and we have had a number of meetings in the past and I know 
more about him. From what I've learned here today, the country 
is well served with these three nominations, and I apologize 
for having to leave early.
    Senator Smith. Thank you, Senator Reid.
    Mr. Campbell, I might say I used to once in a while be 
guilty of making a derogatory remark or two about a lawyer, but 
then my daughter married one so I'm in trouble and I can't do 
it any more.
    [Laughter.]
    Senator Smith. Mr. Aidala, it is nice to have you here this 
morning. You are nominated, of course, to be the Assistant 
Administrator for the EPA Office of Prevention, Pesticides and 
Toxic Substances. This position serves as a principal advisor 
to the Administrator in matters pertaining to pollution 
prevention, pesticides, toxic substances.
    Senator Roberts gave you quite an introduction there in 
your expertise in that area.
    Mr. Aidala has been serving as Associate Assistant 
Administrator for the Office of Prevention, Pesticides, and 
Toxic Substances since 1993. He also has worked as a 
professional staff member of the U.S. House of Representatives 
Subcommittee on Environment, Energy, and Natural Resources and 
as the director of policy development at the Wallace Institute 
for Alternative Agriculture.
    Before joining the Institute, Mr. Aidala was a specialist 
in environmental policy, U.S. Library of Congress, and received 
his B.A. and M.A. in sociology from Brown University.
    He is accompanied today by his wife, Abby, and son, Sam, 
who is now very quiet, and sisters, I think, Linda and Angela 
are here, as well.
    Welcome to all of you.
    Mr. Aidala, the floor is yours. As I indicated to the 
others, your statement is made a part of the record. Please 
feel free to summarize it.

STATEMENT OF JAMES V. AIDALA, NOMINATED BY THE PRESIDENT TO BE 
     ASSISTANT ADMINISTRATOR FOR THE OFFICE OF PREVENTION, 
   PESTICIDES AND TOXIC SUBSTANCES, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Aidala. Thank you, Mr. Chairman. Good morning to you, 
Mr. Chairman, and to members of the committee.
    I'd also like to especially thank Senators Roberts and 
Lieberman for taking time out to introduce me to the 
committee--I greatly appreciate that--as well as with Senator 
Reid and a number of other Members past and present. I, 
obviously, have had that pleasure and opportunity to work with 
many Members in a variety of capacities over the years.
    I am very pleased to appear before you today as the 
President's nominee to be the Assistant Administrator for 
Prevention, Pesticides, and Toxic Substances at EPA. I hope to 
continue the important environmental and public health 
accomplishments launched by the Administration through fair and 
open implementation of the Nation's pesticide and toxic 
chemical laws.
    Over the past 25 years, my career has focused on issues 
relevant to that job--pesticide and chemical regulation and 
protection of public health.
    As already mentioned by Senators Roberts and Lieberman, the 
majority of my career has been spent in a variety of jobs on 
Capitol Hill, working in the Senate and the House and also the 
Congressional Research Service.
    In these jobs, I have learned to balance competing 
interests where intense feelings and perspectives are involved. 
As mentioned already, I did have the opportunity to work 
extensively on the amendments to our pesticide laws in both 
1988 and 1996, which were successfully enacted with widespread 
bipartisan support, even though those legislative issues are 
very contentious.
    I would like to mention a few of the key accomplishments 
over the past 7 years of which I am proud to have been a part. 
These include enacting the Food Quality Protection Act to bring 
strong protections for infants and children regarding pesticide 
residues in their diet, expediting the review of new and safer 
pesticides, strengthening occupational protections for farm 
workers, increasing the public's right to know by expanding the 
Toxics Release Inventory, creating partnerships with farmers 
and others to promote use of Integrated Pest Management and 
safer pesticides, and last, but certainly not least, creating 
the high-production volume chemical challenge program to 
increase the availability of chemical safety and health 
information.
    While it is late in the Administration, serving as the 
Assistant Administrator presents many positive opportunities. 
Important work remains.
    This year alone we face an ambitious agenda with much more 
to accomplish. Specifically, for example, this year we must 
continue the important work of the Food Quality Protection Act. 
Our priorities in that area, alone, include completing the 
review of the organophosphate insecticides, strengthening the 
scientific basis of our decisionmaking, and enhancing public 
participation by establishing a new Advisory Committee on 
implementing FQPA.
    I will ensure that FQPA decisions continue to be based on 
sound science, include extensive consultation with our 
stakeholders, occur in an open and participatory process, and 
provide a reasonable transition that works for farmers. I 
believe that these principles will guide us well as we move 
forward in reviewing the safety of existing pesticides, while 
also ensuring that farmers have the necessary pest control 
tools to maintain a safe and abundant food supply.
    In our Office of Pollution Prevention and Toxic Substances, 
where we implement the Toxic Substances Control Act and the 
Pollution Prevention Act, we are reinvigorating chemical 
regulation through voluntary partnerships, increasing the 
public's right to know by making more information available 
about chemicals and their possible effects, and encouraging 
pollution prevention through a number of programs to reduce 
pollution at the source.
    Also in this office we implement the programs to reduce 
childhood lead exposure. This Administration has made 
significant progress to increase consumer awareness, to reduce 
childhood lead exposure, and to establish standards on lead 
hazards. This work is important and will continue.
    In the arena of pollution prevention, we must also continue 
to nurture initiatives where we have found success, such as the 
green chemistry and design for the environment programs. These 
and other pollution prevention initiatives are ways to reduce 
pollution and reduce the cost of doing business for the 
regulated community.
    I would like to close on a personal note. All four of my 
grandparents immigrated to America through Ellis Island, and I 
was raised in a relatively austere household. Both of my 
parents dropped out of high school to make ends meet during the 
Great Depression. Fortunately, with some luck, some brains, and 
a whole lot of student loans, I was able to attend some of the 
Nation's leading universities, and from there I have been 
fortunate to be able to develop my career in public service and 
environmental protection. For me, serving in this position will 
provide an opportunity to give back some of what society has 
afforded me.
    I do look forward to working with Congress in a bipartisan 
basis as we move forward on finding better solutions to today's 
environmental and public health challenges.
    Thank you very much for the opportunity to appear before 
you today, and I'm glad to answer any questions you may have.
    Senator Smith. Thank you very much, Mr. Aidala.
    Before we go to the questions--I will yield to you in just 
a second, Senator Voinovich--I do have two questions that I 
have to ask all witnesses who have come for positions before 
our committee, and first I'll just ask of you to respond 
together.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness if you are confirmed?
    Ms. Wong-Rusinko. Yes.
    Mr. Campbell. Yes.
    Mr. Aidala. Absolutely.
    Senator Smith. The second question is: do you know of any 
matters which you may or may not have thus far disclosed which 
might place you in any conflict of interest if you are 
confirmed in this position?
    Ms. Wong-Rusinko. No.
    Mr. Aidala. No.
    Mr. Campbell. No.
    Senator Smith. Let the record show yes to the first 
question by all witnesses and no to the second.
    Senator Voinovich, I know you have an opening statement and 
questions.
    Senator Voinovich. Well, first of all----
    Senator Smith. Go ahead and proceed.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman. First of all, 
I'd like to welcome the nominees and the members of their 
families and apologize that I wasn't here for all of your 
presentations, but I had the distinct privilege of presiding 
over the Senate this morning.
    I know it is a special day for you and a special day for 
your families.
    Mr. Aidala, I am very proud that someone who was born in 
Akron, Ohio, from humble beginnings has risen to the place that 
you have, and I can understand how good you feel about this 
country and the opportunity that you have to serve.
    Mr. Chairman, two of the individuals that are being 
proposed here today are involved with two agencies that I am 
involved with here in the Senate. My Subcommittee on 
Transportation and Infrastructure has the ARC and the EDA. I'd 
just like to ask a couple of questions in that regard.
    First of all, Ms. Wong-Rusinko, there were several attempts 
in the last couple of years to eliminate the Appalachian 
Regional Commission, and I'd be interested in knowing why you 
think that we need an ARC and why it is just not adequate to 
have their problems taken care of like other States in terms of 
their problems.
    Ms. Wong-Rusinko. The Appalachian region, which covers a 
13-State area, suffers from historic chronic economic distress. 
As such, the region needs dedicated resources to look at 
economic transition in a holistic manner, and for that reason I 
believe that the ARC needs to continue to exist.
    Senator Voinovich. Do you think that the money that is 
being allocated today by the ARC is being directed enough 
toward the distressed areas?
    Several years ago, as Governor of Ohio, I was familiar with 
the ARC, and there were some projects that were awarded in 
various States that looked to me not to have too much to do 
with your distressed community, and I'd like you to comment on 
whether or not you think today the dollars are being directed 
enough toward distressed areas.
    Ms. Wong-Rusinko. I'm happy to do so, Mr. Chairman.
    I believe that the ARC provides a balanced approach to the 
needs of distressed counties through its existing allocation of 
funds process. ARC non-highway funds are provided for area 
development, distressed counties--111 of them--the 
entrepreneurship initiative, and 71 local development 
districts.
    In 1983, ARC established a 20 percent set-aside for 
distressed counties. In fiscal year 1996, the set-aside was 
adjusted to 30 percent. In practice, however, States have 
consistently exceeded the 30 percent set-aside and have spent 
about half of their total project funds on programs that 
benefit distressed counties. This means that about 50 percent 
of ARC project funds are being spent on programs to benefit the 
11 percent of Appalachia's population living in distressed 
counties.
    As you know, one year ago ARC initiated an in-depth look at 
its distressed counties program. I commend ARC on their 
approach to the development of sound policies for the 
distressed counties in Appalachia. The Agency has made great 
progress in gathering information throughout the region. 
Meetings have occurred in Kentucky, Tennessee, and Virginia, 
and I believe other meetings will be held this year. I am 
hopeful that, if confirmed, I will have the opportunity of 
participating in some of these future meetings.
    In addition, I am optimistic that the process will yield 
some very beneficial and thought-provoking recommendations 
about what is needed to transition economically fragile 
counties to thriving resilient areas fully capable of competing 
in the new economy.
    I anticipate that the outcomes and recommendations from 
this process will be reflected in ARC's next reauthorization, 
and I enthusiastically look forward to the opportunity of 
working with you and the subcommittee which you chair on 
looking at how we integrate some of that thinking into ARC's 
next reauthorization.
    Senator Voinovich. Mr. Chairman, one of the comments that 
I'd like to make this morning is that I believe that some of 
the States should be doing a lot more for the areas that the 
ARC is working toward their needed areas in the States--in 
Ohio, 29 counties.
    It seems to me that one of the things that ought to be 
given consideration to is perhaps some type of more-local 
participation in order to get ARC money. I mean, if it is an 
area that is in need, it seems to me that the States--
particularly right now with the financial condition that States 
find themselves with, surpluses--should be a little more 
interested in spending some of their money in those areas that 
are most distressed.
    The other thing that I'd really like you and your team to 
look at is: how do you take and do a better job of taking all 
of the Federal dollars that are available and State dollars and 
blend them so that you have the largest impact on the needed 
region?
    So often, ARC does their thing and then you've got money 
coming in now under the new program that used to be the Joint 
Training Partnership Act, but you have all this money flowing 
in to these areas, and it seems to me that a much better job of 
coordination ought to be made in terms of accessing those 
dollars, and I thought that one of the things that ARC could be 
doing is taking a leadership role in trying to bring those 
resources together in a way that will have the largest impact 
on the region, and I'd be interested in seeing if something 
could be done in that regard.
    Ms. Wong-Rusinko. We will definitely explore those options, 
Mr. Chairman, and we will look forward to working with you on 
how to best do that, either through a legislative route or 
administratively within the Agency.
    Senator Voinovich. OK.
    Mr. Chairman, could I ask a couple more?
    Senator Smith. Certainly. Go ahead.
    Senator Voinovich. Thank you very much.
    Mr. Campbell, I have been the beneficiary in several 
capacities of the EDA. I recall when I was mayor of Cleveland 
that we used the EDA quite constructively to help our city. But 
one of the things that I'm concerned about is that, under the 
Clinton-Gore Administration, there has been a major initiative 
in the area of empowerment zones, and EZ zones, and a lot of 
money has gone into those projects. I intend, perhaps not this 
year but for sure next year, to have some hearings on the 
effectiveness of the spending of those dollars and our urban 
dollars in terms of making a difference.
    One of the things that has always bothered me is that I 
thought that EDA did such a good job, and that, instead of the 
money going into the ``empowerment zones,'' that that money 
could have been better spent by allocating it to the EDA, who 
has had a long history of some very, very creative projects. I 
always used to refer to the EDA as the yeast that raised the 
dough.
    I'd be interested in your comment about the empowerment 
zones and its relationship with the EDA.
    Mr. Campbell. Well, Senator, part of the strength of the 
empowerment zones is the coming together by people from various 
sectors in the community and producing a believable vision of 
what that community can become.
    The interesting thing that has happened is that many 
aspirant communities for designation of those zones who did not 
get designated have done extraordinarily well in implementing 
strategic plans that they put together. So there is a certain 
strength and power that comes from communities getting a clear 
idea of what they want to do and how to go about finding 
resources to carry that out.
    Part of the problem is the way we've always conducted 
business, with the categorical loan and grant programs--first-
come/first-served basis. Those communities that for some reason 
have been disinvested over time have been left out and left 
behind. They don't have the plans and they don't do very well 
in seeking resources in the normal course of things.
    Now, I think EDA program works very well, but what is good 
about EDA programs is that they are flexible and provide money 
for actual planning. Often, the development districts are 
involved in projects--putting them together and helping to make 
deals that are sound investments. You know what can come out of 
it and what ought to go into it in order to get the right 
outcome.
    EDA brings a combination of resources that are helpful and 
available across the country. There are a lot of places that I 
think have benefited very well from the empowerment zones 
process and that kind of approach.
    But the point I want to leave with you is although we have 
complete coverage of the country in empowerment zones, EDA 
still can impart the lessons of empowerment zones in other 
places.
    Senator Voinovich. Have you observed that the communities 
that have been designated empowerment zones have received less 
EDA money than had it not been for the fact that they were 
empowerment zones?
    Mr. Campbell. No, I haven't observed that. I would think 
we've leveraged, like, some $10 for every $1 that has been put 
in on the empowerment zone programs, and that has come from a 
variety of places, including EDA and Health and Human Services 
and public and private sector, so I wouldn't suspect that I'd 
find that to be the case. But I haven't observed it. No.
    Senator Voinovich. I'd be interested in that, Mr. Chairman, 
to see just what dollars those empowerment zone areas have 
received in terms of EDA, or have they received about the same 
as they would have ordinarily, or because they are better 
organized that makes them more qualified to take advantage of 
the EDA.
    I think the point you made is a very good one, and I hadn't 
thought of that, but it is a very good one, and that is that 
the communities that were preparing for the empowerment zones 
have got their act together, and even though they weren't 
designated they are doing a better job of utilizing their 
resources. That's maybe a good idea for the Appalachian 
Regional Commission, to think of some way that you could 
require people to get together their resources and then come up 
with a plan for the region.
    I remember back when I was mayor of Cleveland I was part of 
the group that lobbied for Federal enterprise zone 
legislations. Originally, Congressman Kemp was involved in 
that. We finally decided on 75 of them, and then we'd have 25 
one year and so on over a 3-year period.
    Of course, that legislation was never passed, but as I 
think back on it, we were trying to prepare to take advantage 
of one of them. It's amazing. This really gets to the point 
that you're making. One of the areas in the district that we 
were going to make application for had the highest crime rate 
in the city of Cleveland, and because that plan was put 
together a nonprofit organization was created in the area 
called ``The Midtown Corridor Development Corporation.'' Today, 
that area that was awful, in terms of crime and in terms of 
development, is the best area in the city of Cleveland--the 
lowest crime rate and the most development. In fact, people are 
clamoring to get in the place.
    So getting people together and getting them organized and 
looking at things really does make a difference, and I 
sometimes think that we forget about that on the national 
level. We mandate these things down, and we don't understand 
that the real action really is taking place with the indigenous 
leadership in the community, and the key is getting them 
together to take advantage of the resources that are available.
    Mr. Chairman, I have no further questions except to ask if 
I could have my statement put into the record.
    Senator Smith. Without objection, the statement will be 
made part of the record.
    Senator Voinovich. Thank you.
    [The prepared statement of Senator Voinovich follows:]
 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio
    Thank you, Mr. Chairman, for holding this hearing today and I would 
like to welcome Mr. James Aidala, Mr. Arthur Campbell and Ms. Ella 
Wong-Rusinko to the committee. I look forward to hearing their 
testimony.
    The three nominees that appear before us this morning have been 
nominated for three very different positions. Mr. Campbell, has been 
nominated to be the Assistant Secretary for Economic Development at the 
Department of Commerce. Ms. Wong-Rusinko, has been nominated to be the 
Alternate Federal Co-Chair of the Appalachian Regional Commission. And 
Mr. Aidala is here because he has been nominated to be the Assistant 
Administrator for Prevention, Pesticides and Toxic Substances.
    Mr. Chairman, I am particularly pleased that Mr. Campbell and Ms. 
Wong-Rusinko are here today. As you know, oversight jurisdiction for 
the Appalachian Regional Commission (ARC) and the Economic Development 
Administration (EDA) fall under the purview ofthe Subcommittee on 
Transportation and Infrastructure, which I chair.
    In 1965, Congress created the EDA to bring opportunity to 
economically-distressed areas of the United States. The EDA has been 
working for the past 35 years to generate jobs, support private 
enterprise and help achieve sustainable economic growth by empowering 
distressed communities to develop and implement their own economic 
development and revitalization strategies. Since 1965, EDA has funded 
more than 43,000 projects, investing over $17 billion in more than 
8,000 communities. It is estimated that EDA assistance has helped 
create over 4 million jobs and leveraged more than $ 130 billion in 
private-sector investment.
    Also in 1965, Congress established the ARC to bring the Appalachian 
region of our nation into the mainstream of the American economy. This 
region includes 406 counties in 13 states, including Ohio, and has a 
population of about 22 million people. As a unique partnership between 
the Federal Government and these 13 states, the ARC runs programs in a 
wide range of activities, including highway construction, education and 
training, health care, housing, enterprise development, export 
promotion, telecommunications, and water and sewer infrastructure. All 
of these activities help achieve the goal of a viable and self-
sustaining regional economy.
    The ARC currently ranks all of the 406 counties according to four 
categories: distressed, transitional, competitive and attainment. These 
categories determine the extent for potential ARC support for specific 
projects. They also help ensure that support goes to the areas with the 
greatest need. Mr. Chairman, distressed counties are the poorest of the 
poor, with unemployment at least 150 percent of the national average, a 
poverty rate of at least 150 percent of the national average, and per 
capita market income of no more than two-thirds of the national 
average. This means that a distressed county has an unemployment rate 
of greater than 8 percent, a poverty rate of at least 19.7 percent, and 
per capita market income of less than $13,674. For fiscal year 2000, 
111 counties in the region are classified as distressed, including 9 in 
Ohio. That is over one-fourth of the counties included in the region.
    I know there is terrific potential in Appalachia, and I 
wholeheartedly agree with one of ARC's guiding principles that the most 
valuable investment that can be made in a region is in its people.
    I look forward to the next reauthorization of the ARC. In 
preparation, I am planning to hold a field hearing in Ohio on the ARC 
program under the auspices of the Transportation and Infrastructure 
Subcommittee sometime in August.
    Thank you, Mr. Chairman.
    Senator Smith. I was just going to ask a couple of 
questions at this point, since I yielded to him first.
    Mr. Campbell, I just want to pick up for a moment on what 
Senator Voinovich was asking.
    Oftentimes the criticism is that you get the infusion of 
the money into these economically depressed areas and it has a 
temporary effect, but then you get slippage and the help that 
started with the initial grant or moneys infused in, you get 
slippage after that and we fall back and we don't sustain the 
economic help that came into that depressed area.
    Could you give me any indication how we might be able to 
follow through more to sustain that economic development that 
occurs with the initial infusion of the dollars?
    Mr. Campbell. Well, you start with the idea--included in my 
statement--that economic development is not just about money. 
You start with the idea of people at the local level creating a 
vision of what can happen in that community. They start to 
bring organizations and institutions together to implement 
specific plans that they develop over time.
    Money is important to the implementation of that plan. 
However, often the community focus is strictly on the project 
and the money needed to create jobs, without attention to 
building management capacity. Without proper management, 
projects can fail. Often that happens.
    I think you start with the notion of how to build a 
business step-by-step. Perhaps you begin with legislation and a 
locally developed economic development strategy. Finding the 
money that goes in at the right place, at the right time, and 
for the right use would help a lot. But if we focus just on the 
pursuit of doing a project, getting money in, without 
understanding what the overall scheme of the development could 
be in that community, then it won't work.
    The other problem, Mr. Chairman, I might add, is that we 
get so focused in some of these communities on the needs and 
the problems and the pathology of these communities that we 
don't look at what they can build upon or the available assets.
    So I say to communities, ``What do you have that you can 
build upon?'' I believe the strategy of always trying to find 
some industry to come into a community has limited viability 
and is not always a solution. I think you have to start with 
what you have. Start with the assets you have in that community 
and build upon those.
    Senator Smith. How do you feel about new technology being 
part of that building block?
    Mr. Campbell. Absolutely. It is a key part of it. I've 
talked about education. Unless we focus on preparing these 
communities that are distressed and poor, that they are going 
to be left out and left way behind in the application of the 
new technology.
    Technology potentially minimizes some of the disadvantages, 
especially for distressed communities. For example, with 
technology the distance disadvantage minimizes the remoteness 
of some of the small places.
    Senator Smith. Thank you.
    Mr. Aidala, when Mr. McCabe was here a few weeks ago I 
asked him the same question regarding my plan next year to use 
an authorization process for EPA, which we have not been doing 
in the past. We basically have the smokestack--the Clean Air 
Act, the Clean Water Act--all these authorizations of various 
bills, but never really getting to see how they interconnect.
    The response from Administrator Browner, as well as Mr. 
McCabe, was positive in the sense that they felt that they 
would be able to work with us in that area.
    I'd just be interested in your reaction to that approach as 
to how this would assist you in terms of your duties over 
there.
    Mr. Aidala. I think we would, obviously, also welcome that 
approach, certain to explore it and see what opportunities 
there may be. In particular, it is relevant to our part of EPA 
because, as I mentioned in my statement, part of our 
responsibility is the Pollution Prevention Act, which, by 
definition, is trying to cut across the media programs. It is 
difficult, and we would look forward to working with you and 
other members of the committee on what are the lessons learned, 
what do we need to do either more, better, or differently in 
order to meet some of those goals, so we would welcome that 
opportunity.
    Senator Smith. One of the areas that has caused great 
concern is asbestos. I have an example. In some cases you are 
seeing up to $5,000 a day in fines or violations to schools 
even. I have been contacted by one school administrator who had 
been threatened with EPA violations for not having an asbestos 
plan for a school that was built in 1995 and asbestos hadn't 
been used in schools since the 1980's.
    How do you address a situation like that, I mean, where a 
risk is not present but you still have the regulation and 
somebody is out there trying to enforce a regulation doesn't 
even make sense?
    Mr. Aidala. Obviously, I am not familiar with that 
particular example. On the face of it, I think you are right. 
It sounds like it is a technical term sometimes often used, 
which is called ``it's a mistake.'' I'm not sure. That sounds--
--
    Senator Smith. I think it is more getting into the 
regulations and updating them----
    Mr. Aidala. Sure.
    Senator Smith [continuing]. And not having to live with 
regulations that have just gone by the boards.
    Mr. Aidala. That's part of our effort, in general. Asbestos 
has been in the news for other reasons also recently, and it is 
forcing us to re-examine where that issue has been in the past 
15 or so years at the Agency.
    But, in particular, in all seriousness, about any time you 
have an implementation program you have to use some kind of 
reasonableness and common sense. Again, I'm not familiar with 
the exact example you raised. On its face, you are absolutely 
right.
    For example, our lead regulations, lead paint was stopped 
in 1978. If you have houses or an apartment building built in 
1990, it would be the same thing. And so it doesn't mean that 
there is absolutely no problem, but obviously you have to apply 
sort of just basic intelligence on that.
    Senator Smith. This criticism or comment, perhaps better, 
comes up frequently when we talk to folks in the field, and yet 
everyone, including yourself, gives a reasonable answer to it. 
We shouldn't be doing such things, but it happens. It happens a 
lot. It happens in--we test, for example, in many of our water 
systems for contaminants that aren't even in the water, and yet 
we continue to have to test for them even though they are not 
there. That's just another example, a generic one.
    It happens a lot, and I think I would just encourage you to 
look hard at that, because I think it makes us all look bad, 
any of us who are in the employment of the Government one way 
or another, to have those kinds of things surface which are 
just totally preposterous and make a joke out of what we are 
trying to accomplish.
    Mr. Aidala. I couldn't agree more, Senator, especially the 
part about credibility, shared credibility. This is not about 
whatever branch of Government and what-not. It's the Government 
that owes the people more than simply the sort of, ``Hold it, 
this makes no sense. This is impossible by definition.'' We 
need to respond to that.
    We have made--you know, it's never enough, but we have an 
ever-increasing effort to try to move away from everything from 
the individual stovepipes to try to have more of a policy from 
headquarters that obviously incorporates those kinds of 
reasonable approaches, while I'm sure we'll always be able to 
do better.
    Senator Smith. Thank you.
    Senator Bond?

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman. It is my 
pleasure to join with you in welcoming the nominees and their 
families. I see some of the younger members are maybe a little 
bit less thrilled with the boring nature of these lengthy 
discussions, but this is what the folks that we are talking 
about have to go through every day, so now you know some of the 
burdens that they face.
    We are pleased that you could be here. I've had a good 
conversation with Mr. Campbell and talked about a lot of areas 
of mutual interest. We have a few things that we want to 
followup on with him, but we've had a good conversation there.
    Mr. Aidala, this has to be one of the toughest jobs in the 
Federal Government. You understand that, by being willing to 
undertake this job, that may disqualify you by casting doubt on 
your judgment, and I trust----
    [Laughter.]
    Senator Bond. I'm sure this is a line the Capitol Steps 
could use.
    I originally came here this morning to explore with you the 
mysteries of the Food Quality Protection Act, whose 
administration has managed to keep almost all interested 
parties sullen and on the verge of outright rebelliousness, but 
a pending floor amendment forces me to put you on the spot here 
this morning.
    You spent years reviewing scientific data, but we have 
overnight to review the merits of a proposed amendment for the 
Defense appropriations bill. It's very short. Let me just read 
it to you.
    ``None of the funds appropriated under this act may be used 
for the preventive application of a pesticide containing a 
known or probable carcinogen or a category one or two acute 
nerve toxin or a pesticide of the organo-phosphate, carbomate, 
or organochlorine class in any area owned or managed by the 
Department of Defense that may be used by children, including a 
park, base housing, a recreation center, a playground, or day 
care facility.''
    You are responsible in this area. Do the data--does the 
information that you have support this amendment?
    Mr. Aidala. Senator, we just became aware of this proposal 
in the past, I think, 48 hours or so and haven't had time to 
take a particular position. I think there are some issues about 
the crafting of this language. For example, it is a rather 
broad brush of all the different kinds of pesticides that are 
mentioned here.
    I would be happy to sit down with your office or the 
offices of the Members that are sponsoring the legislation and, 
in effect, see what they're really trying to get at and whether 
or not that's something that makes sense to the particular 
situation at hand.
    Let me mention one or two things.
    The Department of Defense is one of the biggest users of 
pesticides as a single entity. At the same time, they've just 
reduced their pesticide use over 50 percent over the past--I 
forget what period of time, 6 or 7 or 8 years, or even less. 
They've made great strides in that arena.
    I think the intent here is something we could all agree 
with, which is obviously if there are dangerous pesticides you 
don't want to have them used around children. But whether or 
not this particular language does that and/or more I think we'd 
have to take a look at a little more particularly.
    Senator Bond. What troubles me is that you all are the 
experts, and if this was clearly needed we would expect you to 
come forward with it. I trust that there may be a couple in our 
body of a hundred who know what the hell this is all about and 
can understand it and interpret it, but I'm sure not one of 
them. I will be very honored to meet any of my colleagues who 
really do understand all of the ramifications of it.
    It seems to me that this is something that is within your 
judgment and we've got to depend upon a lot better scientific 
understanding and knowledge than we have right now.
    Nobody in Congress or the EPA wants children exposed to 
harmful pesticides or other chemicals, but we also don't like 
disease-carrying roaches and spiders and ants and tics. We made 
a lot of progress reducing the danger to children because we 
have been able to kill many of those things which are disease 
carriers and can even be fatal to small children.
    This is an area where we count on your expertise, and I'm a 
little bit concerned about the breadth of this.
    Second, how long has chlorpyrifos been on the market, 
Lorisban?
    Mr. Aidala. Mr. Chairman, it was first registered, I 
believe, in 1965 or so.
    Senator Bond. Let me ask some of the assumptions that went 
into this study. For example, I heard that to determine 
exposure one study assumed that a 1-year-old would drink eight 
glasses of grape juice every day, and another study used a 
required dose well above that allowed on the label, the 
equivalent of more than 500 applications in a home every day.
    Is this accurate on the study, and are these realistic 
assumptions?
    Mr. Aidala. There may be some of the initial models that we 
use in the case of any pesticide--not this particular case--
that have, shall we say, conservative assumptions. I don't 
think they are as overly conservative as you mentioned, but I'm 
happy to look into that.
    In the case of chlorpyrifos, which agreement was announced 
last week, there were a couple of things that are very much 
different than some of these sort of baseline assumptions. For 
example, we had an additional 200 studies from the company. 
That's on top of the sort of normally required 120-plus 
studies, so there is a package of over 300 studies that we 
looked at.
    A lot of that data came from, for example, USDA's PDP--
pesticide data program--which is the actual residues in foods. 
In other words, you're not assuming what may or may not be in 
the grape juice. It is what is in grape juice as they sample 
it.
    We had separate studies from USDA about food consumption, 
so it is not an assumption about whether it would be 28 glasses 
of whatever substance a day, but what do people really eat and 
drink.
    Those are the real-world data that we put in the equations 
and did in the case of chlorpyrifos when we did our 
assessments, and especially supplemented by those additional 
200 studies by the company which, again, used less of the 
modeling assumptions and more of the actual--for example, 
putting monitors on people as roach spray was sprayed and see 
what's in the air and things like that. It was a whole lot of 
realistic data developed by the company, themselves.
    Senator Bond. Well, I had understood that the Vice 
President directed EPA to work with USDA in this area, but we 
hear from USDA that they just learned about this announcement 
last week as it was happening.
    How well is USDA kept in the loop in making these 
determinations?
    Mr. Aidala. We work very closely with USDA all the way from 
the top through the rank and file, if you will. For example, 
just next week we'll have our first Advisory Committee meeting, 
which is the third in a series of Advisory Committees that 
we've had that are co-chaired by the Deputy Secretary of 
Agriculture, Mr. Rominger, and the Acting Deputy Administrator 
at EPA, Mr. McCabe, all the way down to the rank and file.
    In this case of chlorpyrifos it was a little bit different 
because the primary issues of concern were not agricultural. 
That's not to say that we then didn't work with them, but 
obviously if it is a crop use and--much of our work, the 
majority of our work, obviously, affects more crops than home 
and garden uses from the homeowners' point of view, but 
chlorpyrifos was a little bit unique in that way.
    Senator Bond. Well, you talked about what is going forward. 
Was it true that USDA just learned about it last week? I mean, 
is this something that was sprung on them?
    Mr. Aidala. That would surprise me, actually. We had 
announced to the world, including--I mean, as well as USDA, 
even informally, that we were preparing for what we call under 
the FQPA process a ``technical briefing,'' and that is, by 
definition, announced 3 or 4 weeks in advance.
    We obviously tell them long before that, and they certainly 
are aware of our assessments. We ship again, for some of these 
processes that have been developed with a variety of 
stakeholders, ship the assessments over to USDA, seek their 
input. Again, in this kind of case, where the biggest concerns 
are home and garden uses, they are not things that USDA would 
normally be very much engaged in, but they are aware of it.
    Senator Bond. Last year we increased the Registration 
Division's budget 11 percent, but there were fewer decisions 
last year, nevertheless.
    We need, as I think everybody agrees, to assist farmers in 
transitioning from lost products to new products, and as 
products are taken off the market we need to get the final 
determination on what is safe so that we can deal with pests of 
all kinds, from insects to fungi to noxious weeds.
    Is there anything that Congress can do to get the 
registration process moving so we can get some final decisions?
    Mr. Aidala. It has been moving pretty well in the past. We 
are at relatively historic levels. We've registered over 110 
new active ingredients since FQPA was enacted, and that's very 
important, because by definition each one of those decisions 
meets the absolute toughest law in the world for pesticide 
regulation, the FQPA.
    At the same time, obviously we did take a hit in our budget 
2 years ago, and what that translates into is you're seeing 
less decisions right now because of the lag time from the time 
that we have from sort of setting up the decision and getting 
the review packages together and moving them through our 
system.
    One idea has been floated--and I know it has been talked 
about at least among some Members of the Senate, but I don't 
think the Agriculture Committee has taken up any formal 
inquiry, per se, have not done a hearing and things--is the 
concept of a fee-for-service contribution from the regulated 
community to help accelerate the decisions moving through our 
system.
    At any given time we have about 3 years of applications, 
and obviously in one year we do one year's worth. So if we do--
if we were to be able to find additional funds, by whatever 
means, we obviously could accelerate some of the decisions that 
we have pending before us.
    Senator Bond. Finally, I am advised that the vote on this 
amendment on the Department of Defense bill is going to occur 
at 2:20 p.m. Any guidance for us on that measure?
    Mr. Aidala. I'm happy to do it now, do it here, do it in 
the back room, do it wherever you'd like--happy to sit down 
with, again, your staff and/or other Members and their staffs 
who are interested and advise through that means.
    Senator Bond. Well, this is our best shot. Give me your 60-
second, ``What do we do?'' I've got two of my colleagues here. 
We've got 3 percent of the Senate, and we can talk for the 
other 97.
    Mr. Aidala. So roll your sleeves up and get your yellow 
pencils out.
    Having been a member of the Senate staff as my first Hill 
job back for Senator Percy of Illinois at the time, obviously 
in this kind of situation the question is whether or not you 
want to have an agreement to perfect it over time sooner than 
later. I'm not familiar with what the motivations of the 
sponsors are. I mean, we can sort of infer some of this, given 
the language and all.
    Senator Bond. I'm not interested in the motivations, but, I 
mean, do we vote to put this in law, or is this something that 
requires more work with EPA?
    Mr. Aidala. I would suggest it probably needs a little more 
work with EPA, but that is obviously up to the Members of the 
Senate and the sponsors.
    Senator Bond. You aren't ready to say that this is--EPA's 
got questions that have to be resolved.
    Mr. Aidala. I would say that--again, from its appearances 
it is not an EPA amendment, it is a DOD amendment. I suspect 
DOD would have questions wondering exactly what it is going to 
mean and how they are going to implement it, if that helps you 
at all, Senator.
    Senator Bond. Mr. Chairman, do you understand?
    Senator Smith. I think I do.
    Senator Bond. OK.
    Senator Smith. You know, just as a followup on that, it 
would seem to me the lawn care folks on the military bases--
what if this thing were the pass in this form, would that 
prohibit that?
    Mr. Aidala. No. Again, as I said, there have been over 100-
plus new chemicals registered since 1996, most of which, I 
suspect, are not in these categories.
    I suspect that the biggest difficulty, upon further sort of 
debate and review, is sort of whether or not, as Senator Bond 
indicated, the sort of sweeping breadth of it is whether or not 
you are sort of putting in too much in certain categories. But, 
again, not knowing the intention of the sponsors, per se, that 
would be my immediate response.
    Senator Bond. Attention is beside the point. The question 
is, this is what--when you get the scientific evidence, this is 
what you are supposed to do, right? If you find something that 
is bad that should not be used in Defense Department 
playgrounds or school playgrounds or homes, you ban it, right?
    Mr. Aidala. And I think--again, I know we're not talking to 
the sponsors of this thing. I suspect the short answer is yes, 
Senator, I guess, to get to your point. But other than that I 
think the concern is whether or not all these classes of 
compounds have been through the full FQPA review, and they have 
not. I think that's part of what is the motivation here, but, 
again, I'm only speculating.
    Senator Bond. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Bond.
    Senator Voinovich, do you have any further questions? If 
you don't, I'll bat clean-up and we'll wrap it up.
    Senator Voinovich. Wrap her up.
    Senator Smith. You all finished?
    Senator Voinovich. Finished.
    Senator Smith. Let me just go back to a question for you, 
Ms. Wong-Rusinko.
    As you, I know, are aware because you responded to it in a 
private letter, but I want to give you the opportunity to 
respond to it here publicly, the letter that Senator McConnell 
sent to the President expressing concern that you didn't grow 
up in the Appalachian region, therefore probably wouldn't be a 
good nominee. Since those letters are made part of the record, 
I wanted you to have the opportunity to respond to it here 
publicly.
    Ms. Wong-Rusinko. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    I think that my experience, especially growing up in Texas, 
has really allowed me to look at distressed communities. If you 
look at some of their statistical data, you have unemployment 
rates, 24-month unemployment rate anywhere from 24 to 30 
percent. If you look at the 3-year data for States in the 
Appalachian region, they are not close. You have 17 percent and 
18 percent unemployment rates.
    So I have seen what it is like along the U.S.-Mexico 
border. I know what it is like not to have access to water, not 
to have good roads. I believe that I bring a certain 
sensitivity to the position, as well as, I hope, some 
creativity.
    All I want is a fair chance to be allowed to do that, and I 
think that's my best answer.
    Senator Smith. All right. Just a final question for you, 
Mr. Aidala.
    The issue of animal testing has gotten quite a bit of 
prominence, as you know. Speaking for myself as the chairman of 
the committee, I want to also indicate to you that it would 
make me very happy if we could eliminate all unnecessary animal 
testing. I think that we are locked into this 40 or 50 years 
back. We've always done it; therefore, we will continue to do 
it. And we're not really looking at other alternatives. You 
know, there is a difference between what is necessary and what 
is not.
    I guess let me just ask you, what efforts will you make, as 
the Assistant Administrator for Toxic Substances, to address 
reducing and ultimately replacing the use of animals in 
toxicity testing?
    Mr. Aidala. We make, will continue to make, extra efforts 
in that regard, Mr. Chairman. We have been in the lead, not 
only within EPA but within the Federal Government, on 
attempting to pursue that policy of reducing, refining, and 
replacing animal tests altogether. That's a stated goal of ours 
and one that we spent a significant amount of time on 
throughout various parts of our programs.
    We are very active in what is called the ``Inter-Agency 
Coordinating Committee on Validating Alternative Methods.'' It 
is a very important part of making sure that we have the 
scientific credibility of whatever new test method, whether it 
be animal or non-animal, but this is especially a good forum 
for the non-animal tests.
    We also use that as a springboard to take a lead in the 
international forum, especially working with OECD and other 
international partners.
    The difficulty sometimes comes in validating these non-
animal tests, besides the sort of obvious scientific questions. 
There are certain scientific standards that must be met.
    Sometimes it takes a number of non-animal tests to replace 
one whole animal test, and that sometimes is a misunderstood 
point. But if you do it right--for example, notwithstanding you 
may not have an altogether substitute for an animal test--we 
have situations in part of our programs, for example, where, by 
combining guidelines, for example, of certain other test 
requirements, we can reduce the use of animals by 70 to 80 
percent compared to, as you say, some time ago, even more 
recently than 50 years ago.
    So getting reductions in the 70 to 80 percent range, 
looking for these alternatives altogether, trying to sort of 
share some of your concern about, ``Are we just doing this 
because we've always done it that way, or is there, again, 
shall we say, a particular valid scientific reason, given our 
regulatory duties, that we have to have this kind of 
information?'' And, notwithstanding that, have we made every 
attempt to reduce or refine or eliminate animal tests.
    Senator Smith. This became quite a controversial issue, as 
you know. There have been some ads run on it.
    Mr. Aidala. Sure.
    Senator Smith. I just want to tell you, in all candor, I 
have been told by people in and out of the EPA, many inside, 
that a lot of what you do, if not most, is not needed, and that 
there's just basically a mind set that we've got more important 
things to worry about than that, and I just want to let you 
know that I feel very strongly about it, and if you are 
interested in pleasing me this can help. If you're not, then 
that's another issue.
    But as the inter-agency, I cosponsored that so-called 
ICCVAM. For the purpose of those people who are watching and 
don't know what we're talking about, the Interagency 
Coordinating Committee on the Validation of Alternative 
Methods, which seeks to make this a permanent committee.
    Now, EPA has decided to use the ICCVAM to validate the non-
animal test methods for the endocrine disrupter screening 
program, but intends to use an EPA review process for animal 
methods. Now, the EPA review process is a lot less stringent 
than the other. I think that's a double standard, and I think 
you ought to apply the standard to both.
    If you don't apply that standard, it won't happen. You know 
that. It's not just EPA, it is also National Institute of 
Health. It is everywhere, wherever this stuff goes on.
    Mr. Aidala. Sure.
    Senator Smith. A lot of it in the Pentagon, as well, where 
I'm also looking at it.
    I think it says a lot about a society. A lot of people say, 
``Well, we need to care about people more than animals.'' Well, 
I don't know that that's necessarily true. I'm saying that a 
lot of the problems that we have with abuse, for example, with 
children comes from people who abuse animals first. Wife 
beaters tend to abuse their dogs and cats and child abusers 
abuse animals before it all starts. So I think it says a lot 
about a society to say, ``If we don't need to use animals for 
testing, let's not use them.'' But it takes somebody with some 
leadership in the Agency to say, ``Enough is enough. Let's look 
at this. It is important. Let's move on with it.''
    I think ultimately it saves money, frankly, if you can use 
non-animal sources.
    Let me just say thank you to all of the witnesses.
    Does anybody have a final parting comment you'd like to 
make, a reaction to what anybody has said?
    [No response.]
    Senator Smith. Don't be too concerned about the lack of 
attendance. This happens frequently because people are involved 
in so many things. Usually when there is full attendance you 
should be worried because somebody is mad about something and 
they're going to come after you.
    [Laughter.]
    Senator Smith. That wasn't the case here. I think you can 
expect, since I am the chairman and I can make this statement, 
a timely consideration of your nomination.
    With that, I'll dismiss you and say we'll leave the record 
open if anybody wishes to provide questions to the witnesses, 
which you may have to respond to if they come. We'll leave it 
open until close of business Friday.
    With that, the hearing is adjourned.
    [Whereupon, at 11:08 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Statements submitted for the record follow:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman. I would like to join you in welcoming our 
nominees this morning. Each of them has demonstrated a strong 
commitment to public service in their careers and I commend them for 
it. It is heartening to find such capable people willing to serve the 
public.
    Mr. Aidala has been nominated to advise the Administrator of the 
Environmental Protection Agency on pollution prevention, toxics and 
pesticides. In my state of Montana we have had some very unfortunate 
incidents resulting from our lack of understanding and overseeing the 
use of toxic substances. I look forward to working with Mr. Aidala to 
ensure that what has happened with asbestos contamination to Libby, 
Montana, does not happen again elsewhere.
    Mr. Campbell's nomination to be the Assistant Secretary for 
Economic Development is of particular importance to me. EDA is a major 
source of economic development assistance in Montana. It has been 
instrumental in working with communities around the state providing 
grant funding that helps to generate jobs, and stimulate industrial and 
commercial growth. There are many Montana families today that have 
directly benefitted from the work of EDA.
    Ms. Wong-Rusinko will be a welcomed addition to the Appalachian 
Regional Commission, an organization that is of great importance to 
many members of this committee. This committee has worked with her over 
the years in her capacity with EDA and her talents will be put to good 
use at ARC.
    I look forward to hearing from each of the nominees.
                               __________
   Statement of Ella Wong-Rusinko, Nominated by the President to be 
          Alternate Co-Chair, Appalachian Regional Commission
    Mr. Chairman, Senators Baucus, Warner and Hutchison, distinguished 
Members of the committee and committee staff, I am honored to be 
afforded the opportunity to appear before you as President Clinton's 
nominee to the position of Alternate Federal Co-Chair of the 
Appalachian Regional Commission (ARC). I thank the President for this 
nomination and for the professional opportunity of serving for 7 years 
as an appointee at the Economic Development Administration (EDA), one 
of nine bureaus within the U. S. Department of Commerce.
    Mr. Chairman, I am grateful for this hearing and for the many 
courtesies which committee Members and staff have extended to me in my 
current Federal position. In particular, I am grateful for the 
bipartisan collaboration that produced Public Law 105-393, The Economic 
Development Administration Reform Act of 1998 historic reauthorization 
legislation accomplished by this committee and the leadership of 
Senators Max Baucus and Olympia Snowe, original sponsor and co-sponsor 
of the legislation. Senators Warner and Baucus please accept my 
gratitude and sincere appreciation for your support of my nomination. I 
would also like to thank House of Representatives Members who supported 
my efforts to secure this nomination The Honorable Jim Oberstar of 
Minnesota, The Honorable Bob Wise of West Virginia, and The Honorable 
Martin Frost of Texas.
    Dr. Jesse White, Federal Co-Chairman of the Appalachian Regional 
Commission, is with us at this hearing. I thank you, Dr. White, for 
your support of my nomination and for your collaboration, guidance and 
leadership. I look forward to having the opportunity of working with 
you and the ARC staff on behalf of the Appalachian Region.
    First, I am here because of the unique and special support provided 
to me by my family my husband, Paul Stephen Rusinko; my two sons, 
Christopher Paul and David Elliott; my parents Ella Guadalupe and Pete 
Wong; my sister, Rose Mary, and brothers, William and Jesse and their 
families; my aunt, Finora Fuu; my parents-in-law, Paul and Ester 
Rusinko; and my sister-in-law and her husband, Shirley and Peter 
Brauning and their two children.
    Second, I would like to express my appreciation to the employees at 
EDA and ARC for their guidance and support. In particular, I would like 
to recognize the dedication and commitment of many career and tenured 
professionals at EDA and ARC who serve loyally and faithfully to make a 
difference in the Nation's distressed communities. In the time I have 
spent at EDA, I believe we have accomplished a great deal and more 
remains to be done. My thanks to EDA field and headquarters staff, and, 
in particular, to EDA research, analysis, web, communications and 
budget employees for the opportunity of working with you in a special 
manner. The talent of these individuals has allowed me to work on the 
development and implementation of innovative client-focused policies, 
processes and procedures at EDA.
    Next, I would like to extend my sincere thanks to the many national 
organizations that I have had the opportunity of working with on 
economic development issues. In particular, I am grateful for the 
working relationships that I have been able to establish with the 
National Association of Development Organizations, the National 
Association of Regional Councils, the National Association of Counties, 
the U. S. Conference of Mayors, the Public Works and Economic 
Development Association, the League of Cities, the National Association 
of Towns and Townships, and the Council for Urban Economic Development.
    When I spoke with committee staff, I was asked to talk about ``my 
vision.'' If you will indulge me, I would like to share someone else's 
vision and how that vision became a reality through a special 
partnership. It was this unique effort which has greatly influenced my 
commitment to public service and to the creation of tangible 
opportunities that can become a reality.
    My mother whom we lovingly called ``Mama'' had a vision for her 
family. That vision was to pave a road of opportunity for her four 
children with a foundation made up of love of God, love of family, love 
of country and respect and understanding for your fellow man. Had she 
lived 3 years longer, she would have celebrated her 77th birthday just 
5 days ago.
    Mama had a plan for the children's future: a thoughtful and 
flexible master plan developed through an exceptional partnership with 
Dad. This special relationship involved sharing the benefits, making 
sacrifices and dealing with the challenges. It meant working together 
in a consensus and creative manner toward implementation of an overall 
plan. The plan had to be updated periodically to account for changing 
priorities or a ``better way.'' For the plan to work, our parents 
realized that the children would need a ``nudge'' and that meant start-
up capital, which was not readily accessible.
    My parents were raised in rural, farming areas of Mexico and China. 
As legal immigrants to the United States, they faced many challenges: 
learning another language, earning a living, making new friends, 
finding a place to live, and providing for their children. It was a 
difficult time. For them, getting started was not an easy task. 
Securing credit or a loan in the 1940's for business start-up purposes 
was an enormous challenge. Thankfully, today it is easier for more 
people to obtain credit as a result of the availability of state and 
Federal programs.
    Mom and Dad worked hard and saved religiously. They started out 
small by opening a restaurant, later they expanded and opened what we 
called an ``ice-house'' or in today's terms a ``fast-stop convenience 
store.'' What is more important, they saved and invested wisely for the 
future. They continued to pursue their goal of providing sound 
educational opportunities for their four children. Eventually they 
purchased a mid-size business a grocery store. For them, the businesses 
were the vehicles they would use to pave roads of opportunity for 
themselves and their children.
    Since education was a parental priority, the youngest would stay at 
home after school with my maternal grandparents who lived with us. As 
we got older, we would have to go to the grocery store after school. 
Homework was always first, then work. We stocked shelves, helped 
deliver groceries, and as we say today, other duties as assigned. As 
the eldest, I was taught to help with paperwork and bookkeeping. The 
grocery store was my parents' last investment together. The business 
did well and after decades of hard work, they sold the grocery store.
    My parents' story is one of business success, but how did they do 
it? First, they secured technical help, from those knowledgeable about 
businesses. They developed and implemented a business plan that 
included goals and objectives. My parents took calculated risks. They 
initially put more than half of their money to work for them in the 
business. In my parents' case, each business investment required an 
outside financial partner. They were diligent, persevered, planned and 
partnered to implement their master plan.
    Goals for the children and objectives for the business were 
interrelated and each had milestones with projected outcomes. Plans 
were refined or changed which often generated better results. The 
results showed accomplishment which provided my parents with a great 
sense of pride and the incentive to continue with full implementation 
of the plan. A child graduating from high school or college was a 
milestone. Witnessing your child secure a job that took her away from 
home was an outcome. Observing your child become independent and self-
sufficient were results and measured the success of your master plan. 
Full implementation of the plan showed that you had a key role with the 
transition of a helpless, dependent child to a responsible adult.
    Noteworthy is the fact that the last family business, the grocery 
store, was strategically located in an area of mixed economic need. To 
the North were about ten square blocks of Federal-government subsidized 
public housing. The downtown area was about two miles East and 
residential housing South and West. The availability of public 
infrastructure, the Federal Government role, and the private sector 
investment together with my parents' commitment and initiative yielded 
a formula for business and personal success.
    My parents' vision, how and what they accomplished, is applicable 
to economic development. I believe successful economic development 
begins with thoughtful planning that generates partnerships. Local, 
state, regional, and Federal partnerships produce a shared 
responsibility for making sound investments that can transition 
economically fragile areas of our Nation into self-sustaining, healthy 
communities. Fostering partnerships that eventually produce vibrant, 
competitive economies are inherent to the missions of ARC and EDA.
    Economic development is a local, ``bottoms-up'' process which 
results in a quality of life environment that generates jobs through 
community and private sector partnerships. Traditional economic 
development investments are critical to communities, especially those 
that lag behind more prosperous areas. All communities have unique 
developmental needs and no easy formula exists to achieve or sustain 
economic resilience.
    Advances in technology and telecommunications have posed new 
challenges for our children and the places they call home. Many 
American communities struggle to provide essential services that 
include quality-of-life, sustainable economies. The new economy is 
globally competitive and the opportunities are greater. However, so are 
the barriers especially for those communities diligently working toward 
meeting basic living needs, such as water, roads, schools and jobs. 
Many areas of the Nation are out of the economic mainstream profile: 
high need counties of the Appalachian Region, localities along the 
United States-Mexico Border, remote areas of Alaska, much of the 
Mississippi River Delta, pockets of severe poverty in large cities like 
Los Angeles and New York, lesser populated tracts of Mid-Western 
states, and Native-American tribal units.
    My view is that the strength of the country in a world economy is 
derived from the ability of our communities to compete in a 
communications-oriented environment.
    The recent and remarkable economic expansion of the United States 
economy presents us with a unique opportunity:
    To make a real economic impact faster by strategically focusing and 
targeting resources on the distressed areas of the country accomplished 
through state, Federal, and private sector partnerships.
    I believe that collaboration, consensus, and non-partisan 
partnerships assure economic opportunities and lasting outcomes for 
American communities.
    America is rich in new, untapped markets. Through many worthwhile 
Federal, state and local programs, I believe we are making a 
difference. I am very proud of having the unique seven-year experience 
of working with the EDA at the Department of Commerce. An agency with 
the mission of job creation and retention that stimulates industrial, 
technological, and commercial growth in economically-distressed rural 
and urban areas of the United States. Through Federal efforts, such as 
those of ARC and EDA, I believe we are creating economic opportunities 
for the Nation's distressed communities in different, but complimentary 
ways.
    ARC is focused on the specific needs of a region of the country 
with a century of historic poverty and economic distress a Region that 
has consistently suffered from underdevelopment, geographic isolation, 
and out-migration. The challenges of the Appalachian Region which 
includes 406 counties in 13 states (Alabama, Georgia, Maryland, 
Mississippi, New York, North Carolina, Kentucky, Ohio, Pennsylvania, 
South Carolina, Tennessee, Virginia and West Virginia) are longer-term 
requiring longer-term, targeted solutions. The Commission through a 
unique Federal/State partnership focuses on a broad-based approach to 
economic development and implements solutions that include 
transportation, education, training, health, and entrepreneurial 
development.
    EDA, by contrast, is focused on the needs of distressed communities 
nationally and responds to cyclical and structural changes in the 
economy, such as military base closures, declared natural disasters, 
Department of Energy reductions, major plant downsizing or shutdowns, 
Native-American needs, international trade agreements, depletion of 
natural resources, and brownfields, to name a few areas of need. 
Through a strong, flexible portfolio of transition tools and a national 
network of 320 planning organizations, 69 university centers, and 12 
trade adjustment centers, EDA provides assistance on a cost-shared 
basis directly to eligible units of government and to non-profit 
organizations for economic development.
    I believe the Federal role in economic development is to provide 
the mechanism and ``the nudge'' or assistance that creates 
partnerships, helps build the consensus necessary for implementation of 
state-of-the art practices, and produces long-term, sustainable 
results. On a project by project by project basis, the Federal 
Government should be a partner to deliver resources to fill the 
critical gap and then withdraw and allow the private sector to develop 
the project. American communities with good jobs, access to education 
and technology are becoming more proficient at competing in a world 
market economy. But, what about communities or regions that lack the 
good jobs and access to education and technology?
    A November 1999 Department of Commerce updated report, Falling 
Through The Net, issued by the National Telecommunications and 
Information Administration (NTIA) focuses on the telecommunications and 
information technology gap in America. The report concludes that:

  The Census data reveal a number of trends. On the positive side, it 
    is apparent that all Americans are becoming increasingly connected 
    whether by telephone, computer, or the Internet over time. On the 
    other hand, it is also apparent that certain groups are growing far 
    more rapidly, particularly with respect to Internet connectivity. 
    This pattern means that the ``haves'' have only become more 
    information rich in 1998, while the ``have nots'' are lagging even 
    further behind.
     . . . It is reasonable to expect that many people are going to lag 
behind in absolute numbers for a long time. Education and income appear 
to be among the leading elements driving the digital divide today. 
Because these factors vary along racial and ethnic lines, minorities 
will continue to face a greater digital divide as we move into the next 
century. This reality merits a thoughtful response by policymakers 
consistent with the needs of Americans in the Information Age.''
    The NTIA report raises several questions about the Federal role in 
economic development, especially in distressed areas like the 
Appalachian Region. More specifically, what policies are needed to 
assure those American communities already economically strained do not 
lag even further behind? How do we integrate technology-led economic 
development into the planning and investment process? In this context, 
the term ``technology-led economic development'' means incorporating 
into comprehensive development strategies a thinking that allows 
communities to transition to the next level of need that factors 
competing in a cyber economy. Do existing state and Federal Government 
programs have the technical capacity and understanding to provide the 
type of assistance communities need to survive and thrive in the new 
economy? For every region and community, affordable access is critical 
to opportunity because without access there can be no opportunity.
    The questions require answers and I hope to be involved in 
answering some of those questions as we craft policies and approaches 
that will continue to effectively transition the Appalachian Region out 
of its historic economic distress. For some time now, I have sought out 
an appropriate quote that captures the essence of my views on economic 
development, which I believe is about creating opportunities and ``a 
fair chance'' for people. I believe I found it. On July 4, 1861, 
President Abraham Lincoln in a message to Congress in Special Session 
stated:

  This is essentially a people's contest . . . It is a struggle for 
    maintaining in the world that form and substance of government 
    whose leading object is to elevate the constitution of men to lift 
    artificial weights from all shoulders to clear the paths of 
    laudable pursuit for all to afford all an unfettered start, and a 
    fair chance, in the race for life.

    Mr. Chairman, in closing I reiterate my appreciation to the 
committee for this opportunity and fair chance. To my husband and 
children, I thank you lovingly for being there for me. To my family, 
especially my parents, I express my heartfelt thanks for the 
opportunities and values that you have given me. To my professional 
colleagues, I look forward to the opportunity of working with you in a 
new capacity. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________
                               
   Statement of Arthur C. Campbell, Nominated by the President to be 
  Assistant Secretary for Economic Development, Department of Commerce
    To Chairman Smith, Ranking Member Baucus, other honorable members, 
and ladies and gentlemen, I come before you today aspiring to assume 
stewardship of the Economic Development Administration (EDA), a Federal 
agency whose primary mission is to assist in the development of 
economically distressed areas of this country, both rural and urban. I 
am fortunate to arrive here now after the historic 1998 five-year 
reauthorization of EDA, a time frame that allows a realistic approach 
to the important work EDA has been assigned.
    I anticipate my duties with sobering respect for EDA's mission and 
the challenges to fulfilling it. I have a deep appreciation of EDA's 
35-year history of improving the economic conditions of areas that have 
not thrived as well as the rest of America. Although a relatively small 
agency, EDA's impact is magnified by the Congressionally-granted 
flexibility to administer its programs in a way that is both responsive 
and sensitive to the realities of working with a wide range of local 
conditions throughout the country. This flexibility allows engagement 
of local leadership in a shared, interactive, and more cost-effective 
approach to economic development planning and implementation.
    I am a product of both the Old South and the New South--the Old 
South of racial segregation, of cotton as king, of widespread abject 
poverty, of the disenfranchisement of blacks; and the New South of 
progress and optimism, of revitalization and renewal, of a commitment 
to redress historical mistakes. Those two opposing environments have 
shaped and influenced me, and have convinced me of a need for 
reconciliation in human affairs and a need to improve the fundamentals 
in economic affairs.
    Neither I, nor my cohorts, would have dreamed of this occasion 
unfolding here today in this chamber--that a black boy from rural 
Alabama, a student in the sixties, could grow to manhood and be 
nominated by the President of the United States to head an important 
agency of our government. What those of my generation would never have 
imagined, my children's generation now expects. So I am thankful today 
that the great arc of our American democracy is forever bending toward 
justice, and that our collective actions have helped to change the 
expectations of a generation.
    I am thankful for this appointment by President Clinton whom I 
first met when he was a young 31 year old Attorney General, aspiring to 
be governor of Arkansas. The occasion for that meeting, to my 
amazement, was his offer to help to redress certain roadblocks to my 
efforts to develop the economy of the predominantly black town of 
Madison, Arkansas. Mr. Clinton's interest in distressed areas has 
abided these many years.
    I would not be here today were it not for the supportive actions of 
families, countless colleagues and friends. Mr. Chairman, I am 
convinced that heaven is a little brighter this morning from the high 
voltage smiles of my deceased parents Johnnie Mae Burks Campbell and 
Patrick Henry Campbell as they witness these proceedings.
    I have been sustained by the unconditional love of my wife of 33 
years, Gwyndolyn McZeek Campbell, who is this morning absent in body 
but present in spirit. As Gwyndolyn and I have nurtured our three 
children, Erika, Nedra and Nicholas to adulthood, we have, in-turn, 
been nurtured by the character of their unfolding lives, their level-
headedness, and their educational attainment: two attorneys well, some 
might quibble about whether being a lawyer is ``educational 
attainment'' and one accountant. Nedra put aside the lawyer's daily 
quest for billable hours to come here today from Detroit.
    The great narrative of America, I think, in a basic way, is about 
people and places, and how both serve to create opportunity, freedom 
and the realization of hopes and dreams. It is also about families and 
how they create rewarding personal lives and hospitable and nurturing 
communities in which to live.
    I view EDA as not just the repository of yet another set of 
government programs, but as an instrument with which to ``create a more 
perfect union'' by promoting the general welfare of sectors and areas 
of the country which have not prospered economically.
    Restoring in some places, expanding in others, opportunity for a 
more gainful life is the high calling of the Economic Development 
Administration. I believe government exists to help fulfill the ideals 
promised by our constitution. Government's role is to help people help 
themselves, to help communities afford its citizens opportunity to 
afford decent housing, earn a living, educate their children, and 
obtain affordable health care.
    EDA's legislative mandate is to help people and places experiencing 
substantial and persistent unemployment in the most economically 
distressed places. It has steadfastly implemented this mission for 35 
years. I believe that the legislative mandates and expressed intents of 
the Congress must continue to guide the agency's work. We must be 
innovative in conducting EDA's business, yet prudent and responsible in 
fiscal matters. One does not negate the other.
    EDA, and government generally, should facilitate public/private 
partnerships which produce locally-led economic development strategies. 
The experience of the Empowerment Zone/ Enterprise Community program 
demonstrates that communities that incorporate specific measurable 
benchmarks in their strategic plans to produce a believable vision of 
their future are more successful in the implementation of their plans.
    Economic development is not just an issue of money. Greater 
collaboration among Federal agencies can provide more efficient and 
cost-effective assistance to local communities. This is especially 
necessary in areas seeking to adjust their local economies to: trade 
related downturns, military base closings, persistent and intractable 
poverty, dramatic out-migration and job loss, and environmentally 
triggered economic changes. In these instances, holistic strategies 
requiring a variety of resources are needed in addition to the need to 
fund specific projects.
    Similarly, more sub-state regional collaboration on economic 
development planning is needed to produce clusters of economic 
ventures, which might attain more scale and viability with greater 
benefits to the participating communities. It is important to not only 
build incubators or industrial parks, but to also promote environments 
that foster entrepreneurship and market development. I do not believe 
that ``if you build it they will . . .'' necessarily come.
    Education is the cornerstone of economic development. People can be 
viewed as assets or liabilities. We must see them as assets. Sustained 
economic growth depends upon creating a well-educated population and 
the opportunities for them to be productive. Therefore, it is important 
to link education to economic development.
    Too often the term ``economic development'' is interpreted as doing 
things to solely create jobs. Economic development is building 
institutional and leadership capacity to create economic improvement 
over time. Job creation alone is not economic development.
    Investments should follow sound planning by a broad-based cross-
section of the local public and private sectors, and not just follow 
the economic development vision of outside consultants. Strategic 
planning that draws upon the ingenuity and vision of local people from 
the public and private sectors is a necessary precondition of 
successful economic development.
    A concerted effort should be made to improve economic opportunity 
in areas experiencing persistent poverty. Persistent poverty is a major 
obstacle to equitable economic development. Poverty exists in many 
urban centers, but is often more severe in distressed rural areas. Some 
540 predominantly rural counties have poverty rates of 20% or higher. 
Approximately 200 of these have poverty rates of 30% or higher.
    Noted labor economists argue that restoring broadly-shared 
prosperity is the number one economic challenge that we face as a 
country. Ray Marshall, former Secretary of Labor, says that the 
population distribution by income when plotted on a graph today looks 
more like an hourglass, with a shrinking middle and a larger bottom and 
top. In the not-so-distant past; it used to look more like a diamond, 
with a larger middle and a small top and bottom.
    We have in America today a combination of a powerful and peaceful 
military, a democratic and stable government, and a strong and vigorous 
economy. Yet, in the midst of this plenty, we have people and places 
that have been left out and left behind. I believe that a challenge 
facing EDA and the country at large is to act in ways to provide more 
equal and equitable economic outcomes. Economic equity is a public 
good. Society is more stable and stronger when its people are able to 
fulfill their basic human aspirations. I believe that economic 
development that produces broadly-shared prosperity is in the public 
interest, and that achievement of such prosperity is a public purpose.
    My hope is that EDA's value will not just be in the projects that 
it funds or the planning that it does, but that the projects and 
planning are done in a way that expands the vision and hope of people 
of distressed areas and communities. My hope is that the agency's 
investments be driven by local vision and control, local ingenuity and 
imagination. I am convinced that when we engender hope and enable those 
who hope to act on their dreams, we produce a much more precious 
commodity than any governmental program alone.
    Finally, I think that what made us strong as a nation was the 
spirit of cooperation, of civic participation, of communal 
togetherness, of a widespread commitment to create the common good and 
a strong belief that we could achieve it. This spirit must be brought 
to the economic development process. I would lead this agency guided by 
a firm conviction that all people possess a certain genius, and would 
act to unleash the creativity of the agency's employees and engender 
the imagination of its customers. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________
                               
    Statement of James V. Aidala, Nominated by the President to be 
     Assistant Administrator for Prevention, Pesticides and Toxic 
              Substances, Environmental Protection Agency
    Good Morning, Mr. Chairman and Members of the committee. I'm 
pleased to have the opportunity to appear before this committee. Today 
I'm seeking your confirmation to serve as Assistant Administrator for 
Prevention, Pesticides and Toxic Substances at EPA. It's an honor to 
have the opportunity to continue the important environmental and public 
health accomplishments launched by this Administration. I'm also 
looking forward to the opportunity to work with the committee on a 
bipartisan basis.
    If confirmed as an Assistant Administrator, I am committed to 
building on our success in implementing our Nation's pesticide and 
toxic chemical laws to protect public health and the environment. Often 
in the contentious field of pesticide and chemical regulation, where we 
routinely deal with tough decisions that directly affect consumers, 
farmers, chemical producers, and so many others, it is imperative that 
we advance our work with everyone involved. Since I have been a deputy 
in the Office of Prevention, Pesticides and Toxic Substances for 7 
years now, I believe I am uniquely qualified to bring the different 
parties together to find sensible solutions that further environmental 
and public health protection.
    My professional career has predominately focused on the issues 
relevant to this job--pesticide and chemical regulation and protection 
of public health. In 1975, I started at EPA as a GS-4 summer intern in 
the pesticide program. Before my present position, the majority of my 
professional career has been spent in a variety of jobs on Capitol 
Hill. These positions included working for Senator Charles Percy of 
Illinois, Congressman Mike Synar from Oklahoma, and the Congressional 
Research Service. During the course of my career, I have learned many 
valuable lessons about how to balance competing interests especially 
where intense feelings and perspectives are involved. For example, I 
worked extensively on the 1988 and 1996 amendments to our pesticide 
laws, and while these legislative issues were contentious, the 
amendments were enacted with widespread bipartisan support.
    In my current position as a deputy in the Office of Prevention, 
Pesticides and Toxic Substances, I have helped to manage and direct a 
staff of approximately 1,450 employees with a budget exceeding $225 
million. Our key role is to manage and implement the Nation's pesticide 
and chemical regulatory programs.
    I would like to mention a few of the key accomplishments over the 
last 7 years, which I am proud to have been a part of. They include:
    Enacting the Food Quality Protection Act to bring stronger 
protections for infant and children regarding pesticide residues in 
their diet; Strengthening occupational protections for farm workers;
    Expediting review of new and safer pesticides; Creating the 
Pesticide Environment Stewardship Program to partner with farmers and 
others to promote use of Integrated Pests Management (IPM) and safer 
pesticides;
    Increasing the public's right to know by expanding the Toxic 
Release Inventory; and,
    Creating the High Production Volume (HPV) Chemical Challenge 
program to increase chemical safety and health information.
    It has been my goal to find common ground by bringing relevant 
stakeholders together and develop workable solutions. I believe that my 
efforts and successes are appreciated by our stakeholders. While it is 
late in this Administration, serving as Assistant Administrator 
presents many positive opportunities. Important work remains. This year 
alone we face an ambitious agenda, with much more to accomplish.
    Specifically, this year we will continue the important work of the 
Food Quality Protection Act. Our priorities include completing review 
of the organophosphates, continuing to refine the FQPA science 
policies, and enhancing public participation by establishing a new 
advisory committee on FQPA implementation. While pesticide decisions 
will always invite close scrutiny, I am committed to ensuring that our 
decisions continue be based on the best science, continue to 
extensively involve our customers, and continue to occur in an open and 
participatory process.
    In our Office of Pollution Prevention and Toxics, where we 
implement the Toxic Substances Control Act (TSCA), we are 
reinvigorating chemical regulation through voluntary partnerships to 
increase the public's right to know about the safety of chemicals. EPA, 
in cooperation with the chemical industry and advocacy groups, is 
implementing the High Production Volume Chemical Challenge. This 
voluntary program requires manufactures to generate basic health and 
safety data, and make it available to EPA and the public.
    Also in our office, we implement the Agency's pollution prevention 
and lead programs. This Administration has made significant progress to 
increase awareness and combat childhood poisonings from lead-based 
paint. However, much more remains to be done. We must enhance our 
efforts to increase the awareness about lead-based paint hazards, and 
continue progress on the necessary lead regulations necessary to 
protect children from lead exposure.
    In the area of pollution prevention, I'm committed to continue a 
variety of initiatives underway with industry, consumer groups and 
others, to achieve voluntary reductions in risks associated with the 
use of chemicals, and to promote more sustainable technologies. During 
my tenure as an Assistant Administrator, I will continue to develop 
voluntary and innovative partnerships with the chemical industry, 
consumer groups, and others to expand the public's right to know about 
potential chemical hazards in the environment.
    I would like to close on a personal note. All four of my 
Grandparents emigrated to America through Ellis Island, and I was 
raised in a relatively austere household. Both of my parents dropped 
out of high school to make ends meet during the Great Depression. 
Fortunately, with some luck, some brains, and some student loans, I was 
able to attend some of the Nation's leading universities. From there, I 
have been fortunate to be able to devote my career to public service 
and environmental protection. For me, serving in this position will 
provide an opportunity to give back some of what society has afforded 
me.
    I look forward to working with the Congress as we move forward on 
finding better solutions to today's environmental and public health 
challenges. Thank you for the opportunity to appear before you today. 
I'll be glad to answer any questions you may have.
                                 ______
                                 
Responses by James V. Aidala to Additional Questions from Senator Smith
    Question 1. As the Assistant Administrator for Toxic Substances at 
the Environmental Protection Agency, with oversight of all pesticide 
and industrial chemical toxicity testing, what will you do to 
prioritize Agency funds and other resources toward the research, 
development, validation and implementation of non-animal test methods 
into the programs you oversee?
    Response. The Office of Prevention, Pesticides, and Toxic 
Substances (OPPTS) is working closely with EPA's Office of Research and 
Development (ORD), and with other Federal agencies including the 
National Institute for Environmental Health Sciences (NIEHS) (which has 
been designated by Congress as the Federal Government's lead agency for 
alternative testing methods development) and the National Toxicology 
Program, to address the validation of alternative, nonanimal test 
methods.
    EPA has prepared an Interagency Agreement (JAG) with NIEHS in which 
EPA commits to provide $250,000 this fiscal year, and an additional 
$250,000 in fiscal year 2001, for alternative test method development. 
EPA and NIEHS are sponsoring a workshop this Fall under the auspices of 
the Interagency Coordinating Committee on Validation of Alternative 
Methods (ICCVAM), to address the validation status of various 
alternative non-animal test methods for predicting acute toxicity. The 
funds committed through the IAG will be used to fund research on and 
validation of the most promising techniques. In addition, the Office of 
Science Coordination and Policy within the Of lice of Prevention, 
Pesticides, and Toxic Substances is examining making available 
additional funds to support future workshops on alternative test method 
development and validation.

    Question 2. In 1999, the EPA invested approximately $70,000 into a 
rapid, cost-effective, humane test method, commonly referred to as the 
High Throughput Pre-Screen (HTPS). It is my understanding that Congress 
appropriated significant funds for the research and development of the 
HTPS for incorporation into the Endocrine Disruptor Screening Program.
    Why has EPA discontinued consideration of this promising method?
    Response. The results of the Agency's $70,000 feasibility 
demonstration study of the HTPS process were deemed unreliable 
following external scientific peer review by a joint committee of the 
Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) Scientific 
Advisory Panel and the EPA Science Advisory Board. Nonetheless, EPA 
continues to evaluate other methodologies to screen and prioritize 
chemicals under the EDSP. At this time, it appears that similar 
information can be more efficiently derived from computer simulation 
models that predict endocrine activity from the molecular structure of 
chemicals. The Agency is actively pursuing development of these models 
including their validation using non-animal receptor binding assays.
    The proposed use of a Quantitative Structure Activity Relationship 
(QSAR) computer simulation approach in lieu of HTPS was well received 
at a June 2000 public workshop on endocrine disrupter priority setting. 
The workshop included representatives from industry, state government, 
and public health, environmental, and animal welfare groups. The Agency 
is continuing to develop several alternative non-animal in vitro 
screening assays using conventional bench methods.

    Question 3. Where is the remainder of the appropriation?
    Response. The $70,000 appropriation for the feasibility 
demonstration study of HTPS has been expended. No other funds were 
specifically appropriated for use in the development of the HTPS.
    The balance of the Congressional appropriation for the Endocrine 
Disruptor Screening Program (EDSP) is being expended on a variety of 
activities. For example, a portion of the funds are being expended in 
support of the development and evaluation of alternative test methods, 
including non-animal test methods. Further, EPA continues to evaluate 
the potential usefulness of the HTPS as well as other methodologies to 
screen and prioritize chemicals under the EDSP. A significant portion 
of the funds are being expended for the standardization and validation 
of test methods being considered for use under the EDSP. Because many 
of the endocrine disrupter screens and tests involve cutting-edge 
science, few of them have actually been formally standardized or 
validated through inter-laboratory comparisons.
    Finally, to ensure continued public participation in the 
development and implementation of the EDSP, EPA is supporting various 
workshops and will charter a new Federal Advisory Committee to address 
standardization and validation of EDSP screening and testing protocols.

    Question 4. You may know of concerns I raised with Administrator 
Browner concerning the High Production Volume Chemical Testing Program. 
I have a copy of the October 14, 1999 agreement between the EPA, 
Chemical Manufacturers Association, Environmental Defense Fund and 
animal protection advocates. In the agreement, the EPA commits to 
incorporating animal protection considerations into all future EPA 
testing programs. What concrete efforts will you make as the Assistant 
Administrator for Toxic Substances to address reducing and replacing 
the use of animals in toxicity testing?
    Response. The Agency has emphasized on numerous occasions and in 
various forums that it is committed to reducing the number of animals 
used for testing, and to replacing animals in testing with validated in 
vitro (non-animal) test systems when they are reasonably and 
practically available for use in the HPV challenge program. These goals 
must be balanced with the need to conduct scientifically sound chemical 
hazard/risk assessments in support of the Agency's mission. The October 
14, 1999, letter, which was written in the specific context of the High 
Production Volume Challenge Program, embodies several key principles, 
designed to minimize the use of animals, which are applicable to the 
Agency's chemical information programs. The principles include: 
encouraging participating companies to conduct a qualitative analysis 
to determine if there is sufficient data, maximizing the use of 
existing and scientifically adequate data to minimize further testing, 
and encouraging the use of categories of related chemicals and 
structure-activity relationships. These principles are intended to 
reduce the absolute number of chemical substances that may need to be 
tested and ensure that duplicative testing is avoided.
    In addition, EPA actively supports validation of alternative test 
methods through the Agency's role as a Co-Chair, along with the 
National Institute for Environmental Health Sciences (NIEHS), of the 
Interagency Coordinating Committee on Validation of Alternative Methods 
(ICCVAM)). For example, EPA recently concurred with ICCVAM that the 
Local Lymph Node Assay (a test for allergic contact dermatitis) and the 
Corrositex<Register> method (a test to measure skin corrosivity) can be 
used as valid alternatives under the appropriate circumstances. These 
alternative test methods will reduce pain and suffering of test animals 
and replace animals in testing with validated non-animal test systems, 
respectively. In addition, as noted above, EPA is committing $500,000 
over the remainder of this fiscal year and next fiscal year for 
research on and validation of promising alternative test methods for 
predicting acute toxicity. An example of EPA's efforts in the 
international arena is the Agency's work through the Organization for 
Economic Cooperation and Development (OECD) and ICCVAM to modify the Up 
and Down Procedure (OECD 425)--an alternative acute toxicity test which 
reduces the number of animals by more than 70 percent as compared to 
the standard LD50 test--so that it can be used to evaluate dose 
response relationships (which are routinely used to evaluate the 
toxicity of pesticide active ingredients).
                                 ______
                                 
   Responses by James V. Aidala to Additional Questions from Senator 
                                 Graham
    Question 1. I have been informed of some concerns regarding EPA's 
policies related to tolerance revocation for voluntarily canceled uses 
where the Agency has any concern about the dietary risk from the 
product. Specifically, in addition to approving the voluntary 
cancellation of uses requested by the registrant, I have been told that 
EPA now intends to revoke the corresponding tolerances within 180 days 
of canceling the specific uses. This would make any food containing 
such residues adulterated.
    We have been advised that numerous groups have indicated to you 
that the premature revocation of tolerances could cause significant 
market disruption both domestically and internationally. They have 
indicated that, without the protection afforded by a tolerance, 
commercial buyers will be reluctant to purchase foods (including fresh 
and processed foods) which may have been treated with the voluntarily 
canceled pesticide.
    I understand that in response to this concern, the EPA has 
referenced the ``Safe Harbor'' or newly termed ``channels of trade'' 
provisions of section 408(1)(5) of the Federal Food, Drug, and Cosmetic 
Act. Can you describe exactly how this provision will resolve the 
concerns raised by agricultural interests in my state?
    Response. EPA and the Food and Drug Administration (FDA) each 
recently published proposed policies for public comment on channels of 
trade. The channels of trade provision you cite in the FQPA allows 
marketing of food crops which were legally treated with a pesticide, 
even if the pesticide is subsequently canceled and its tolerances 
revoked. FDA recently issued guidance for public comment on how it 
intends to apply the channels of trade provision to crops treated with 
the pesticide, methyl parathion. In essence, FDA will treat domestic 
and imported crops the same and will make allowances for those 
commodities which may have methyl parathion residues past the date of 
tolerance revocation, such as frozen foods, to remain in trade. To 
minimize the burden of providing confirmation that crops were legally 
treated, FDA cites examples of documentation which most processors 
regularly maintain. FDA is considering issuing generic guidance to 
expand the principles of the methyl parathion decision to other 
pesticides. As it has with FQPA decisions, EPA will continue to work 
with the U.S. Department of Agriculture (USDA), FDA, and other 
stakeholders, including the agricultural community, to ensure that 
legally treated crops are not adversely affected by tolerance 
reassessment, and that food is allowed to be distributed through 
commerce.

    Question 2. Vice President Gore's memorandum in 1997 recognized the 
need for a transition period to newer pest management tools. General 
statistics aside, when you cancel a use, what specific steps are taken 
to assure that an efficacious alternative pest management tool is 
immediately available prior to cancellation?
    We are working closely with USDA and the agricultural community to 
ensure that our decisions are based on accurate information, which 
includes analyses of available alternatives. EPA, in cooperation with 
USDA, is providing a transition that works for agriculture. EPA and 
USDA are working to identify opportunities for reasonable transition 
and strategic management planning for agriculture and public health use 
pesticides. EPA's goal is to ensure greater protection of public 
health, while also ensuring that farmers have the tools necessary for 
food production. To address the concerns of all interested parties, EPA 
and USDA have established the Committee to Advise on Reassessment and 
Transition (CARAT), which met for the first time June 23, 2000. This 
committee is bringing together expertise from all perspectives, 
including agricultural representatives, to help guide EPA and USDA 
implementation of FQPA. CARAT is developing recommendations for 
reducing risks from older, riskier pesticides, with a focus on ensuring 
that farmers are provided a reasonable transition to safer pest 
management strategies, including chemical and non-chemical 
alternatives. CARAT will also discuss the process for developing 
strategic pest management plans for agriculture and public health uses 
of pesticides, and work to ensure that high priority is given to risk 
management strategies for pesticides most likely to lead to exposures 
to children. In creating CARAT, EPA and USDA reaffirm their commitment 
to the key principles established by the Vice President: use of sound 
science in protecting public health; consultation with the public and 
other agencies; increased transparency; and, reasonable transition for 
agriculture.
    EPA has also developed a priority system to expedite review of 
applications for new pesticides to address pest control needs 
potentially impacted by FQPA. For instance, since organophosphate (OP) 
pesticides are one of the classes given priority for tolerance 
reassessment, the Agency has instituted a policy to give priority 
consideration to applications for organophosphate alternatives. Since 
the passage of FQPA, almost 25 OP alternatives have been identified--
some completely new chemicals--and almost half of them have already 
been registered. For example, spinosad, tebufenozide, methoxyfenozide, 
and pyriproxyfen have recently been registered as OP alternatives for 
use on apples, a crop which has historically high OP use. In fact, 
along with ``reduced-risk'' pesticides and other prioritized pesticide 
registrations, hundreds of new uses are now available. Likewise, EPA 
gives priority to applications for new minor use pesticides, methyl 
bromide alternatives, and for pesticides which may help address 
vulnerable crop/pest combinations.
    In addition to the registration process, EPA has instituted 
programmatic changes to facilitate transition for agriculture. For 
example, through its regions, the Agency initiated an Agriculture 
Initiative program. This Initiative, currently being piloted in four 
EPA regions, helps fund projects such as the gathering of use/usage 
data and the education of growers regarding alternative methods of pest 
control. The Agency also formed a Minor Use team to work more closely 
with minor crop growers and USDA.

    Question 3. I understand that before a pesticide can be on the 
market, it must undergo up to 120 scientific tests required by EPA to 
determine human health, safety, and environmental effects. Once EPA 
concludes that a pesticide has met FQPA's safety standards is it EPA's 
belief that the pesticide is safe for use? Does this safety 
determination apply to all approved uses (i.e., on a farm, in schools, 
around the home, on a golf course, and in other locations for which the 
product is intended)?
    Response. Yes, the decision to allow use of a pesticide means that 
EPA has determined that the uses specified on the label are within 
acceptable risk limits based on EPA's rigorous scientific review of 
available information. Still, those who are applying it and the public 
have to exercise caution and follow strict label requirements. In 
tolerance reassessment, FQPA specifically requires EPA to review 
potential risks to children, aggregate risks, and cumulative risks to 
ensure the pesticide meets today's more stringent scientific and 
regulatory standards.

    Question 4. EPA-approved pesticides help protect Florida citizens 
from serious diseases such as malaria and encephalitis through vector-
control programs. Loss of these pesticides will threaten public 
protection from disease-carrying mosquitoes, rodents, and cockroaches. 
The Food Quality Protection Act specifically directs EPA to work with 
FDA to ensure that public health pesticides continue to be available to 
prevent such disease outbreaks. What is EPA doing to ensure continued 
availability of these pesticides or reliable and effective alternatives 
in order to protect children and adults?
    EPA, in coordination with the Centers for Disease Control (CDC), 
developed a process to consult and advise on public health uses of 
pesticides so that critical public health use pesticides are available. 
To date, this process has been used in the review of 11 pesticides. In 
addition, the Agency and the CDC have discussed processes to ensure 
availability of public health pesticides including possible fee 
waivers, expedited processing of applications for new public health 
pesticides, and a possible mechanism to coordinate development of 
supporting data for public health pesticides facing regulatory action.
    Following passage of FQPA, EPA appointed a public health official 
who is charged with implementing the public health provisions of the 
law and serves as the point of contact for coordination with FDA, CDC, 
USDA and state and local public health officials. The Agency also 
established a public health steering committee which developed a 
consultative process with other Federal agencies and holds monthly 
coordination calls with CDC. EPA and CDC will shortly finalize a 
Memorandum of Understanding (MOW) to provide a framework for joint 
efforts and coordination. Although the MOU is not final, the two 
agencies have already begun many joint activities. For example, CDC and 
EPA have worked closely together in responding to West Nile Virus 
concerns and in the use of mosquito-control pesticides, and in 
addressing public health uses in the reassessment of OPs, such as 
chlorpyrifos and methyl parathion. EPA and FDA have also worked 
together in the review of some public health uses of malathion.

    Question 5. The medical community strongly recommends a diet rich 
in fruits and vegetables for better nutrition and disease prevention. 
How would the health of the American public be affected if FQPA reduced 
the availability of fresh fruits and vegetables, or priced them out of 
reach of low-income consumers?
    The American food supply is one of the safest and most abundant in 
the world. EPA strongly endorses the recommendations for a diet rich in 
fruits and vegetables. The need to maintain the variety and 
productivity of U.S. agriculture is very much a part of our approach. 
Implementation of FQPA will provide even more protection for consumers, 
particularly infants and children, while maintaining the availability 
for a wide selection of fruits and vegetables. While FQPA sets a tough 
health-based safety standard for pesticides, EPA is committed to 
balancing the provisions with the need to maintain pest control options 
for agriculture. EPA, in cooperation with USDA, will ensure a that a 
reasonable transition responsive to the needs of agricultural producers 
is provided to ensure that this balance is maintained.

    Question 6. As you implement FQPA, it is important to involve 
stakeholders, including farmers, mosquito control officials and others, 
to make sure their information and concerns are considered. What are 
your goals for the new Committee to Advise on Reassessment and 
Transition and what do you want to see it accomplish? Will this be a 
permanent advisory committee or will you allow it to sunset?
    Response. We are working closely with USDA and the agricultural 
community to ensure that our decisions are based on accurate 
information, which includes analyses of available alternatives. EPA, in 
cooperation with USDA, is providing a transition that works for 
agriculture. EPA and USDA are working to identify opportunities for 
reasonable transition and strategic management planning for agriculture 
and public health use pesticides. EPA's goal is to ensure greater 
protection of public health, while also ensuring that farmers have the 
tools necessary for food production. To address the concerns of all 
interested parties, EPA and USDA have established the Committee to 
Advise on Reassessment and Transition (CARAT), which met for the first 
time June 23, 2000. This committee is bringing together expertise from 
all perspectives, including farmers, mosquito control officials, 
industry representatives and others, to help guide EPA and USDA 
implementation of FQPA. CARAT is developing recommendations for 
reducing risks from older, riskier pesticides, with a focus on ensuring 
that farmers are provided a reasonable transition to safer pest 
management strategies, including chemical and non-chemical 
alternatives. CARAT will also discuss the process for developing 
strategic pest management plans for agriculture and public health uses 
of pesticides, and work to ensure that high priority is given to risk 
management strategies for pesticides most likely to lead to exposures 
to children. In creating CARAT, EPA and USDA reaffirm their commitment 
to the key principles established by the Vice President: use of sound 
science in protecting public health; consultation with the public and 
other agencies; increased transparency; and, reasonable transition for 
agriculture.
    The CARAT has been established for a 2-year term, through June 
2002, and at that time EPA and USDA will determine whether to extend 
the committee.

    Question 7. Can you describe the registration process that is 
underway for methyl bromide alternatives including timetables?
    Response. EPA gives expedited review and top priority registration 
review to all potential methyl bromide alternatives. Each new 
application of a potential methyl bromide alternative is screened by 
EPA/USDA's Joint Workgroup on Methyl Bromide Alternatives. Once a 
submission is verified as a legitimate methyl bromide alternative, it 
is placed at the top of EPA's work plan for review by Agency 
scientists. Actions receiving expedited review are typically ready for 
a registration decision within 18-22 months, as opposed to non-
expedited reviews which can take 32-40 months to complete. The EPA/USDA 
Workgroup has been actively meeting with growers, academics, university 
extension experts, and registrants to identify potential methyl bromide 
alternatives, coordinate research, and identify regulatory barriers 
that have to be addressed. EPA is sensitive to the importance of methyl 
bromide in agriculture and stands ready to work with the agricultural 
community to ensure that adequate pest control alternatives to methyl 
bromide are available.

    Question 8. In your meeting with my staff you indicated that the 
process to identify methyl bromide alternatives and the process of FQPA 
implementation are handled in different divisions of EPA. I am 
concerned that the process to register methyl bromide alternatives may 
be compromised in the push to implement FQPA. Can you describe the 
difference between these two processes and describe how EPA is ensuring 
that methyl bromide alternatives identification proceeds in a timely 
manner?
    As mentioned above, EPA has assigned highest priority to reviewing 
registration applications for alternatives methyl bromide. Tolerance 
reassessment and pesticide reregistration reviews are conducted by 
personnel dedicated to these separate activities. Generally, there is 
no conflict between the demands to review pesticide applications for 
methyl bromide applications and the demands posed by tolerance 
reassessment. Since these alternatives are the No. 1 priority, they 
receive expedited treatment, and are not compromised by tolerance 
reassessment or by any possible increase in registration review 
workload.
                                 ______
                                 
   Responses by James V. Aidala to Additional Questions from Senator 
                                 Baucus
    Question 1. It is important that implementation of FQPA be based on 
the best available and reliable information. For those cases in which 
pesticides or their uses are canceled, what is EPA doing to help 
farmers identify alternative products that can be used? With regard to 
the cancellation of chlorpyrifos, what action is EPA taking to prevent 
any disruption in grain marketing?
    Response. We are working closely with USDA and the agricultural 
community to ensure that our decisions are based on accurate 
information, which includes analyses of available alternatives. EPA, in 
cooperation with USDA, is providing a transition that works for 
agriculture. EPA and USDA are working to identify opportunities for 
reasonable transition and strategic management planning for agriculture 
and public health use pesticides. EPA's goal is to ensure greater 
protection of public health, while also ensuring that farmers have the 
tools necessary for food production. To address the concerns of all 
interested parties, EPA and USDA have established the Committee to 
Advise on Reassessment and Transition (CARAT), which met for the first 
time June 23, 2000. This committee is bringing together expertise from 
all perspectives, including farmers, industry representatives and 
others, to help guide EPA and USDA implementation of FQPA. CARAT is 
developing recommendations for reducing risks from older, riskier 
pesticides, with a focus on ensuring that farmers are provided a 
reasonable transition to safer pest management strategies, including 
chemical and non-chemical alternatives. CARAT will also discuss the 
process for developing strategic pest management plans for agriculture 
and public health uses of pesticides, and work to ensure that high 
priority is given to risk management strategies for pesticides most 
likely to lead to exposures to children. In creating CARAT, EPA and 
USDA reaffirm their commitment to the key principles established by the 
Vice President: use of sound science in protecting public health; 
consultation with the public and other agencies; increased 
transparency; and, reasonable transition for agriculture.
    EPA has developed a priority system to expedite review of 
applications for new pesticides to address pest control needs 
potentially impacted by FQPA. For instance, since organophosphate (OP) 
pesticides are one of the classes given priority for tolerance 
reassessment, the Agency has instituted a policy to give priority 
consideration to applications for organophosphate alternatives. Since 
the passage of FQPA, almost 25 OP alternatives have been identified--
some completely new chemicals--and almost half of them have already 
been registered. For example, spinosad, tebufenozide, methoxyfenozide, 
and pyriproxyfen have recently been registered as OP alternatives for 
use on apples, a crop which has historically high OP use. In fact, 
along with ``reduced-risk'' pesticides and other prioritized pesticide 
registrations, hundreds of new uses are now available. Likewise, EPA 
gives priority to applications for new minor use pesticides, methyl 
bromide alternatives, and for pesticides which may help address 
vulnerable crop/pest combinations.
    In addition to the registration process, EPA has instituted 
programmatic changes to facilitate transition for agriculture. For 
example, through its regions, the Agency initiated an Agriculture 
Initiative program. This Initiative, currently being piloted in four 
EPA regions, helps fund projects such as the gathering of use/usage 
data and the education of growers regarding alternative methods of pest 
control. The Agency also formed a Minor Use team to work more closely 
with minor crop growers and USDA.
    Regarding your question about the use of chlorpyrifos on grains, 
chlorpyrifos-methyl, not chlorpyrifos, is the primary non-fumigant type 
treatment used to control grain pests. The registrant is voluntarily 
canceling the uses of this pesticide. Because this important grain-
storage pesticide is being canceled, this crop/pesticide combination is 
now classified as a critical pest management need by EPA, and 
alternatives will receive prioritized pesticide registration status. 
Further, potential alternatives will receive priority research funding 
status with USDA. Also, USDA's Pesticide Management Alternative Program 
and its new Crops at Risk (CAR) and Risk Mitigation for Major Crop 
Production (RAMP) programs provide funding to seek both short- and 
long-term solutions to critical pest management needs like this.

    Question 2. Organophosphates (OP) pesticides, which account for 
about 70 percent of the current market, are being reviewed under the 
FQPA. EPA has announced its plans to complete the review of all OPs by 
the end of this year. How will EPA work with USDA to find suitable 
replacements for any OPs that may be canceled or will no longer be 
available as a result of the review?
    Response. EPA has developed a priority system to expedite review of 
applications for new pesticides to address pest control needs 
potentially impacted by FQPA. For instance, since organophosphate (OP) 
pesticides are one of the classes given priority for tolerance 
reassessment, the Agency has instituted a policy to give priority 
consideration to applications for organophosphate alternatives. Since 
the passage of FQPA, almost 25 OP alternatives have been identified--
some completely new chemicals--and almost half of them have already 
been registered. For example, spinosad, tebufenozide, methoxyfenozide, 
and pyriproxyfen have recently been registered as OP alternatives for 
use on apples, a crop which has historically high OP use. In fact, 
along with ``reduced-risk'' pesticides and other prioritized pesticide 
registrations, hundreds of new uses are now available. Likewise, EPA 
gives priority to applications for new minor use pesticides, methyl 
bromide alternatives, and for pesticides which may help address 
vulnerable crop/pest combinations.
    Additionally, we are working closely with USDA and the agricultural 
community to address the concerns of all interested parties. Again, EPA 
and USDA have established CARAT to bring together expertise from all 
perspectives to help guide EPA and USDA implementation of FQPA. In 
creating CARAT, EPA and USDA reaffirm our commitment to the key 
principles established by the Vice President: use of sound science in 
protecting public health; consultation with the public and other 
agencies; increased transparency; and, reasonable transition for 
agriculture.
    In addition to the registration process, EPA has instituted 
programmatic changes to facilitate transition for agriculture. For 
example, through its regions, the Agency initiated an Agriculture 
Initiative program. This Initiative, currently being piloted in four 
EPA regions, helps fund projects such as the gathering of use/usage 
data and the education of growers regarding alternative methods of pest 
control. The Agency also formed a Minor Use team to work more closely 
with minor crop growers and USDA.

    Question 3. Please describe how EPA will work with USDA to evaluate 
the impact on U.S. exports and commodity prices if U.S. growers cannot 
use discontinued pesticides but their foreign competitors can?
    Response. EPA, in cooperation with USDA, is working to ensure that 
there is a level playing field with our international trading partners. 
EPA has a policy of revoking tolerances for pesticides that are no 
longer registered in the U.S. This policy is based on the Agency's 
long-standing concern that retention of tolerances that are not 
necessary has the potential to allow foreign growers to continue to 
ship treated produce to the U.S., putting our own growers at a 
disadvantage. Also, FDA conducts sampling and testing of imported foods 
to detect potential pesticide residues. If there are detections of 
illegal pesticide residues the food is adulterated and seized.
    EPA is working with our international trading partners to inform 
them of our regulatory decisions, and to help promote the use of safer 
alternatives. For example, throughout the past 5 years, we have been 
working very closely with the Canadian Pest Management Regulatory 
Agency (PMRA) in jointly reviewing new pesticide applications for 
registration, and sharing work on many other pesticides. The agencies 
have completed four joint reviews of reduced risk pesticides, and seven 
other pesticides are either being jointly reviewed or in a work share 
mode, with several other candidates in the pipeline.
    EPA is also working to harmonize our regulatory standards among 
countries to help ensure that our farmers are not at a competitive 
disadvantage. For example, the U.S., Canada and Mexico have made a 
great deal of progress in pesticide regulatory harmonization as a 
result of work done under the North American Free Trade Agreement 
(NAFTA) Technical Working Group (TWO) on Pesticides. The work of the 
NAFTA TWO aims to develop a North American market for pesticides, and 
make work-sharing the way of doing business between the U.S., Canada 
and Mexico by the year 2002.

    Question. In conducting a more rigorous, thorough scientific review 
of pesticides, as required by FQPA, the cost of developing the 
necessary data, such as actual exposure and health effects, can be 
considerable. For some pesticides, especially those with limited or 
specialty uses, the cost of those tests may outweigh the return the 
manufacturer receives from the product. How serious a problem is the 
potential discontinuation of products due to the data development costs 
and how would you intend to address it.
    Response. EPA considers the pesticides you mention to be ``minor 
use'' crop pesticides--chemicals with limited or specialty uses. EPA is 
concerned about the minor use problem, and has a number of activities 
underway to help ensure that data development costs are considered in 
our data requirements. For example, EPA makes every effort to reduce or 
tailor data requirements to reflect the degree of exposure. Therefore, 
in many cases EPA has minimized data development costs.
    Since FQPA passed, the Agency has worked even more closely with 
USDA to expedite review and register minor crop pesticide alternatives, 
promote research and development of new safer minor use tools, and 
increase dialog with the minor crop community. EPA has established a 
system that gives priority to products with minor crop uses for 
conventional pesticides. USDA's Inter Regional Project No. 4 (IR-4) has 
been an important ally in accelerating the registration of alternatives 
to minor uses, with special emphasis on reduced risk products. EPA/IR-4 
partnership projects include: developing blanket tolerances for 
selected reduced-risk chemicals, significantly reducing review time; 
improving the tolerance petition format creating new crop groupings; 
streamlining the reduced risk justification format for minor uses; and, 
harmonizing registration data development with other countries. We are 
making significant progress to expedite registration of minor use 
pesticides. For example, in 1999 EPA established 32 tolerances for 
minor crops, and plan to review over 100 petitions on 40 active 
ingredients, which could result in 300 new registrations for minor 
crops in fiscal year 2000.
    To help facilitate minor use registration efforts, EPA also created 
a multi-disciplinary Minor Use Team and a Public Health Steering 
Committee. The goals of this group are to: provide greater coordination 
between EPA and minor use growers prior to decisions; increase 
coordination with USDA, the JR-4, industry, growers, and other 
stakeholders to promote registration of reduced-risk pesticides for 
minor uses; and, encourage the development of pesticide use and residue 
data. The Agency also appointed a minor use ombudsman within the Of 
lice of Pesticide Programs who's primary responsibility is to serve as 
liaison and advocate for minor crop grower needs.
    Through the Tolerance Reassessment Advisory Committee (TRAC), and 
now CARAT, EPA has increased consultation with pesticide stakeholders, 
including minor crop growers, encouraging comments on our 
implementation process and decisions. Working cooperatively with USDA, 
EPA has collected additional pesticide use and residue data for 
tolerance reassessments. USDA's National Agricultural Statistics 
Service and Pesticide Data Program provide statistically sound, 
reliable pesticide use and residue data and develop data collection 
based on EPA needs, which allows for better, more-informed regulatory 
decisions. We have also provided support to USDA's development of 
integrated pest management strategies. In fiscal year 2000, this 
includes over $10 million for pesticide alternatives programs at USDA. 
EPA is an active partner with USDA in selecting projects which fulfill 
the mission of these grants.
                                 ______
                                 
   Responses by James V. Aidala to Additional Questions from Senator 
                               Hutchison
Bt Cotton
    Question 1. What process has or will EPA employ to ensure that the 
reregistration decisionmaking process is transparent and timely? How 
has or will EPA involve growers in this process?
    Response. It is EPA's goal to assure that we continue to make our 
regulatory decisions within an open and transparent framework, and that 
we are fully informed by the most recent and best available scientific 
information. Specifically, EPA will shortly announce our public process 
to reach regulatory decisions on the Bt corn and Bt cotton expiring 
registrations. The process will include scientific peer review and 
public comment of EPA's risk assessment for the Bt products.
    The Agency will assure a transparent and interactive review process 
for its decisions and will involve all of our stakeholders--the 
manufacturers, the growers and the public, as we develop and implement 
a U.S. biotechnology program that provides the public with confidence 
in EPA's regulatory decisions, while providing U.S. farmers with the 
tools they need to continue to produce a safe and healthy food supply. 
This Agency is also committed to providing clear and timely information 
to the farming community to ensure our decisions are responsive to 
agricultural growing conditions.
    In fact, EPA recently held meetings with each of the stakeholder 
groups, including grower groups, to get input on the process for 
considering the reregistration of Bt corn and Bt cotton. In addition, 
EPA met with the National Cotton Council and the National Corn Growers 
Association on several aspects of the registrations of these products, 
especially resistance management. The National Corn Growers Association 
and the manufacturers all played a significant role in strengthening 
the resistance management plans for Bt corn for the 2000 growing season 
and beyond that were announced in January.

    Question 2. Does EPA have field data from commercial farming 
operations that indicates resistance is building in target insect 
populations that warrants changes in current refuge requirement?
    Response. Fortunately, no Bt resistant insects have been found in 
the field. However, independent scientific experts believe that 
resistance could occur under certain conditions, and that the 
development of resistance is significantly minimized with updated 
refugia requirements. EPA and the manufacturers have already 
implemented strengthened refugia requirement for Bt corn. As part of 
these measures, EPA is also requiring actual field monitoring as an 
early warning system to prevent potential resistance. EPA, in 
cooperation with the cotton scientists, growers, and the manufacturers 
have agreed to new and improved approaches to refuge management in Bt 
cotton to help ensure resistance does not develop.

    Question 3. What economic analysis has EPA completed to determine 
an economic threshold for these products in regards to refugia options?
    Response. An economic analysis to determine an economic threshold 
for these products in regards to refugia options is not necessary. By 
way of background, economic thresholds determine when it is appropriate 
to use a pesticide so that such use provides the farmer a benefit at or 
above the cost of the treatment. Refugia are established to help 
prevent resistance to Bt, and are not directly related to economic 
thresholds. Therefore, there is not an economic threshold per se in 
establishing a refuge. Preserving the effectiveness of Bt is critical 
to maintaining this important technology.

    Question 4. Would EPA propose new refuge requirements that have not 
been extensively field tested by commercial farmers? What 
communications has EPA had with growers to determine the feasibility of 
such proposals?
    Response. Academic, USDA, EPA, and industry scientists have been 
working on resistance management for the Bt crops since the development 
for these products. Scientific testing to strengthen existing refugia 
and developing new refugia options has been ongoing. New refugia 
options are typically tried on a small scale, and then tested further 
on a larger scale. Any new refugia options are discussed extensively 
with EPA, USDA, growers, and the manufacturers. Depending on the 
scientific results to prevent resistance and their practicality, are 
incorporated as necessary into agricultural growing practices.
    EPA has met frequently with the National Cotton Council, the 
National Corn Growers Association, and the National Potato Council to 
gain their perspective on resistance management, and to ensure the 
ongoing resistance management requirements are practical for growers to 
implement. As we move forward to review the expiring registrations for 
Bt corn and Bt cotton, we are establishing an extensive open and 
transparent process to provide input into our decisions. We encourage 
our stakeholders to comment in writing and in public when we hold 
public meetings, including meetings with our Scientific Advisory Panel 
meetings. We have also participated in meetings held by these grower 
organizations and visited field sites to specifically discuss 
resistance management with growers.

    Question 5. The registration of Bt cotton product expires with the 
current crop. When can farmers expect to learn what rules will apply to 
use of Bt cotton for the 2001 crop year?
    Response. EPA will shortly issue a Federal Register notice which 
will describe the process for consideration of the expiring Bt crop 
registrations. EPA is planning on using a process which will invite 
public participation from all interested parties, including farmers and 
grower groups. This process will include review of EPA's risk 
assessment by the FIFRA Scientific Advisory Panel as well as technical 
briefings. Farmers and all other interested parties will be invited to 
participate and comment on the draft risk assessment and risk 
management decisions for Bt crops. The Agency is sensitive to the 
seasonal planning needs of farmers, and will ensure that decisions on 
any new requirements, or other information critical to growers, are 
announced well in advance of the 2001 growing season.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Responses by James Aidala to Supplemental Questions from Senator Smith
                              enclosure 1
    Question 1. Is it accurate that EPA supports enactment into law of 
amendment No. 3308 as written?
    Response. As you are aware, EPA stated in a letter to Senator Boxer 
dated June 13, 2000, that EPA supports the goal of the amendment. As 
noted at the hearing, however, the amendment has not been subject to a 
full review by the Administration, nor has the Administration taken a 
position on the amendment.

    Question 2. If EPA supports elimination of the products restricted 
in amendment No. 3308, please outline and supply the scientific studies 
and other scientific basis in detail which influenced your judgment.
    Response. EPA supports the goal of limiting unnecessary exposure to 
children of pesticides. EPA is ready to work with the Department of 
Defense (DoD) and others to craft effective methods of pest control 
that will minimize exposures to children. In fact, there is already a 
foundation of success to build on in this regard. In 1996, EPA and DoD 
entered into a memorandum of understanding to form a partnership to 
promote environmental stewardship by adopting integrated pest 
management strategies. This effort has resulted in significant 
reductions of pesticide use by DoD.
    The categories of pesticides included in the amendment correlate 
with Group 1 of EPA's schedule for tolerance reassessment, consisting 
of pesticides which appear to pose the greatest risk to public health. 
A copy of the Federal Register Notice explaining the division of 
pesticides into groups is enclosed. The Agency is giving priority to 
the review of these pesticides through its tolerance reassessment 
process and will take appropriate action upon completion of the review. 
To date, the Agency has reviewed approximately 3,485 of the 9,721 
existing tolerances. When the Agency determines, after extensive 
scientific review, that the risks posed by a pesticide do not meet the 
FQPA standards it will move to eliminate the risk. For example, last 
August, the Agency negotiated agreements with the manufacturers of 
methyl parathion and azinphos methyl to either eliminate or reduce 
application rates on foods to address such unacceptable risks. 
Meanwhile, many of the pesticides included in the amendment are still 
undergoing reassessment.

    Question 3. If EPA opposes the amendment, supports changes to the 
amendment, or has concerns with the amendment, why was that not 
expressed in the letter?
    Response. As stated above, the June 13 letter reaffirms EPA's 
support for the goal of the amendment. Beyond that, the Administration 
has not taken a position on the amendment.

    Question 4. If the letter is neither supportive or in opposition to 
the amendment, what was the purpose of the letter?
    Response. Immediately after the June 13 confirmation hearing, EPA 
was asked by Senator Boxer to provide its views in writing on the 
amendment prior to the scheduled floor consideration of the amendment. 
As Mr. Aidala testified, the amendment had not received Administration 
review. Given the limited time available, the Agency stated its support 
for the goal of protecting children from unnecessary pesticide exposure 
and to explain our current activities in that area. We also expressed 
our willingness to work closely with the DoD on this issue.

    Question 5. Were you aware of this letter at the time of your 
testimony and if so, why was it not referenced before the committee?
    Response. At the time of Mr. Aidala's testimony, EPA was not 
preparing a letter, it was only upon the conclusion of the hearing that 
a request was received from Senator Boxer for such a letter. At the 
time of the hearing, Mr. Aidala was only aware that Senator Boxer was 
considering introducing such an amendment.

    Question 6. If you were not, were you subsequently consulted?
    Response. Mr. Aidala was subsequently informed that EPA's Of lice 
of Congressional and Intergovernmental Relations received a request 
from Senator Boxer to clarify EPA's views.

    Question 7. If you were not consulted, why were you not consulted?
    Response. Not applicable.

    Question 8. Please reconcile your testimony with the letter.
    Response. The letter and, to the best of our understanding, Mr. 
Aidala's testimony state that EPA supports the goal of protecting 
children from unnecessary pesticide exposure, and that EPA supports the 
goal of the amendment. As noted at the hearing, however, the amendment 
has not been subject to a full review by the Administration.

    Question 9. Does EPA already protect children on military bases 
from harmful pesticides?
    Response. The protection of children is one of our highest 
priorities. When we register, reregister, or reassess tolerances for 
existing pesticides we try to ensure that our actions are protective of 
all consumers, especially children. FQPA requires special protections 
for infants and children including: an explicit determination that 
tolerances are safe for children; an additional safety factor, if 
necessary, to account for uncertainty in data relative to children; and 
consideration of children's special sensitivity and exposure to 
pesticide chemicals.

    Question 10. If not, why not?
    Response. Not applicable.

    Question 11. If so, why is this legislation necessary?
    Response. EPA supports the goal of limiting unnecessary exposure to 
children from pesticides and respects the authority of Congress to 
impose restrictions beyond the current regulatory program.

    Question 12. List the products that would be impacted by this 
amendment?
    Response. As stated earlier, the products correlate with those on 
Group 1 of EPA's tolerance reassessment schedule. A copy of that 
schedule of information is enclosed.

    Question 13. Describe the nature of the products in a range from 
threatening to benign that would be affected by this amendment?
    Response. Pesticides which were included in Group 1 were those that 
EPA identified as appearing to pose the greatest risk to public health. 
The Agency did not distinguish among products in this group in terms of 
their potential effects.

    Question 14. Do any of these products have positive benefits to 
children's health?
    Response. When used according to label directions many of these 
products could be used for pest control, sterilization of medical 
instruments, or other uses potentially beneficial to children.

    Question 15. If so, is there any risk to children if Congress 
prevents the availability of these products?
    Response. EPA is not sufficiently aware of DoD's pest control needs 
to make that determination. To make a proper assessment, the Agency 
would need to know what products are used, and how they are used so 
that alternatives could be considered. It should be noted that through 
EPA's Pesticide Environmental Stewardship Program, DoD has committed to 
moving toward pesticide alternatives and less use of pesticides, or use 
of less toxic pesticides. DoD has been recognized by EPA for their 
tremendous progress in this area.

    Question 16. What is the availability and cost of substitute 
products?
    Response. Again, EPA would need to know more about the DoD's pest 
control needs to make that determination.

    Question 17. Are any of the products affected by this amendment 
products that were NOT restricted in an equivalent way by the 
chlorpyrifos agreement announced by EPA last week?
    Response. There would be many other products affected that were not 
part of last week's agreement, although chlorpyrifos products would be 
part of the list of affected pesticides.

    Question 18. If so, which products/uses permitted under the 
chlorpyrifos agreement would not be permitted under this amendment?
    Response. This would require detailed knowledge of DoD pest control 
needs, but might affect any of the pesticides under Group 1, including 
chlorpyrifos.

    Question 19. Did EPA consult with DoD prior to the 6/13/00 letter 
to coordinate the Administration's view on the amendment?
    Response. EPA did not formally consult with DoD in preparing this 
specific letter. The letter stated that EPA supports the goal of 
protecting children from unnecessary pesticide exposure, and that EPA 
supports the goal of the amendment. As noted earlier, however, the 
amendment has not been subject to a full review by the Administration.

    Question 20. Is EPA, in general, supportive of Congress 
substituting its own judgment in place of that of EPA's by bypassing 
the existing regulatory system that relies on science and is already in 
place?
    Response. EPA respects the role of Congress to enact laws and 
conduct oversight on their implementation by the Administration. EPA 
stands ready to work with Congress to ensure the necessary pest control 
tools are available while minimizing unnecessary risk.

    Question 21. In general, is EPA supportive of broad new regulatory 
requirements added as legislative provisions to appropriations bills 
without the benefit of public hearings and if so why was this amendment 
not opposed on that basis?
    Response. In general, the Administration opposes riders to 
appropriations bills that weaken environmental protections. As stated 
above, EPA supports the goal of limiting unnecessary exposure of 
children to pesticides. This is consistent with the emphasis of FQPA's 
mandate to protect infants and children.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
